<html>
<title> - MISSING AND MURDERED: CONFRONTING THE SILENT CRISIS IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 115-611]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-611

 MISSING AND MURDERED: CONFRONTING THE SILENT CRISIS IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2018
                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
                  
                  
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-338 PDF                 WASHINGTON : 2019                  





                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
JON KYL, Arizona
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 12, 2018................................     1
Statement of Senator Barrasso....................................     3
Statement of Senator Cantwell....................................     9
Statement of Senator Cortez Masto................................    26
Statement of Senator Daines......................................     8
Statement of Senator Heitkamp....................................     7
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     5
Statement of Senator Smith.......................................    31
Statement of Senator Tester......................................     4
Statement of Senator Udall.......................................     2

                               Witnesses

Addington, Charles, Director, Office of Justice Services, Bureau 
  of Indian Affairs, U.S. Department of the Interior.............     9
    Prepared statement...........................................    11
Alexander, Patricia, Co-Chair, Violence Against Women Task Force, 
  Central Council of Tlingit and Haida Indian Tribes of Alaska...    43
    Prepared statement...........................................    45
Crotty, Hon. Amber, Delegate, Navajo Nation Council..............    34
    Prepared statement...........................................    36
Johnson, Robert, Assistant Director, Criminal Investigative 
  Division, Federal Bureau of Investigations, U.S. Department of 
  Justice........................................................    13
    Prepared statement...........................................    13
LaPorte, Gerald, Director, Office of Investigative and Forensic 
  Sciences, National Institute of Justice, U.S. Department of 
  Justice........................................................    15
    Prepared statement...........................................    17
Loring-Heavy Runner, Kimberly, Missoula, MT......................    50
    Prepared statement...........................................    52

                                Appendix

Response to written questions submitted by Hon. Catherine Cortez 
  Masto to Patricia Alexander....................................    68
Response to written questions submitted by Hon. Tom Udall to:
    Patricia Alexander...........................................    67
    Kimberly Loring-Heavy Runner.................................    67

 
 MISSING AND MURDERED: CONFRONTING THE SILENT CRISIS IN INDIAN COUNTRY

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:49 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. We will call the hearing to 
order. Thank you for coming today.
    Today, the Committee will hold its last oversight hearing 
this Congress on the very important topic of missing and 
murdered individuals in Indian Country. This matter involves 
Indian children, youth, men and women, and affects tribal 
communities across the Country.
    The Departments of Justice and the Interior are required to 
investigate and prosecute homicides committed against or by 
Indians on tribal lands. However, it is less clear who has the 
responsibility for investigating cases of missing indigenous 
individuals. This lack of clarity has left tribes and families 
unsure of who to call for help, and has contributed to a lack 
of knowledge on the scope of the problem. Families want justice 
and closure and tribal leaders want answers and support.
    During this Congress, the Committee has held oversight and 
legislative hearings related to the issue of public safety, law 
enforcement, victim services and human trafficking in Indian 
Country. The Committee has also worked to enhance public safety 
through initiatives such as the Ashlynne Mike Amber Alert in 
Indian Country Act, which is now public law; S. 1953, the 
Tribal Law and Order Act Reauthorization; S. 1870, the Securing 
Urgent Resources Vital to Indian Victim Empowerment, or SURVIVE 
Act; S. 1942, Savanna's Act; S. Resolution 401, National Day of 
Awareness for Missing and Murdered Native Women and Girls; and 
the Commissioning of GAO Oversight on Human Trafficking of 
Native Americans.
    This Committee has made it a priority to improve public 
safety in Indian Country. There are many other initiatives that 
we can discuss. However, there is much more work to be done.
    From the data received from the Department of Justice, 
American Indian and Alaska Natives experience some of the 
highest victimization rates when compared to other population 
groups. It is past time that we understand the scope of the 
problem and work toward viable solutions.
    Today we will hear from multiple Federal agencies on how 
they are working to better handle cases of missing and murdered 
individuals. I look forward to hearing from our witnesses 
today. I want to thank each of them for being here, especially 
those joining us from the Department of Justice, FBI, National 
Institute of Justice, Department of Interior and others. It is 
important for Indian Country to hear from you.
    Before we turn to their testimony, I want to ask Vice 
Chairman Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you so much, Chairman Hoeven, for 
holding this oversight hearing on missing and murdered 
indigenous people. Today's hearing is an important step toward 
fully understand the scope and working to address the crisis in 
Indian Country.
    To begin with, I would like to extend a special welcome to 
one of our witnesses, Navajo National Council Delegate, Amber 
Crotty. Delegate Crotty has been and continues to be a great 
advocate for the Navajo Nation and for Native women. Thanks to 
you and each of the witnesses for joining us on such an 
important discussion.
    I would also like to acknowledge Deb Haaland of New 
Mexico's Laguna Pueblo, who also happens to be Representative-
Elect for New Mexico's First Congressional District, and who 
was just appointed to the House Democratic Steering Committee. 
I know Deb will bring her commitment to ending violence against 
Native women with her to D.C. next Congress, and I look forward 
to working with Deb and other members of the New Mexico 
delegation on ending the MMIW crisis and making Indian Country 
safer. They are both sitting there right in the front row. Deb 
is on the front row and Amber is right next to her there.
    In the 115th Congress, this Committee has held a number of 
oversight hearings on Federal law enforcement efforts and crime 
responses in Indian Country, including human trafficking and 
juvenile justice. We have also received testimony on 
legislation, including Senator Hoeven's SURVIVE Act, and 
Senator Heitkamp's Savanna's Act, both of which would go a long 
way toward providing tribes the tools necessary to improve 
tribal-State-Federal law enforcement coordination.
    We learned from these hearings that three core issues, poor 
coordination, limited data and insufficient resources are 
slowing progress in all aspects of improving tribal public 
safety. For the MMIW crisis in particular, these issues are 
unfortunately no different. Poor coordination strains the 
resources of already over-extended law enforcement agencies. 
Under-resourced MMIW responses, in turn, have a negative effect 
on coordination efforts and the ability to gather accurate 
data. Limited-to-zero data reporting means communities won't 
know where to target resources, and lack of coordination will 
continue unabated.
    All three issues pose barriers and lead to fewer answers, 
fewer solved cases and fewer Native families seeing justice 
served. And most notably, all three hinder the Federal 
Government's obligation to meet its trust and treaty 
obligations to tribes.
    It is absolutely crucial we address these gaps for missing 
and murdered indigenous women, and improve Federal policies to 
make better progress. Today's hearing will the Committee's last 
of the 115th Congress. It is an opportunity to refocus on an 
area that has drawn much of the Committee's attention over the 
last two years, public safety and violence against Native 
women.
    With three hearings, a listening session and numerous bills 
on these topics, we have seen this Committee's dedication to 
making every member of every Native community safer. Despite 
this work, and this should not be a surprise to anyone, we will 
hear the witnesses today calling on the Committee to do more. 
No ifs, ands, buts about it, we must do more.
    Our work this Congress has been important. But we need to 
redouble our efforts and our commitment to all the tribal 
leaders and stakeholders here today and listening in. Thank you 
for your work and advocacy on these very important issues. 
Congress needs to hear directly from those undertaking the 
daily work at the grass roots level to combat violence against 
Native women. We must continue to have MMIW a front and center 
issue. Your contributions here today help strengthen the call 
to do just that.
    And Mr. Chairman, thank you once again for holding this 
hearing.
    The Chairman. Thank you, Vice Chairman Udall. Senator 
Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for an 
opportunity to say a few words before we hear from our 
witnesses today. I appreciate very much your holding a hearing 
on this very important topic.
    Mr. Chairman, all of us on this Committee are painfully 
aware of the impact that violence has in tribal communities all 
across the Country. In 2016, the Department of Justice issued a 
report that said that four out of five American Indian and 
Alaska Native men and women have experienced violence at least 
once.
    Last September, this Committee held a hearing on two GAO 
reports on human trafficking of Native Americans. Senator 
Tester and I requested the reports when we were chairman and 
vice chairman of this Committee, because there was a complete 
lack of information related to human trafficking impacts in 
Indian Country. That GAO report showed that of 6,100 
investigations, and 1,000 prosecutions of human trafficking in 
the United States during the years 2013 to 2016, only 14 of the 
investigations and only two of the Federal prosecutions 
involved an American Indian or Alaska Native individual.
    As I said during that hearing last September, the fact that 
there were so few cases involving Indian Country didn't tell me 
that human trafficking was not a problem. Instead, it seemed 
obvious to me that the crimes are significantly under-reported, 
under-investigated and under-prosecuted. Seems the same as the 
case here.
    Ms. Loring-Heavy Runner, I appreciate your being with us 
here today to share your story, which is your sister's story. I 
am so sorry for the pain you have had to endure as you continue 
to search for your sister. Stories like Ashley's are all too 
common. The missing and murdered are sisters, fathers, mothers, 
sons; the losses are horrific. That they are not represented in 
the data is also horrific.
    This Committee has undertaken a number of efforts to ensure 
tribes have access to Federal data bases and are able to 
coordinate with Federal officials. As recent cases have shown 
us, often we do not have the data to understand the scope of 
the effect that violent crime has in Indian Country because the 
data does not paint a clear or accurate picture of tribal 
affiliation.
    Understanding the scope of the problem is just the first 
step. As a Committee and as a community, we must have this 
information so we can accurately identify risk factors that 
exacerbate violent crime in tribal communities.
    Not long ago, this Committee discussed opioid addiction and 
addiction prevention measures. In that hearing, I raised the 
need to work together as communities to address addiction. I 
think the same applies when discussing violent crime. 
Commitment at the community level is key to successful 
coordination of Federal, State and tribal tools.
    I look forward to hearing from you, Ms. Alexander, about 
your experience in Alaska, and how your work can help us here 
today.
    Mr. Chairman, no family should have to wonder whether their 
loved one will ever be found. And in the horrible cases where a 
loved one becomes a victim of violent crime, they should be 
represented in the statistics and data sets that will help 
shape policy to help prevent future losses.
    I want to thank each of our witnesses today for their 
commitment to public safety in Indian Country and their work to 
provide answers to so many families. I look forward to hearing 
the suggestions in how we can work better together.
    Thank you, Mr. Chairman.
    The Chairman. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
you and the ranking member for holding this hearing today on 
the MMIW. It is critically important.
    I want to also thank Senator Heitkamp for bringing this 
issue up early in this Congress, and our leadership here is 
very, very much appreciated.
    We are here today because we have an epidemic on our hands. 
Native Americans in Montana and across this Country are dealing 
with violence at a much higher rate than the rest of the 
population. Too much violence has gone unreported, and when 
that violence has been reported, it has gone unchallenged, with 
no resolution. This must change. It deserves this Committee's 
full attention. I think it deserves Congress' full attention.
    I met with folks in Missoula earlier this year. One of 
those folks is Briana Lamb, a strong local advocate. She is 
with us here today. They told me that since the first of the 
year, almost two dozen Native Americans have gone missing in 
Montana alone. At that time, only one had been found. There is 
more than that has been missing now at this date. I think only 
two have been found. One has passed, one had been killed and 
the other was found alive.
    You cannot step foot in Indian Country without hearing a 
heartbreaking story about this growing problem. That is why we 
are here today. We need to know exactly what is happening and 
exactly what can happen to solve this problem. Because these 
are people, these are families, these are communities that our 
law enforcement agencies need to look out for.
    Ms. Loring-Heavy Runner, you have been talked about all day 
today. Thank you for being here. I appreciate your advocacy and 
hopefully the issue with your sister can be resolved in a very, 
very positive way. But the fact is right now, there are way too 
many unknowns in that particular case. You know that better 
than anybody.
    We have legislation to pass, and we can do that to help 
with this epidemic. But really, this first panel's going to be 
critically important. Because number one, I want to know if you 
think there is a problem, number two, what can we do to solve 
the problem. Because I am telling you, 24 doesn't sound like a 
lot, but in a State of a million people, if you put that out to 
the population, that would be a ton of folks. We have to find a 
solution to this. It simply cannot go on as it has gone on for 
the last number of years.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman and Vice 
Chairman Udall. Thank you for scheduling this very, very 
important hearing to address the issue of missing and murdered 
American Indians and Alaska Natives. To Senator Heitkamp, I 
know that this is probably your last hearing before this great 
Committee. I want to thank you for your work on the Committee, 
but more importantly, for the work that you have done in 
leading all of on this very important issue of how we do better 
by our Native women.
    The threats to their safety, the threats to their families, 
and then knowing when some awful, awful tragedy befalls them 
that oftentimes the effort to bring perpetrators to justice, or 
to even find out what happened in the matter is just left 
unattended. So it is tragedy compounded on tragedy. So thank 
you for raising the awareness. You know that your work is not 
done, you know that we will all be working with you as we pay 
attention to these critical, critical issues.
    I want to acknowledge all those who are with us on both 
panels. I want to particularly welcome our witness from Alaska, 
Patricia Alexander. She is Tlingit, she is from Sitka, Alaska. 
She is co-chair of the Violence Against Women Task Force of the 
Central Council of Tlingit & Haida Indian Tribes of Alaska. As 
Pat will probably share in her testimony, Tlingit Haida is a 
federally-recognized tribal government in Alaska. It has over, 
I think it is about 30,000 citizens within. You serve 20 
villages and communities. And this is spread out over an area 
of 43,000 miles. This is roughly the size of the State of 
Louisiana.
    So it is big, it is difficult to get around. There are no 
roads between the communities. You are either there by boat or 
by airplane. The reality is, when there is an emergency, it 
really is the State troopers that may be miles and miles away, 
but those are air miles, those are boat miles. And the ability 
to respond in these emergency situations is very, very limited.
    I am reminded of the tragic death of young woman by the 
name of Mackenzie Howard. Mackenzie was found murdered in the 
small community, southeastern community of Kake. Kake has about 
500 people in it right now. Mackenzie was 13 years old when she 
was found murdered in the church doorway, the church doorway 
there of the village. Kake did not have law enforcement 
presence at the time, so the Kake tribal president, without any 
badge, without any real jurisdiction, had to post volunteers to 
guard the body, because it was a crime scene. Guard the body 
until the State troopers came.
    The State troopers came the following day. For 16 hours, in 
a small village, to have to stand guard over the body of a 13-
year old girl who has been murdered, this shocks a community. 
It shocks a people. But that was what was necessary in order to 
collect the body and the evidence, so that there could be a 
case made going forward.
    In Alaska, we have what we call VPSOs, village public 
safety officers. They are often the first and really the only 
responder in the communities. The harsh reality is that in 
communities like Kake all over the State, we have numerous 
rural communities that are hundreds of miles away from the 
nearest community with a VPSO or a member of law enforcement.
    You compound that with the fact that many of these 
communities don't have a 911 service to speak of. In the event 
that you do, if you call 911 or local law enforcement, you are 
likely to get an answering machine if you get anything at all. 
So these are some things that we take for granted back here in 
a city, in our larger communities. But that is not the reality 
of far too many in a state that I represent.
    I was in the community of Kotzebue, a large Native 
community up in northwest Alaska. I was there in the fall to be 
at a memorial service for a ten-year old girl, Ashley Johnson-
Barr, who had been abducted and murdered. Her remains were 
found just outside of the community of Kotzebue. But it was a 
multi-day community search to find her. Being there for her 
funeral was just a very stark reminder to me that these 
incidents, these are not statistics. These are children, these 
are young women, these are friends, these are sisters, 
daughters, neighbors. You are right, Senator Tester, we have to 
be doing more. We all know that.
    So the effort to shine the light on this is important. But 
we kind of know that it is bad out there. So let's figure out 
how we stop the bad and take action. Because too many children 
are those that are among the missing.
    Thank you, Mr. Chairman. I appreciate it.
    The Chairman. Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Lisa is absolutely right. This is not to 
discover if we have a problem, but to discover the extent of 
the problem, which as we know from a lot of evidence and a lot 
of discussion with people in Indian Country, when on Standing 
Rock, two friends can sit down and come up with 25 names. When 
you talk to the victim service people at Mandan Hidatsa and 
Arikara Nation and she knows just within 18 months five women 
who were killed and murdered, within 18 months. I would just 
suggest to you, that is a population of about 2,400 women. 
Think about the percentage homicide rate.
    So we know we have a problem. The question is, are we 
willing to stand up and do something about it? Savanna's Act, 
as we said during the markup, when we advanced it, is only that 
first step. It is only as good as you guys. It is only as good 
as your commitment to solving this problem, which is why we are 
in this hearing.
    I want to say just frankly, I just did a Skype with an 
amazing 12th grade senior class, well, that high school. And a 
young woman said, ``How is it going with Savanna's Act?'' Young 
women and Indian people across the Country are watching us. 
They want to know that we are listening, that we are going to 
do something.
    So the purpose of this hearing is not to talk about whether 
we have a problem. It is to talk about what you are going to do 
about it. Because it has been ignored too long, and please, 
don't say you share our concern, because we need to see action. 
We need to see commitment. We need to see that this is going to 
be your top priority.
    I have said this over and over again, and I will make this 
my last comment. You are the cop on the beat for major crimes 
in my State and Indian Country. You are the cop on the beat. 
When these crimes go uninvestigated, when they go unsolved for 
long, long periods of time or ignored for long, long periods of 
time, that is your failure. It is not the community's failure, 
it is your failure.
    And no cop and no law enforcement official wants to have 
unsolved cases. Just because people have been marginalized 
historically does not mean that we are going to tolerate this 
going forward.
    So I want to thank the chairman and the vice chairman for 
making this priority. I know many of you, and I know what is in 
your heart. But you need to tell us if you need more resources. 
You need to tell us. Because you are the point of 
accountability.
    So I look forward to working with all of you in some other 
capacity as we move this forward. I again thank everyone for 
the attention.
    But I will tell you, there is a lot of people in this room 
that the eyes of Indian men and women in Indian Country are on 
you. And they are on us to do something about this problem.
    The Chairman. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    When we think about Indian Country in Montana, we think 
about the beauty, the vibrant culture, and tragically the 
challenge of missing and murdered Native and indigenous women 
that we will talk about here today. That is why I requested 
this hearing several weeks ago.
    I have recommended we hear directly from Montanans like 
Kimberly Loring-Heavy Runner about the tragedy they are facing. 
Kimberly is sitting right here, in fact, next to her cousin, 
Alyssa, as well. They were in my office yesterday. Thank you 
for the discussion that we had yesterday, talking about 
specifically the case and frankly, a lot of dropped balls in 
the investigation.
    Native American women face murder rates more than ten times 
the national average murder rates. If these numbers were seen 
in any other community, there would be far greater public 
outcry. For too long, the stories of these women and girls has 
gone unheard. We are going to hear about it today.
    Today, we are going to hear first-hand accounts on the 
widespread effect this epidemic is having on our tribal 
communities and as mentioned, a first-hand account from 
Kimberly Loring-Heavy Runner about her sister, Ashley, still 
missing from June of 2017. Her case is still unresolved despite 
multiple leads and evidence.
    This year, we passed a resolution--I introduce it every 
year--to make May 5th a national day of awareness of missing 
and murdered Native women and girls. Why May 5th? It is May 5th 
because that is the birthday of Hanna Harris from the Northern 
Cheyenne Reservation, northern Cheyenne Tribe. Hanna was 21 
years old with a 10-month old baby when she was murdered. May 
5th is her birthday.
    I remember when we launched this, I was in Lame Deer on the 
Northern Cheyenne Reservation, marching with Hanna Harris' mom. 
Nobody should have to bury a daughter. Nobody should have to 
have a little grandbaby to raise because their mother was 
murdered.
    In this Congress, we have also passed the reauthorization 
of the Tribal Law and Order Act and the SURVIVE Act. Both bills 
will help expand access to data and programs in Indian Country 
to help take on this issue. I also introduced the Mitigating 
Meth Act to help fight the substance abuse problems we see in 
Indian Country. One of the contributing factors, I was chatting 
with Kimberly and her cousin Alyssa yesterday. There is no 
doubt drugs, perhaps meth, plays a contributing factor in this 
tragedy. Many of these crimes are drug-related. Meth is driving 
violent crime across this Country, and we see it as a very 
great problem in Indian Country.
    We must put a stop to these trends. We do all we can to 
foster a safe, thriving Native American community.
    I want to thank the Chairman and the Vice Chairman for 
holding this hearing. I look forward to today's discussion.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I know that 
there is a vote on, and I will try to be brief so we can get to 
the witnesses. I thank my colleagues for their impassioned 
discussion already about this. I certainly want to thank 
Senator Heitkamp for her leadership. Clearly, her leadership on 
this Committee, particularly with Savanna's Act and many other 
issues related to Indian Country, will sorely be missed. I want 
to thank her for all of that leadership.
    We know that one in every five women will experience sexual 
assault in their lifetime in Indian Country. But that isn't 
often highlighted. Native women face many barriers that can 
prevent the perpetrators from being convicted. The Seattle 
Indian Health Board recently released a report that showed just 
how serious this issue is. The report found that nationwide, 
there are 506 cases of murdered or missing Native American 
women. The report found that City of Seattle is the highest in 
the Nation with the total number of missing individuals. But 
Tacoma was not far down the list.
    So this is an issue that the State of Washington, along 
with my colleagues who have already spoken, show that this is 
an issue across the west that many, many people want to see 
serious action to address. It is one of the reasons that not 
only am I proud to sponsor the Savanna's Act with my 
colleagues, that will help us in improving the reporting, but 
we need to do something, Mr. Chairman, now, to get this over 
the goal line in this session.
    I hope that we will make this a priority, and I look 
forward to working with my colleagues on many aspects of this 
problem, and listening to our witnesses today. Thank you.
    The Chairman. Senator Cortez Masto, did you have anything?
    Senator Cortez Masto. No, thank you, Mr. Chairman.
    The Chairman. We will proceed with our witnesses, then. Our 
witnesses today are Mr. Charles Addington, Deputy Associate 
Director, Bureau of Indian Affairs, office of Justice Services, 
Washington, D.C. Thank you. Mr. Robert Johnson, Assistant 
Director of the Criminal Investigative Division, Federal Bureau 
of Investigations, Pittsburgh, Pennsylvania. Welcome. Mr. 
Gerald LaPorte, Director, Office of Investigative and Forensic 
Sciences, National Institute of Justice, Washington, D.C.
    We have a vote on right now, so members will be coming and 
going a little bit. But if you would please proceed with your 
opening statements, starting with Mr. Addington.

  STATEMENT OF CHARLES ADDINGTON, DIRECTOR, OFFICE OF JUSTICE 
           SERVICES, BUREAU OF INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Addington. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall and members of the Committee.
    My name is Charles Addington. I am the Director of the 
Bureau of Indian Affairs Office of Justice Services, at the 
Department of the Interior. Thank you for the opportunity to 
provide a statement before this Committee on the crisis of 
missing persons and murdered victims in Indian Country. More 
than half of Native American women have been sexually 
assaulted, including over a third have been raped during their 
lifetime, a rate of rape nearly two and a half times higher 
than white women, according to the 2016 National Institute of 
Justice study.
    With indigenous women and girls facing alarming levels of 
violence across the Country, more can be done to support 
meaningful efforts to address the high rates of violence in 
Indian Country. Although the Violence Against Women and the 
Tribal Law and Order Act have helped bring attention to the 
high rate of violence and have begun to address gaps in law 
enforcement for tribes and Federal authorities, there remain 
gaps in data that exacerbate the crisis of missing and murdered 
indigenous women. These challenges are present across multiple 
sectors. They are particularly problematic in the context of 
criminal justice in which Federal, State, tribal and local 
governments share responsibilities.
    It is important to continue efforts to build accurate data 
and provide Congress, the public and most importantly, the 
tribes, with the information needed to identify and analyze the 
criminal justice needs in Indian Country. These data gaps 
impact how law enforcement officials handle or follow up on 
these cases, predominantly due to under-reporting, racial 
misclassification, potential gender or racial bias, and a lack 
of law enforcement resources required to follow through and 
close out cases appropriately.
    In 2017, Urban Indian Health Institute surveyed 71 cities 
across the U.S. to collect data on murdered and missing 
indigenous women and girls in urban settings. The Institute's 
survey and analysis of the collected data culminated in their 
2018 report, Missing and Murdered Indigenous Women and Girls, 
which highlights some of the challenges of data collection with 
respect to American Indian and Alaska Natives in urban 
populations.
    For Indian Country, BIA collects monthly crime statistics 
from tribal and BIA law enforcement programs and submits the 
information to the Federal Bureau of Information each quarter. 
The information collected is specific to the data required for 
the FBI Uniform Crime Report, which currently does not track 
missing persons or domestic violence statistics.
    In light of these significant data collection challenges 
facing missing and murdered indigenous persons, BIA has 
partnered with the DOJ's Missing and Unidentified Persons 
system, a program of the National Institute of Justice to 
create new data fields in their system to specifically capture 
tribal affiliation data. The new fields are expected to be 
operational after January 1st, 2019. This will assist law 
enforcement agencies across the jurisdictions with tracking and 
investigating missing persons throughout the Country.
    Moving forward, better interagency coordination and 
cooperation is needed to improve the integrity of data 
collection. While it widely believe that there may be a 
correlation between opioid and other narcotic abuse and human 
trafficking, domestic violence and missing and murdered 
indigenous women, without sufficient data it is difficult to 
draw solid conclusions. Federal agencies must develop concrete 
solutions to improve agency data collection to ensure these 
crimes are being tracked and investigated appropriately, so 
that any trends can be properly identified and addressed.
    For example, adding these types of incidents to the data 
collection by DOJ and BIA in making the data submissions 
mandatory from all law enforcement agencies. This would be a 
great start to addressing the data collecting problem.
    BIA has also begun efforts to raise awareness and provide 
training to Indian Country law enforcement personnel. In 
January 2018, the BIA-Indian Police Academy began discussions 
with the National Criminal Justice Training Center on 
collaborating to create joint training programs for cold case 
investigations, long-term missing investigations and child 
abduction investigations for use throughout Indian Country.
    To specifically address the missing person aspect of this 
issue, earlier this year, BIA-Indian Police Academy launched 
human trafficking courses in the Indian Country Police Officer 
training program, the Basic Police Officer Bridge Training 
Program and the Indian Country Criminal Investigative Program. 
In February, 2018, the National Criminal Justice Training 
Center and the BIA-Police Academy identified dates and 
locations for three pilot training programs on advance cold 
cases, long-term missing investigations in Montana and North 
Dakota. The three training programs were held at the Blackfeet 
Tribe in Montana and Three Affiliated Tribes in New Town, North 
Dakota. The three training programs were held at Blackfeet, 
Montana and New Town, North Dakota. A total of 117 personnel 
were trained in these programs.
    The BIA-Indian Police Academy is also scheduled to 
participate in the assessment of a National Criminal Justice 
Training Center project to create a web/mobile-capable 
investigative guide for tribal first responders on endangered 
missing and abducted persons.
    As I have outlined here today, BIA Office of Justice 
Services has taken numerous steps this year to create a number 
of solutions to address the crisis of missing persons and 
murder victims in Indian Country. We look forward to working 
with our other Federal and tribal partners to collaborate on 
sound solutions to protect and serve our Native men, women, and 
children.
    Again, thank you for the opportunity to provide a statement 
and my written testimony will be provided for the record. I am 
happy to answer any questions the Committee may have.
    [The prepared statement of Mr. Addington follows:]

 Prepared Statement of Charles Addington, Director, Office of Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Good afternoon, Chairman Hoeven, Vice Chairman Udall, and members 
of the Committee. My name is Charles Addington and I am the Director of 
the Bureau of Indian Affairs (BIA), Office of Justice Services (OJS) at 
the Department of the Interior (Department). Thank you for the 
opportunity to provide a statement before this Committee on the crisis 
of missing persons and murder victims in Indian Country.
    More than half of Native American women have been sexually 
assaulted, including over a third who have been raped during their 
lifetime--a rate of rape nearly 2.5 times higher than for white women, 
according to a 2016 National Institute of Justice study. \1\ With 
indigenous women and girls facing alarming levels of violence across 
the country, more can be done to support meaningful efforts to address 
the high rates of violence in Indian Country.
---------------------------------------------------------------------------
    \1\ National Institute of Justice, Violence Against American Indian 
and Alaska Native Women and Men.
---------------------------------------------------------------------------
    Although the Violence Against Women Act (VAWA) and the Tribal Law 
and Order Act (TLOA) have helped bring attention to this high rate of 
violence and have begun to address gaps in law enforcement for tribes 
and federal authorities, there remain gaps in data that exacerbate the 
crisis of missing and murdered indigenous women. These challenges are 
present across multiple sectors, but are particularly problematic in 
the context of criminal justice, in which Federal, state, tribal, and 
local governments share responsibilities. It is important to continue 
efforts to build accurate data and provide Congress, the public, and, 
most importantly, the tribes, with the information needed to identify 
and analyze the criminal justice needs in Indian Country.
    These data gaps impact how law enforcement officials handle or 
follow up on these cases, predominantly due to underreporting, racial 
misclassification, potential gender or racial bias and a lack of law 
enforcement resources required to follow through and close out cases 
appropriately.
    In 2017, the Urban Indian Health Institute surveyed 71 cities 
across the U.S. to collect data on murdered and missing indigenous 
women and girls in urban settings. The Institute's survey and analysis 
of the collected data culminated in their 2018 report, Missing and 
Murdered Indigenous Women and Girls, which highlights some of the 
challenges of data collection with respect to American Indian and 
Alaska Native populations in urban populations.
    For Indian Country, BIA collects monthly crime statistics from 
Tribal and BIA law enforcement programs and submits the information to 
the Federal Bureau of Investigation (FBI) each quarter. The information 
collected is specific to the data required for the FBI Uniform Crime 
Report (UCR), which currently does not track missing persons or 
domestic violence statistics.
    In light of these significant data collection challenges facing 
missing and murdered indigenous persons, BIA has partnered with DOJ's 
Missing and Unidentified Persons System (NamUs), a program of the 
National Institute of Justice to create new data fields in their system 
to specifically capture tribal affiliation data. The new fields are 
expected to be operational after January 1, 2019. This will assist law 
enforcement agencies across jurisdictions with tracking and 
investigating missing persons throughout the country.
    Going forward, better inter-agency coordination and cooperation is 
needed to improve the integrity of the data collected. While it is 
widely believed that there may be a correlation between opioid and 
other narcotics abuse, human trafficking, and domestic violence and 
missing and murdered indigenous women, without sufficient data, it is 
difficult to draw solid conclusions. Federal agencies must develop 
concrete solutions to improve agency data collection to ensure these 
crimes are being tracked and investigated appropriately so that any 
trends can be properly identified and addressed. For example, adding 
these types of incidents to the data collected by DOJ and BIA and 
making the data submissions mandatory from all law enforcement agencies 
would be a great start to addressing the data collection problem.
    BIA has also began efforts to raise awareness and provide training 
to Indian Country law enforcement personnel. In January 2018, the BIA 
Indian Police Academy began discussions with the National Criminal 
Justice Training Center (NCJTC) on collaborating to create joint 
training programs for cold case investigations, long-term missing 
investigations, and child abduction investigations for use throughout 
Indian Country.
    To specifically address the missing persons aspect of this issue, 
earlier this year the BIA-Indian Police Academy launched human 
trafficking courses in the Indian Country Police Officer Training 
Program; the Basic Police Officer Bridge Training Program; and the 
Indian Country Criminal Investigator Training Program (a joint FBI, 
BIA, and Tribal attended program).
    In February 2018, the NCJTC and BIA-Indian Police Academy 
identified dates and locations for three pilot training programs on 
Advanced Cold Case Long Term Missing Investigations in Montana and 
North Dakota. The three training programs were held at Blackfeet, 
Montana and New Town, North Dakota. A total of 117 personnel were 
trained in these programs.
    The BIA-Indian Police Academy is also scheduled to participate in 
the assessment of an NCJTC project to create a web/mobile-capable 
investigative guide for tribal first responders on endangered missing 
and abducted persons.
    As identified above, BIA OJS has taken numerous steps this year to 
create a number of solutions to address the crisis of missing persons 
and murder victims in Indian Country. We look forward to working with 
our other federal and tribal partners to collaborate on sound solutions 
to protect and serve our Native men, women, and children.
    Again, thank you for the opportunity to provide a statement and my 
written testimony will be provided for the record. I am happy to answer 
any questions the Committee may have.

    The Chairman. Thank you, Mr. Addington.
    Mr. Johnson, I understand you have laryngitis, so we 
appreciate your being here in spite of that.

   STATEMENT OF ROBERT JOHNSON, ASSISTANT DIRECTOR, CRIMINAL 
INVESTIGATIVE DIVISION, FEDERAL BUREAU OF INVESTIGATIONS, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Johnson. Thank you, sir. Good afternoon, Chairman 
Hoeven, Vice Chairman Udall and all the members of the 
Committee. I am Bob Johnson, Assistant Director of the FBI's 
Criminal Investigative Division.
    With the Committee's approval, I would like to give a 
shortened version of my opening statement, to save my voice for 
the question and answer. Thank you, sir.
    I appreciate the opportunity to appear before you today to 
discuss the FBI's ongoing efforts to support our partners in 
Federal, State, local and tribal enforcement in resolving 
missing persons cases. The FBI and its dedicated Special Agent 
and Victim Specialists of the FBI's Indian Country Program work 
hard to partner with tribal communities across the United 
States to deliver quality law enforcement service.
    Our program includes over 140 Special Agents and 40 Victim 
Specialists in 36 Field Offices. Indeed, 33 percent of the 
FBI's Victim Specialists and 50 percent of the FBI's Child and 
Adolescent Forensic Interviewers work directly with victims and 
families in Indian Country. We have 17 Safe Trails task forces 
that are staffed with 90 full-time task force officers.
    We will continue this important work and appreciate the 
support of this Committee. I look forward to answering your 
questions.
    [The prepared statement of Mr. Johnson follows:]

  Prepared Statement of Robert Johnson, Assistant Director, Criminal 
    Investigative Division, Federal Bureau of Investigations, U.S. 
                         Department of Justice
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. I appreciate the opportunity to appear before you today 
to discuss the FBI's ongoing efforts to support our partners in 
Federal, state, local and Tribal law enforcement in resolving missing 
person cases.
    The FBI and its dedicated Special Agent and Victim Specialists of 
the FBI's Indian Country Program work hard to partner with Tribal 
communities across the United States to deliver quality law enforcement 
service. We remain fully committed to our unique role in Indian Country 
and to our partnerships with other Federal, state, local, and Tribal 
law enforcement agencies.
    There are 573 federally recognized Indian Tribes in the United 
States and approximately 326 Indian reservations with over one million 
Native American residents on or near reservation lands. The FBI shares 
federal law enforcement responsibility with the Bureau of Indian 
Affairs, Office of Justice Services (BIA-OJS) on more than 200 of those 
Indian reservations not in PL-280 areas, and has federal criminal 
jurisdiction over acts directly related to Indian gaming regardless of 
jurisdiction status.
    The FBI's Indian Country Program includes over 140 Special Agents 
(SA) and 40 Victim Specialists (VS) in 36 Field Offices. Indeed, 33 
percent of the FBI's Victim Specialists and 50 percent of the FBI's 
Child and Adolescent Forensic Interviewers (CACIs) work directly with 
victims and families in Indian Country.
    Our highest priorities in Indian Country focus on the most serious 
crimes of violence, including murder, child sexual and physical abuse, 
sexual abuse of adults, and violent assault. FBI investigations in 
these priority categories comprise over 75 percent of all FBI 
investigations in Indian Country. In addition, crime related to gangs 
and drugs is increasing in Indian country, and the FBI investigates 
allegations of financial corruption. The FBI in Indian Country 
simultaneously addresses many different aspects of crime and remains 
fully committed and engaged with our Tribal partners
    The FBI often responds to crime scenes within Indian Country after 
receiving notification from our Tribal and BIA-OJS partners. They work 
hand in hand to process the crime scene, collect evidence, ensure 
victim safety, conduct interviews and locate suspects. The cooperation 
between the FBI, BIA-OJS and Tribal law enforcement is paramount to 
solving crime and protecting Tribal communities.
    The Tribal Law and Order Act of 2010 (TLOA) requires that the 
Attorney General submit an annual report to Congress detailing 
investigative efforts by the FBI and dispositions of matters received 
by United States Attorney's Offices (USAOs) with Indian country 
responsibility. The majority of criminal offenses committed, 
investigated, and prosecuted in Tribal communities are adjudicated in 
Tribal justice systems. In much of Indian country, Tribal law 
enforcement and Tribal justice systems hold criminals accountable, 
protect victims, provide youth prevention and intervention programs, 
and confront precursors to crime such as alcohol and substance abuse. 
These efforts are often in partnership with federal agencies or 
accomplished with support from federal programs and federal funding 
opportunities.
    Specifically, the FBI's statistics for Calendar Year (CY) 2017 show 
a total of 2,210 closed investigations--a 12.5 percent increase in 
total closed investigations compared to the previous year. Of those, 
approximately 68 percent--or 1,511 out of 2210--of Indian country 
criminal investigations opened by the FBI were referred for 
prosecution.
    Importantly, of the nearly 700 Indian country investigations the 
FBI closed administratively without referral for prosecution, the 
primary reason for closing (approximately 21 percent) was that the case 
did not meet statutory definitions of a crime or USAO prosecution 
guidelines. In addition, analysis of CY 2017 data indicates that 15 
percent of investigations closed administratively were closed due to 
unsupported allegations, meaning no evidence of criminal activity was 
uncovered during the investigations. Another reason for non-referral 
(20 percent) was that the deaths under investigation were determined to 
be the result of accident, suicide, or natural causes (i.e., non-
homicides). In short, though not a first responder, the FBI remains 
committed to resolving crime in Indian Country and works closely with 
our partners to ensure cases are adjudicated fully through the court 
system.
    With regard to crimes against Native American women in Indian 
Country, the status of the victim and subject as Indian or non-Indian 
is generally initially based on information reported to law 
enforcement. Tribal police, BIA, and FBI subsequently receive 
documentation from tribal government authorities to confirm the tribal 
membership status of individuals.
    At the end of 2017, individuals entered into the National Crime 
Information Center (NCIC) as ``Indian'' made up 1.8 percent of active 
missing person records. The racial category of ``Indian'' is formally 
classified in the NCIC as ``American Indian'' and is defined as a 
person having origins in any of the original peoples of the Americas 
and maintaining cultural identification through tribal affiliations or 
community recognition. The determination of whether a person is listed 
as ``Indian'' would be decided by the entering agency, which could be 
Federal, state, local or Tribal. Importantly, at the end of 2017, 
Native American (``Indian'') females accounted for 0.7 percent of the 
active missing person cases--633 in all. The FBI's Missing Person and 
Unidentified Person statistics are updated annually and available 
publicly on-line.
    Due to the high volume of violent crimes within Indian Country to 
include death investigations, our partnerships with the Bureau of 
Indian Affairs, Office of Justice Services (BIA-OJS), 17 Safe Trails 
Task Forces (STTF), and tribal law enforcement are critical. Our 
partners provide invaluable assistance and intelligence related to the 
location of the crime scenes, identification of suspects/victims, and 
location of suspects.
    The 17 FBI STTFs are a significant force multiplier focusing on 
violent crime to include death investigations with approximately 90 
full time Task Force Officers spread across Indian Country. STTF full 
time officers are made up of state, local, and tribal police officers. 
This important program has expanded in the last year and the FBI plans 
to add new STTFs in FY 2019 to combat the levels of violent crimes and 
narcotic trafficking in Indian Country.
    The FBI also partners with local and Tribal police to assist when 
requested in missing persons cases. FBI Agents and STTFs provide 
assistance and, when foul play is believed to have occurred, an FBI 
case is opened and an investigation undertaken. The FBI and the STTFs 
continue to work closely with the respective Tribal Police Department, 
BIA-OJS, and surrounding state and local departments.
    Further, the FBI remains committed to expanding access to the 
National Instant Criminal Background Check System (NICS) to our Tribal 
partners. Earlier this year, the Department of Justice announced a 
significant expansion of the Tribal Access Program (TAP), a program 
providing federally recognized Tribes an additional method to access 
and exchange data with the national crime information databases 
maintained by the FBI Criminal Justice Information Services (CJIS) 
Division for both civil and criminal purposes. In this way, TAP 
supports tribal governments in their efforts to access, utilize, and 
report critical criminal justice information, including NICS relevant 
data, to the FBI in order to protect tribal communities from violent 
crime.
    Under TAP, Tribes have already entered information directly into 
the federal databases, resulting in nearly 600 sex offender 
registrations and over 550 sex offender check-ins, nearly 250 instances 
of data entry that would prohibit someone from being able to purchase a 
firearm, over 700 orders of protection entered and nearly 5,000 finger-
print based record checks of individuals seeking employment in 
positions with contact with or control over children or tribal housing 
placements. To date, TAP has been deployed to 47 federally recognized 
tribes with over 200 tribal criminal justice and tribal civil agencies.
    The FBI's CJIS Uniform Crime Reporting (UCR) Program also 
coordinates with BIA-OJS to increase the number of Tribes that report 
crime statistics. This has been accomplished primarily through liaison 
efforts and presentations to increase awareness at Tribal law 
enforcement conferences. This increases the number of Tribes that are 
eligible to receive funding under the DOJ Justice Assistance Grants 
(JAG) program. Since Tribal jurisdiction UCR data is publicly 
accessible, it increases available information about the incident of 
Indian country crime and assists Tribal government leaders to make 
effective decisions about strategies to fight crime and efficient 
allocation of tribal law enforcement resources.
    The FBI remains committed to preparing our Agents in Indian Country 
with the knowledge and skills required to address the important cases 
they will investigate. All FBI Agents attend and graduate from the FBI 
Academy with the skills to investigate any crime over which the FBI has 
jurisdiction. All FBI Agents assigned to Indian Country are given 
additional training to ensure they are prepared to effectively 
investigate crimes that occur within Indian Country.
    Our Indian Country Crimes Unit (ICCU) provides a comprehensive 
training program to include intermediate and advanced classes on 
various topics related to the investigation of crimes in Indian 
Country. Many of these trainings are open to Tribal law enforcement 
officers, Safe Trails Task Force Officers and BIA-OJS officers and 
agents. The mission of ICCU is to support Indian Country Agents in the 
field and to develop and implement strategies to address the most 
egregious crimes committed in Indian Country. The FBI has partnered 
with DOJ's National Indian Country Training Initiative (NICTI) to 
develop and deliver courses for Federal agents, Tribal law enforcement 
officers and Federal and Tribal prosecutors. Just in the last several 
years, the partnership has hosted over 15 courses specific to Indian 
Country crime.
    Beginning in 2016, FBI ICCU and BIA-OJS partnered to pilot a two 
week intensive training course for FBI and BIA Agents, which is now 
offered on a regular basis at BIA's training facility in Artesia, New 
Mexico. Each class accommodates 24 students which include FBI Agents, 
Tribal Criminal Investors, and BIA-OJS Criminal Investigators. The 
course provides detailed investigative tools and procedures specific to 
Indian Country.
    In summary, the FBI remains fully committed to working with its 
partners at all levels on the issues raised in this hearing today, 
including missing persons and murder victims. It is imperative that we 
work together to make certain that all missing persons are entered into 
the appropriate databases, that cases are being fully investigated, and 
that persons responsible for criminal activity in Indian country are 
brought to justice. We look forward to continuing this important work 
and appreciate the support of this committee. Thank you for the 
opportunity to appear before you today. I am now happy to answer any 
questions.

    Senator Udall. [Presiding.] Mr. LaPorte, please, proceed.

       STATEMENT OF GERALD LaPORTE, DIRECTOR, OFFICE OF 
         INVESTIGATIVE AND FORENSIC SCIENCES, NATIONAL 
        INSTITUTE OF JUSTICE, U.S. DEPARTMENT OF JUSTICE

    Mr. LaPorte. Chairman Hoeven, Vice Chairman Udall, members 
of the Committee, I am honored to appear before you today.
    My name is Gerry LaPorte, and I am the Director of the 
Office of Investigative and Forensic Sciences in the National 
Institute of Justice. NIJ is the resource development and 
evaluation arm of the Department of Justice, and my office is 
the Federal Government's lead agency to help State, local and 
tribal agencies improve their capacity to collect and analyze 
forensic evidence. We also support the development of 
innovative technologies, information exchange and research to 
ensure forensic test methods are reliable and responsive to the 
needs of the criminal justice field.
    One of our greatest challenges and high priorities is 
addressing violence in Indian Country, especially the silent 
crisis of the missing and murdered. Our research bears out, and 
many of you know already, that American Indian and Alaska 
Native people experience violence at rates well above those 
encountered by any other group in America.
    According to an NIJ study released in 2016, more than four 
in five Native adults have experienced some form of violence in 
their lifetime. Hundreds of Native Americans in communities 
across the Country have simply vanished, leaving almost no 
trace of themselves. Their families endure years, sometimes 
decades of uncertainty and agony, waiting for answers. We know 
we can do better.
    These families are among the tens of thousands across the 
Country coping with the mysterious loss of a loved one, trying 
to make sense of the senseless, and navigating through a 
process that offers few guideposts. It is a response to what we 
termed many years ago as the silent mass disaster that NIJ 
developed the National Missing and Unidentified Persons system, 
commonly known as NamUs. NamUs is a national, centralized web-
based clearinghouse and resource center for unidentified 
deceased persons and missing persons.
    We launched NamUs in 2007 and envisioned a system that 
could crowd-source information provided by medical examiners 
and coroners, law enforcement investigators and those with 
loved ones that had gone missing. NamUs has evolved into a 
unique and powerful investigative tool and has been used to 
resolve more than 16,000 missing persons cases and over 3,500 
cases of unidentified persons, ultimately, bringing resolution 
victims' families and loved ones.
    NamUs operates on a secure Department of Justice 
information technology platform with a publicly-accessible 
component in a restricted criminal justice sensitive 
environment. It allows agencies to collect, share and compare 
information across jurisdictions. NamUs also provides forensic 
services, such as DNA testing and fingerprint and dental 
examinations. We also have a boots-on-the-ground team to 
provide training, technical assistance and case support to aid 
investigations.
    We recently upgraded the system to NamUs 2.0, so that 
allows stakeholders to better collect, search, analyze and 
manage case information. We recognize that American Indian and 
Alaska Native cases were under-represented, and therefore we 
launched an outreach campaign to increase NamUs awareness.
    In the past 12 months alone, NamUs and NIJ staff have 
concentrated efforts to provide training and outreach to the 
American Indian and Alaska Native community through 22 events 
in 13 States. In July of 2018, we saw over a 100 percent 
increase in reported missing persons cases, when compared to 
monthly reports submitted in the previous 18 months.
    NamUs has helped resolve 282 American Indian and Alaska 
Native missing persons cases. Currently, it has 223 active 
cases from 32 States. NamUs is also supporting 182 cases 
involving unidentified remains, 61 of which have been deemed 
either homicides or deaths of undetermined causes.
    Additionally, in fiscal year 2018, the department's grant-
making agencies awarded more than $113 million to 125 separate 
tribes under a consolidated tribal assistance solicitation, 
which covers a range of public safety activities. These grant 
programs support the department's overall strategy to reduce 
crime and improve safety in Indian County, to which we in NIJ 
remain deeply committed.
    Through these programs, the department will continue giving 
our tribal partners the technology and other resources they 
need to safeguard their communities. We will work with them to 
help them solve crimes that in too many cases have left 
families in Indian Country without answers they deserve.
    Again, NamUs is ready to be part of that effort. We know we 
must continue raising awareness among tribal public safety 
officials and tribal members in order to ensure that NamUs 
fulfills its potential as a case-solving tool in Indian Country 
and brings resolution to families searching for missing loved 
ones.
    We are proud of the work we are doing and we are eager to 
build on our progress. On behalf of our Director, Dr. David 
Mullhausen, and the entire staff of NIJ, I am grateful for your 
time today and for the support we receive from this Committee. 
Thank you, and I look forward to answering any questions you 
may have.
    [The prepared statement of Mr. LaPorte follows:]

Prepared Statement of Gerald LaPorte, Director, Office of Investigative 
 and Forensic Sciences, National Institute of Justice, U.S. Department 
                               of Justice
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for this opportunity to discuss the ongoing commitment by the 
U.S. Department of Justice to work alongside our Tribal partners to 
help gather data and provide a resource for investigations into cases 
involving missing persons. My name is Gerry LaPorte, and I am the 
Director of the Office of Investigative and Forensic Sciences (OIFS) at 
the National Institute of Justice (NIJ) in the Department of Justice's 
Office of Justice Programs (OJP).
    Within NIJ, OIFS is the Federal Government's lead agency for 
forensic science. OIFS's mission is to improve the quality and practice 
of forensic science through research and development, testing and 
evaluation, technology, information exchange, and the development of 
resources for the criminal justice community. NIJ's programs also 
support the Department of Justice's three forensic science priorities: 
(1) improve capacity; (2) increase coordination and collaboration with 
state, local, and Tribal entities; and (3) advance the reliability and 
sensitivity of forensic science testing. We provide objective and 
independent knowledge and tools to inform the decisionmaking of the 
criminal justice community as it works to reduce crime and advance 
justice, particularly at the state, local, and Tribal levels. We work 
with other Department of Justice components and also alongside other 
Federal agencies, like the Bureau of Indian Affairs.
    Much has been said about the levels of crime and violence in Indian 
country and the Alaska Native villages and the numbers of missing 
persons and murder victims within the American Indian and Alaska Native 
(AI/AN) communities. The NIJ-supported study, ``Violence Against 
American Indian and Alaska Native Women and Men: 2010 Findings from the 
National Intimate Partner and Sexual Violence Survey,'' released in 
2016, provides staggering estimates of sexual violence, physical 
violence by intimate partners, stalking, and psychological aggression 
by intimate partners. It also provides estimates of interracial and 
intraracial victimization and briefly examines the impact of violence 
on the victims. This study was important because it provided the first 
set of estimates from a national large-scale survey of victimization 
among self-identified AI/AN women and men on psychological aggression, 
coercive control and entrapment, physical violence, stalking, and 
sexual violence, using detailed behaviorally specific questions.
    This research provides the most comprehensive, reliable, and valid 
estimates on the victimization experiences of AI/AN women and men. It 
found that more than four in five AI/AN adults (83 percent) have 
experienced some form of violence in their lifetime. That's almost 3 
million people who have experienced stalking, sexual violence, or 
psychological aggression or physical violence by intimate partners.
    As part of the Reauthorization of the Violence Against Women Act 
(VAWA) of 2005 (and as amended in 2013), NIJ is mandated, in 
consultation with the Justice Department's Office on Violence Against 
Women (OVW), to conduct analysis and research on violence against 
Indian women (VAIW) living in Indian country and in Alaska Native 
villages. Consonant with those provisions, NIJ has developed a 
comprehensive research program consisting of multiple projects that are 
being accomplished over an extended period of time. The primary goal of 
the program is to document the prevalence and nature of violence 
against Native women living on sovereign tribal lands. The research 
program also is designed to evaluate the effectiveness of federal, 
state, Tribal, and local responses to violence against AI/AN women and 
propose recommendations to improve the effectiveness of such responses.
    Ultimately, this program of research is expected to improve our 
understanding of the programmatic, service, and policy needs of 
victims, and help educate and inform practitioners, policymakers, and 
the public about the threat to the safety, health, and well-being of 
Native women. This effort will hopefully be a big step toward reducing 
the incidence of violent crimes against Native women and ensuring 
perpetrators of these violent crimes are held accountable.
    The epidemic of sexual violence in Indian country is compounded by 
another, silent crisis: an unknown number of Native Americans have 
simply vanished, leaving no trace of their whereabouts or of the crimes 
to which they may have fallen victim. Fortunately, not every missing 
person is a victim of a violent crime, and while others have gone 
missing for deliberate reasons, we remain focused on those who have 
gone missing unintentionally.
    Every night across the nation, tens of thousands of families sit 
down to their dinner tables and face an empty chair that should be 
occupied by a loved one. Those affected by the disappearance of a 
family member face an agonizing wait for answers, sometimes for 
decades. The sense of loss when a loved one disappears is magnified by 
feelings of helplessness and isolation as these families puzzle through 
a process that offers few guideposts.
    It was in response to this ``national silent mass disaster'' that 
NIJ developed the National Missing and Unidentified Persons System 
(NamUs) to help identify unidentified remains, locate missing persons, 
and bring resolution to victims' families. NamUs is a national, 
centralized, web-based information clearinghouse and resource center 
for missing, unidentified, and unclaimed person cases. NamUs combines 
technology, forensic services, and investigative technical assistance 
from a seasoned staff of subject matter experts to support and assist 
stakeholders with cases from across the country.
    Since the system was launched in 2007, more than 45,000 cases have 
been reported to NamUs and over 16,000 missing person cases and over 
3,500 unidentified person cases reported to NamUs have been resolved. 
Many of these resolutions were made possible by storing, sharing, and 
comparing case information in a centralized, online system that is 
accessible to all.
    It is important to note that cases are only published in NamUs 
after rigorous vetting with the appropriate local, state, federal, or 
Tribal law enforcement agency in order to secure the privacy and 
protection of persons reported missing and to ensure quality control 
over the missing person data. For instance, some missing person reports 
involve individuals who do not wish for their location to be known to 
family or associates due to circumstances involving domestic violence 
and other safety issues.
    NIJ's NamUs provides law enforcement officials, medical examiners 
and coroners, allied forensic professionals, and families with lost 
loved ones the tools and support they need to investigate and solve 
some of the most complex cold cases. NamUs is a permission-based 
system, meaning it offers both a publicly viewable area and a 
restricted criminal justice-sensitive environment designed to protect 
privileged information while enlisting the support of the general 
public. With diverse users in all 50 states and across many Tribes and 
U.S. territories, NamUs is a collaborative system that bridges the 
communication gap among stakeholders in different geographical regions, 
enabling better information sharing and providing technical assistance 
and investigative case support critical to resolving these cases.
    For clarity, I must note some distinctions between the data entered 
into NamUs and the data entered into the FBI's National Crime 
Information Center (NCIC). With the exception of states like New York, 
Michigan, and Tennessee that have passed mandatory reporting laws, 
NamUs is a voluntary program that has traditionally been used by 
criminal justice agencies to investigate long-term missing and 
unidentified person cases or cases where all investigative leads have 
been exhausted. Since the majority of missing persons reported to NCIC 
are mandated by law and many are recovered quickly, most are never 
entered into NamUs. However, NamUs poses no restrictions on the amount 
of time a person must be missing prior to entry into the database or 
for access to investigative or forensic services.
    We realized that AI/AN cases were underrepresented in NamUs, so 
over the last two years NIJ and NamUs staff have made significant and 
targeted efforts to increase awareness. We have launched an outreach 
campaign to Tribal law enforcement, leadership, and community members 
to ensure the communities are aware of the technology and technical 
assistance, which is available free to all Tribal nations. Also, a 
recent technology upgrade, NamUs 2.0, contains enhancements that allow 
all criminal justice users to better collect, search, analyze, and 
manage case information.
    NamUs has helped resolve 279 cases and currently has 324 active AI/
AN missing persons cases, but it remains seriously underutilized by 
this community of stakeholders. The number of missing persons cases is 
believed to be far more. NIJ continues its outreach and technical 
assistance activities nationwide.
    There are also 102 active unidentified remains cases being 
supported, 61 of which have been deemed either homicides or deaths of 
undetermined causes. NIJ is committed to working with the Tribal 
nations directly to enhance technology and provide training, better 
support and technical assistance, and investigative and forensic 
services. By bringing information, people, and forensic science 
together, NamUs can help resolve cases. We know the loss, trauma, and 
need for answers span generations. NamUs even received DNA from the 
grandchild of a man who went missing in 1902. The oldest missing 
persons case resolved by NamUs was from 1934 and the oldest 
unidentified persons case was from 1957.
    In FY 2018 OJP, along with our partners at the Justice Department's 
other grant-making offices--the Office of Community Oriented Policing 
Services (COPS Office) and OVW--awarded 225 grants totaling more than 
$113 million to 125 separate Tribes under our Coordinated Tribal 
Assistance Solicitation (CTAS). Since FY 2010, the Justice Department 
has awarded more than 2,000 grants for applications submitted through 
CTAS, totaling more than $940 million to hundreds of AI/AN communities. 
Through CTAS, applicants apply for multiple tribal grant programs under 
one solicitation, which allows Tribes to plan comprehensively and 
strategically allocate resources.
    With CTAS, Tribes can search grant opportunities by purpose area--
whether it's serving sexual assault survivors, implementing a 
coordinated community response to violence against Native women, 
helping Tribal youth, or any of the other general purpose areas, 
including a new one this year that focuses on addressing violence and a 
re-tooled emphasis on victim services.
    In FY 2018, for the first time, OJP received a three percent set-
aside (totaling $133 million) of the Crime Victims Fund specifically 
allocated to meet the needs of AI/AN victims. We expect to finish 
awarding these grants by mid-April 2019, and once awarded, they will 
substantially expand the number of Tribes providing victim services.
    These awards will support child and elder victims, domestic 
violence and sexual assault survivors, victims of human trafficking, 
families of homicide victims, and people who have been victimized as a 
result of the opioid crisis. The FY 2019 President's Budget request 
proposes a comparable percentage of set-aside funds to help solidify 
the long-term sustainability of Tribal victim assistance programs.
    OJP, along with the COPS Office, also supports the Tribal Access 
Program (TAP), which enables Tribal officials to enter protection 
orders in federal databases and register sex offenders with the 
National Sex Offender Registry. TAP can be a key element in ensuring 
the safety of certain victims. It also allows Tribes to access critical 
data from FBI databases. Nearly 50 tribes are currently part of the 
program, and an additional 25 tribes have been selected to participate 
in this fiscal year.
    At annual government-to-government consultations with tribes held 
by OVW, tribal leaders have testified about the need for robust 
responses to the disappearance, trafficking, and murder of Native women 
and youth. In response, OVW has funded training and technical 
assistance for interdisciplinary teams from tribal communities on 
identifying cases of sex trafficking and ensuring that victims receive 
needed services. In FY 2018, OVW renewed funding for Tribal Special 
Assistant United States Attorneys, cross-deputized tribal prosecutors 
who are able to bring violence-against-women cases in both tribal and 
federal courts, including prosecuting habitual domestic violence 
offenders before their crimes result in murder. OVW also provides 
funding and other support to tribes exploring and implementing special 
domestic violence criminal jurisdiction under the 2013 reauthorization 
of VAWA to help ensure prosecution of certain non-Indian domestic 
violence offenders. Finally, through the Trilateral Working Group on 
Violence Against Indigenous Women and Girls, OVW and other DOJ 
components are fostering cross-border collaboration with Canada and 
Mexico to combat the disappearance and murder of Native women and 
youth.
    As the Committee is well aware, the majority of American Indians 
and Alaska Natives in our country do not live on Tribal lands. Many of 
them, in fact, live in urban areas, where they face a different set of 
challenges from those we see in Indian country. One of those challenges 
is a disproportionate vulnerability to sex trafficking. Victims of 
trafficking likely also contribute to the missing Indian person numbers 
discussed at this hearing. Indian women and girls are sometimes moved 
off reservations and forced into trafficking activities in the city. In 
addition to the horrific trauma that this kind of exploitation causes, 
it also means that they are often dragged into the criminal justice 
system by virtue of being arrested.
    OJP's Office for Victims of Crime has made three awards to urban 
organizations to address this urgent problem under a program called 
Project Beacon. Grantees in Albuquerque, Seattle, and Chicago are 
developing community partnerships to meet the needs of American Indian 
victims. The grants support a range of services, from emergency shelter 
and housing to crisis counseling and treatment. These victims have, in 
many cases, been violently displaced, uprooted and separated from their 
families and support networks. Our goal through these grants is to 
return them to safety, return them to their families, and to help them 
begin the process of recovery and healing.
    As noted, OJP works closely with other DOJ components. The 
Department's Office of Tribal Justice and the network of Tribal 
Liaisons in the United States Attorneys' offices and specialists 
throughout the country collaborate with tribes to improve law 
enforcement functions and reduce crime. These offices each have a 
tribal liaison to link efforts between the Department and tribal 
leadership. The Executive Office for U.S. Attorneys also trains 
federal, state, local, and Tribal attorneys and law enforcement staff 
on law enforcement issues in Indian country.
    As the Department continues to enhance its public safety efforts in 
Indian country, we remain committed to working with our Tribal partners 
to improve the tools they need to protect citizens, safeguard 
communities, and solve crimes that, in too many cases, have left loved 
ones without the answers that they need and deserve. We will continue 
to work hard on their behalf. Thank you, and I look forward to 
addressing your questions.

    Senator Udall. Thank you to all the witnesses for your 
testimony.
    Mr. LaPorte, you notified my staff last week that five 
additional data fields to track information on Native missing 
persons will be added to NamUs in January 2019. I welcome 
including these additional fields and appreciate that they were 
developed by tribal input. But I want to make sure they are 
purposefully utilized for you and the National Institute of 
Justice.
    Can you tell us more about what these new fields will 
cover?
    Mr. LaPorte. Thank you for your question, Senator. Yes, we 
did work in collaboration with some of the tribal communities. 
My colleague to my right here, Mr. Addington, was instrumental 
in helping us develop those fields.
    So just for information, I will try to quickly go through 
what those fields will include. The first will be, was the 
missing person last seen on tribal land under the jurisdiction 
of the United States. We will also have a field about whether 
the missing person's primary residence was located on tribal 
land. A third field we will be adding is, was the missing 
person enrolled or affiliated with a State or federally-
recognized tribe. And then if they check yes on that, there 
will be a pick list of the tribe to identify with.
    I believe this is mentioned in Savanna's Act, so we are a 
little ahead of Savanna's Act.
    One of the fields will be, were the remains of the 
unidentified decedent found on tribal land under the 
jurisdiction of the United States; does the tribal agency 
participate in the tribal access program.
    So those fields, and I am happy to announce that it was 
supposed to launch on January 2nd, and believe or not, we are 
actually ahead of schedule. We are going to launch that on 
December 18th.
    Senator Udall. That is great. We are very, very encouraged 
to hear that.
    What training is your office planning to provide to NamUs 
users to ensure that they understand how to populate those 
fields with accurate data?
    Mr. LaPorte. We have been working in conjunction with BIA. 
We have provided some training to their analysts as well. We 
also have a suite of individuals that work throughout the 
Nation. They are called NamUs regional program specialists, or 
RPSs. We have nine regions that each of those RPSs take control 
over, or head up.
    So we will be doing some training with RPSs, then we are 
going to try as much as possible to certainly engage the tribal 
community and let them know that we are open to providing more 
training if needed.
    Senator Udall. Are these RPSs going to be reaching out to 
tribes?
    Mr. LaPorte. I believe that we can, we will be working with 
RPSs to do those kinds of notifications, yes.
    Senator Udall. Mr. Johnson, given that the FBI runs its own 
data bases, is the Bureau currently planning to improve its 
systems to track things like Native status of missing persons?
    Mr. Johnson. Yes, sir. Under our NCIC third generation 
development, CJIS went out and surveyed law enforcement 
agencies, including tribal agencies, for additional input that 
they want in those fields. Some of those responders requested 
new clothing description fields, scars, marks, tattoos, along 
with new race and sex codes. But of significance, it was a new 
name search algorithm which will enhance the ability to search 
Native American names in this new system that we are going to 
deploy within the next year or so.
    Senator Udall. Mr. Johnson, the Department's most recent 
Indian Country Declinations Report shows that the number of FBI 
closed cases increased by 12.5 percent in 2017. However, the 
report doesn't show a similar increase in the number of 
prosecutions undertaken by the U.S. Attorneys' offices. In 
fact, it shows that nearly 71 percent of the Department's 
prosecution declinations fell under the category of 
insufficient evidence.
    I know that the FBI can't speak to the Executive Office of 
the U.S. Attorneys' data, but to me it is alarming that the 
cause for most declinations is insufficient evidence, an issue 
that would appear to fall directly into the Bureau's 
wheelhouse.
    Is the Bureau aware of this apparent disconnect? How can 
the bureau explain that it is closing more cases than ever, but 
the declination rate remains the same due to insufficient 
evidence?
    Mr. Johnson. Yes, sir. We can only provide the evidence 
that we find in the investigation. I will tell you the 
prosecutorial letters are sent to the U.S. Attorney's office 
and they make the determination if they are going to drop the 
case or not.
    Senator Udall. Senator Tester.
    Senator Tester. Thank you, Ranking Member Udall. I want to 
thank the panel for being here today. I know fully well that 
the people sitting at this panel right now are critically 
important if we are going to get this solved. So the first 
question is, do you guys believe that there is a problem with 
missing and murdered indigenous women? A simple yes or no 
answer will work.
    Mr. Addington. Yes, I believe there is a problem.
    Mr. Johnson. Yes, sir, I do.
    Mr. LaPorte. Absolutely yes.
    Senator Tester. So we are going to have a panel come up and 
talk about what is going on on the ground. But when it comes to 
doing the investigation, doing it in a timely manner, getting 
the information, where is the problem? Is it with the BIA? Is 
it with the FBI? Is it with tribal law enforcement? Where is 
the problem?
    Because if it is a problem, and you agree that it is a 
problem, where is the problem? Because if this was going on any 
other place in the Country, daresay there would be incredible 
hearings in this body. So where is the problem, so we know 
where to focus our efforts? Is it with the BIA?
    Mr. Addington. Well, the problem we have right now is there 
is not a data collection -
    Senator Tester. Let me back up a little bit. Let's take the 
issue of Ashley Loring-Heavy Runner. She gets reported missing. 
It has been God knows how long, and there are 25 or 30 other 
missing women. Data base or no data base, why haven't we found 
more of them? What is the problem?
    Mr. Addington. I think there needs to be more coordination 
at the beginning.
    Senator Tester. Coordination between who?
    Mr. Addington. Coordination between the search and rescue 
group, the law enforcement, everybody that's involved. When we 
have someone that's reported missing, a lot of times it just 
comes in that they come up missing, and then there's a search 
and rescue group that usually goes out and starts searching an 
area.
    Senator Tester. So that is true with Indian Country, the 
law enforcement doesn't happen?
    Mr. Addington. Well, law enforcement is involved into that. 
But it could be like a search and rescue group with the tribe 
or somebody that we bring in that is working with us.
    Senator Tester. When do you guys enter into the equation, 
the BIA?
    Mr. Addington. As soon as we are notified.
    Senator Tester. As soon as you are notified. And how about 
the FBI?
    Mr. Johnson. Exactly the same, sir. As soon as we are 
notified, we actually bring assets to the table.
    Senator Tester. So in many of these cases, and I think in 
Ashley Loring-Heavy Runner's case, it was the BIA had it then 
the BIA turned it over to the FBI. Is that what normally 
happens?
    Mr. Addington. Not necessarily. There is your tribal police 
department there on the reservation. So they operate the 
uniform police program. The BIA does the criminal 
investigations there. So it could be, it depends upon the 
reservation. It could be uniform police get the call 
immediately.
    Senator Tester. I know, but at what point in time is it 
turned over to the FBI? Because I am not sure the FBI is in on 
it at the very beginning. That is not what I am being made 
aware of.
    Mr. Addington. Yes, sir. It depends, if a BIA investigator 
is involved in it, normally we coordinate with the FBI. 
Normally we work joint investigations on most of it.
    Senator Tester. So what you're saying is when a missing and 
murdered indigenous woman is reported, you have tribal police, 
BIA and FBI that are working to find that person?
    Mr. Addington. It could be, depending in the area and where 
it is reported at. The BIA may be the lead investigative agency 
or the FBI may be the lead investigative agency.
    Senator Tester. So what determines that?
    Mr. Addington. It depends on the agents that are available, 
it depends on what is reported. The uniform police department 
could be doing searches, it depends on what is reported. It 
could be somebody that has been reported and -
    Senator Tester. So why are we not finding these people?
    Mr. Addington. The evidence. We have to have tips, we 
follow up on all the tips that come in. And you have to do an 
investigation. Sometimes you don't get leads that come into the 
investigation.
    Senator Tester. I don't mean to beat this thing to death, 
but in Montana, if these numbers are correct, and I believe 
they are even larger than this, in July, middle of July there 
were 30 missing and murdered, missing women. One of them had 
been found. These are Native Americans. We have 70,000 Native 
Americas in Montana. That seems a bit excessive to me, to not 
be able to find a few of them.
    And I know there are overlapping jurisdictions with tribal 
police and BIA and potentially FBI. But there has to be a 
reason for this. It isn't a data base. I am telling you that if 
you have people on the ground that are following up, and I am 
not a law enforcement person, I am a farmer. But the quicker 
you can get on it, the better chance you have of finding what 
is going on.
    Are we really putting the kind of resources we need, is the 
BIA putting the kind of resources, does the FBI have the kind 
of resources to be able to get into Indian Country and do the 
investigation, helping tribal police? But actually, you guys 
are the lead dogs here, truthfully. Do you have the resources 
to do it? Do you have the manpower to do it? Because it is not 
getting done. And if it is not that, it has to be something 
else.
    Mr. Addington. Some of those cases are not Indian Country 
cases. We find that some of them are in urban areas.
    Senator Tester. That is true, but they are Native American 
women.
    Mr. Addington. Correct. Which the BIA doesn't have 
jurisdiction off the reservation. So we do investigate the 
missing person claims that are on the reservation and we do try 
to work with the tribal police, if the tribal police are 
running the uniform police program. As soon as we are notified, 
we send the resources in there to try to get started.
    But sometimes a search and rescue crew or someone gets 
started, and if they find evidence or search an area and they 
haven't been, everybody hadn't got together and they have a 
plan before they start doing those things -
    Senator Tester. I got it.
    Mr. Addington. We could destroy evidence or not find 
something because of that issue.
    Senator Tester. Something is not happening here, though. I 
can keep going down this, but we are not getting anywhere. 
Something is not happening that needs to happen, that is 
happening in other places in the Country. But it's not 
happening when it is applied to indigenous women.
    And I don't know what it is. We are going to have to find 
out. I don't know if it is manpower, I don't know if it is 
money, I don't know what it is. Maybe it is lack of cooperation 
between the entities. But my time is long past, thank you very 
much.
    Senator Udall. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I am going to 
have to go back. We have your written testimony, but I want to 
be able to understand what you have shared with my colleagues 
here. This is one of the problems about being in the Senate and 
having votes while we are trying to gain information.
    You all know the situation in Alaska, in that we don't deal 
with tribal citizenship through Indian Country that the 
majority of the tribes exercise jurisdiction through tribal 
citizenship. So you heard my concern about the situation in 
Kake, you don't have local law enforcement. And it is not just 
down in the area that Pat is from, it is all over the State.
    So much of what we have learned is, we can't follow through 
with any of these cases, because we don't have anybody that was 
on the ground that could even look, well, there may have been 
evidence that we could have followed, people that we could have 
talked with, just the initial work.
    So the question that I have, and I will direct it to all of 
you, is whether or not we have any specific training for tribal 
government representatives outside of law enforcement 
departments. What I am trying to figure out is, if we have 
folks on the ground and they are capable but they are not 
trained, they don't know how to deal with whether it is a chain 
of custody or not. What is being done, if anything at all, to 
provide for any level of training for more of these local 
resources? Is there anything, either through the BIA or through 
DOJ?
    Mr. Addington. There is not any formal training that I am 
aware of for non-law enforcement staff. What we are doing, 
though, with the State of Alaska, we went down and sat down 
with the Alaska State Troopers and the VPSO coordinator, in 
trying to figure out ways that we can help them, either by 
training up there or help them with resources, that if they 
have any types of cases that are going on and they don't have 
the resources, is there something that we have available for 
them to do.
    And they bring in training to those villages as well.
    Senator Murkowski. Bringing in the training. I think we are 
seeing examples in other areas where we are doing just this. 
When it comes to gathering the evidence that we need if a woman 
has been raped, and we just don't have the SART nurses, we just 
don't have them out there.
    So what has happened is a woman has been raped, and she is 
told, don't shower, don't change your clothes, get on an 
airplane, get yourself to Anchorage and we will collect the 
evidence there. So you can be sitting for 24 hours.
    So what we are now doing is we are figuring out ways to 
train the local community health providers, the community 
health aides, to at least collect the evidence. I am thinking 
about other models that we might be able to use to just help us 
collect some of the evidence, so we might be to better track 
the offenders of those who are taking these women.
    Anything from DOJ that you guys have been thinking about?
    Mr. LaPorte. Senator, thank you for your question. So NIJ 
has been working in collaboration with the Office of Violence, 
the Office of Victims of Crime, OVC. And we have created what 
we call a telemedicine program for exactly what you just 
discussed.
    So that issue that you discussed obviously I think it is on 
a much larger scale in Alaska, because of the land mass. So 
there are many urban areas around the Country where there is 
not a SANE or a SART that is present. So what we have been 
doing is, we have been doing some research and we have a couple 
of other locations set up.
    But basically, you would have a nurse that may not be an 
experienced SART or an experienced SANE. And he or she would be 
at a specific location. Then through a teleconference type 
system, we would have a very experienced SANE or SAR that is 
somewhere else, that works cases all the time, and then brings 
them through that.
    One of the things we are trying to work through that system 
is the effects on the victim of potentially having a, if you 
will, a teleconference and all of this invasive medical exam 
taking place.
    Senator Murkowski. But putting it in perspective, you can 
have the invasiveness of having this anonymous person on the 
other end walking your local health aide through this process, 
or think about the horror of sitting in those same clothes and 
that, without being able to shower, without being able to wash 
your hands for 24 hours, 48 hours, as you go through three 
different airports to get to Anchorage.
    So I know telemedicine is not perfect. But this is one of 
those situations where, if we don't start thinking outside the 
box, the box is going to do people in.
    Mr. LaPorte. Yes, I completely agree with you. What we are 
finding, though, is that in these cases, the victims are 
generally amendable. It is like anything, we have to 
communicate with the victim, we have to let them know what is 
going on. We have to let them explain the circumstances. And 
like you said, it is an outside of the box solution.
    But it appears to be, we are seeing some promising results.
    Senator Murkowski. Good. Thank you, Mr. Chairman.
    Senator Udall. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Let me just again thank 
the chair and ranking member for this important hearing today.
    Maybe, Mr. Johnson, you can help me, because I want to 
touch back on this idea of jurisdiction. What I have found is 
it is very confusing, right? It is set by Federal statute. You 
have different players that are involved when it comes to the 
investigation of a crime, whether it is the FBI or the BIA or a 
State or local jurisdiction.
    I know there are Federal statutes out there, there are 
MOUs, those and other things. I was a State attorney general, 
so I know working with the U.S. Attorney's office, many of the 
U.S. Attorneys across the Country, hoping we have put together 
guidelines and protocols on how, as we pursue that 
investigation, who has what jurisdiction.
    Is that correct? Each U.S. Attorney's office is 
responsible, across the Country, for identifying the 
jurisdiction within their realm to make sure that everybody is 
working together when it comes to these issues that are 
happening in Indian Country? Is that correct?
    Mr. Johnson. Yes, Senator.
    Senator Cortez Masto. Okay. So with that said, why is the 
confusion still there? Why do we still have, even though there 
is a direct delineation of who has jurisdiction over this 
crime, and the U.S. Attorneys' office have identified that for 
their jurisdiction, why are we still having these problems?
    Mr. Johnson. I think what I would say is that a lot of 
those problems, we work very closely with the BIA. The 17 Safe 
Trails task forces that we have, they are staffed with task 
force officers from the BIA, FBI agents. We have State and 
local.
    These cases are worked jointly, jointly at the exact same 
time. And again, it is to impart any knowledge that we have off 
to the tribal investigators. At the same time, jurisdiction is 
taken by the whole task force itself.
    Senator Cortez Masto. So if that is the case, I am looking 
at, we have Ms. Loring-Heavy Runner here, and her sister. And 
BIA started that investigation. The FBI was not involved, but 
then eventually the FBI was asked to get involved with that 
investigation. What happened there?
    Mr. Johnson. We were involved from the get-go. We were 
providing them assistance. But they had the lead, because it 
was a missing person at the time. And then once the body was 
found in August is when it became a homicide investigation. At 
that time, the FBI took the lead.
    Senator Cortez Masto. So as we sit here, I don't have 
enough time, but as we sit here, you are hearing this, and you 
know, from being on the front lines, I am going to ask both Mr. 
Johnson and Mr. Addington, what should we be doing? What do we 
need to do in Congress to address this issue to make sure that 
the actions that are taken are immediate, they are responsive, 
there is definite protocols and guidelines in every 
jurisdiction, so that nobody has to wonder who has control and 
what is happening?
    What is it we need to know? What should we be doing at the 
Federal level? Is there anything that comes to mind that both 
of you think we should be addressing?
    Mr. Addington. Thank you for the question. I think the 
biggest thing is we have start from the very beginning. When 
someone makes a claim of someone missing, the coordination has 
to start right then.
    Senator Cortez Masto. But what I just heard, it is. It is 
already defined how the coordination is supposed to happen. Why 
is it not occurring?
    Mr. Addington. Well, when a missing persons report may come 
in, it may be how it is reported. It may not start immediately 
because how it is reported. It may be reported that someone 
went to someone's house, they haven't come home, we haven't 
found them. It may just be reported that they are out somewhere 
and we can't find them. So the initial response from the first 
responders, may be, okay, we are going to go try to find the 
person, because someone last saw them here.
    So there may be a day or two go by before it actually gets 
up to an investigative level.
    Senator Cortez Masto. So are you saying there should be 
better coordination, better training for those that are 
initially first responders that are responding? Better training 
to identify what is going on so immediately there is that 
coordination?
    Mr. Addington. Yes, I think we have to have more teaching 
immediately. When someone reports someone missing, regardless 
of what the circumstances are, until we determine there was a 
crime, sometimes there is a little lag in there. We have to be 
immediate in a response and the coordination, so everyone is on 
board, everyone is in the loop. So regardless of which way the 
investigation goes, everyone is already involved.
    Now, it may not be the BIA or the FBI actually leading that 
investigation immediately because of the information that comes 
in. But everyone has to be at least notified and involved, and 
it should work that way. I think we have to do a lot better job 
of educating those folks no the ground, the first responders, 
that this is the way it has to work.
    We have to get everybody involved and then we have to have 
a commitment from every agency that we get in there and do 
something and try to get to the bottom of, if it is a person 
that is just missing and we can locate them, there are 
resources that we can check to determine whether they have used 
credit cards or financial assistance or those kinds of things. 
I think we have to do that more immediate, so we can determine, 
is there actually a problem here, or was it just someone that 
has run away from home and someone knows where they are at, and 
we can get that person located immediately.
    Senator Cortez Masto. Thank you. I know my time is up, 
thank you very much.
    Senator Udall. Senator Daines.
    Senator Daines. Thank you, Ranking Member Udall.
    I will focus my first questions here on Ashley Loring-Heavy 
Runner's case. We have her sister, who is here, she will be 
testifying on the next panel. We have her cousin here as well. 
Sometimes they are just names in a report. But we have a face 
for this family here today.
    Mr. Addington, it has been brought to my attention that in 
cases involving missing indigenous women, the Bureau of Indian 
Affairs does not act quickly enough. Here is an example. Ashley 
Loring-Heavy Runner of the Blackfeet Tribe was missing, it is 
my understanding, for two months before the Blackfeet police 
and the BIA started investigating the case as a missing person.
    I can tell you, my hometown, if that was going on in our 
neighborhood, there would not have been a two-month lag to 
begin an investigation as a missing person. My question, what 
is the protocol the BIA uses when a report first comes in?
    Mr. Addington. Thank you for the question, Senator. The 
very first thing is, it depends on who is operating the 
program. It is a little bit different answer depending on if 
the tribe is running the tribal police department, or the BIA 
is running a direct service program. But the protocol should be 
the same. Whoever gets the report, if it's the uniform police 
program, we should immediately notify the investigate unit, 
whoever that would be. If it is BIA or the FBI, there should be 
immediate action and protocol.
    Senator Daines. Do you have a lot of detail in this case? I 
really hear a lot of cases. Do you have any detail in this 
case?
    Mr. Addington. The case is an ongoing investigation.
    Senator Daines. Does it seem like protocol is being 
followed when there was a two-month lag time between when she 
went missing and when the case began investigation as a missing 
person? Two months? Because we have something in Montana called 
winter.
    Mr. Addington. Right.
    Senator Daines. If you have evidence that occurred during 
summer months, where the Blackfeet Tribe is not part of our 
State, we get a lot of snow and very harsh winters and a lot of 
wind. Is two months a reasonable time? Is that the protocol you 
follows?
    Mr. Addington. No. And I think there has to be a lot better 
coordination at the beginning. Most of these cases that I am 
familiar with, it just seems like we have to have every agency 
having better coordination in the beginning of these things. If 
you have a search and rescue crew, like I mentioned earlier, 
there could be people out doing searches that is outside of law 
enforcement as well. So you have to pull all of those resources 
together.
    Senator Daines. And there has been a lot of search going on 
by family, a lot of those efforts in the community there.
    Let me just go a little further here in this case. In 
Ashley's case, there was evidence presented to the BIA. One was 
a sweater a witness saw her wearing the day she went missing. 
The other was a pair of boots. Both of these leads were 
presented to the BIA. And now the family is trying to find out 
what is going on. It is not being made clear what is happening 
there. Leads don't seem to be followed up on. And Ashley is 
still missing.
    This lack of communication to law enforcement and the 
family of the victims is tragic. I spent over a half hour 
chatting with the family yesterday on this. Every time I asked 
a question, more questions arose.
    How do you think Ashley's case could have been handled 
differently or better?
    Mr. Addington. First, we have a victim service program that 
should be meeting with the family and making sure that they are 
up to speed on the things they can release to them. The BIA has 
a program, the FBI has a victim witness program and the U.S. 
Attorney's office has a victim witness program that does a 
phenomenal job with the family. So that should be occurring; if 
it is not, it should be, to make sure that the families are up 
to speed on what is going on and what they can release.
    Like I say, with any of these investigations that I am 
familiar with, it just seems like we have to have better 
coordination in the beginning of them. Because there are so 
many agencies.
    Senator Daines. Thank you for that comment. That is the 
understatement of the day. I mean, two months, two months. We 
are talking about fresh evidence that is out there that 
actually was collected by civilians, not be law enforcement, 
their investigators. These are just folks finding these leads. 
And now the family can't get evidence to where is the evidence.
    So I just ask for your help in this case, to personally 
intervene and find out what in the world is going on. There are 
a lot of questions.
    Mr. Chairman, Mr. Ranking Member, I am going to yield back. 
There is a lot more to be asked, but I am about out of time 
here.
    Senator Udall. Thank you, Senator Daines. Senator Heitkamp?
    Senator Heitkamp. Thank you, Senator Udall.
    You know, you guys talk a big story. But those of us who, 
as Senator Daines just explained, or Olivia Lone Bear, it just 
doesn't match with what happens on the ground. Mr. Johnson, you 
are suggesting that the FBI, once notified for assistance, will 
immediately jump to the task on a missing person. That is not 
true. You wait until there is evidence of some wrongdoing, and 
then you get involved. At least that is what is implemented on 
the ground.
    You aren't part of that protocol of trying to find missing 
people. That is just not what we can expect from the FBI. You 
state here that you have 140 special agents and 40 victim 
service specialists. How many of them actually line in Indian 
Country? How many actually work in Indian Country?
    Mr. Johnson. All those individuals work -
    Senator Heitkamp. I meant, actually have an office in 
Indian Country.
    Mr. Johnson. Because they have multiple reservations, 
ma'am, they live in a central part. They show up to the office, 
and then at that point, they go out to the reservations.
    Senator Heitkamp. And you don't think there is enough work 
on every reservation in North Dakota to locate some FBI agents?
    Mr. Johnson. They are close to the reservations as they can 
physically be, ma'am.
    Senator Heitkamp. Well, I am telling you, there is a major 
of the FBI that there is no cop on the beat. And you guys 
aren't there. And how many hours, and I visited your FBI 
agents. How many hours do you think they are working a week?
    Mr. Johnson. How many hours do they work?
    Senator Heitkamp. Yes.
    Mr. Johnson. I couldn't tell you off the top of my head. I 
know they are supposed to be working at least 80 hours. Because 
they have to work double time for their overtime pay.
    Senator Heitkamp. You know, your agents are working over 
100 hours a week, 24-7.
    Mr. Johnson. I wouldn't doubt it.
    Senator Heitkamp. Do you think that is fair to the agents? 
Do you think that is fair to the cases that go unattended 
because they are overworked?
    Mr. Johnson. Ma'am, almost all of our agents are overworked 
right now.
    Senator Heitkamp. Well, I am just telling you, that if I 
ran your agency and if I ran the Bureau of Criminal 
Investigation, I would figure out a way to do it better, 
especially when we are dealing with you. There are many cases 
you get involved in where there is dual jurisdiction. This is 
one of the lanes that you have sole jurisdiction over major 
crimes in my State, along with BIA.
    Now, have you ever, as Senator Udall outlined, 
declinations. I get it, you guys send the evidence on, the U.S. 
Attorney makes a decision. Have you ever gone back and said, 
why do we have this level of declinations - and this goes to 
BIA. Who did the investigation? Why wasn't there enough 
evidence? We know a crime was committed. Why is that happening? 
Why is there this heavy rate of declined cases in Indian 
Country?
    Mr. Johnson. Ma'am, we cannot make up the evidence. The 
evidence is exactly what it is, and we provide it in the 
prosecutorial report. And that is what's given forward. We are 
not withholding any evidence.
    Senator Heitkamp. I am not suggesting you are withholding 
evidence. I am suggesting because you are not there and there 
isn't a response immediately, the evidence is unavailable. And 
that there is a better way to do this. And if you are serious 
about this, you need to pull up all these cases, including the 
cold cases, and try and figure out where there were missed 
steps that led to a high rate of declination and even a lower 
rate of opportunity to resolve who in fact was the victim.
    We are not even talking about the cases that never get 
referred, the cases where there is never a suspect identified, 
a case where there is never someone who you would seek 
indictment on. Those cases happen all the time, they are in 
files across Indian Country and in the FBI. And those aren't 
even reflected in this data.
    And so, this is a problem. And you are not the first FBI 
official that I have had this conversation with in this room or 
over at Homeland Security. This is not new. This problem is not 
new.
    I would suggest that if you want to come here and offer 
solutions, maybe the best way would have been to pull a couple 
of case files and say, what went wrong? And I would suggest 
that you look at Olivia Lone Bear. And I would suggest that you 
spend time with your agents in the field and find out what they 
need. They need more agents. They need more help. These are 
violent crimes that are being committed against Indian people. 
It is going unattended to.
    So I just can't say enough that this is your problem. When 
cases are declined because there have been missteps on evidence 
and you are the primary investigator, this is your problem. You 
two need to figure out how to work together to make sure that 
the evidence is ready to actually pursue prosecution. Because 
when you don't have prosecution, guess what? You have 
absolutely no deterrence, and it is open season on people who 
live in Indian Country.
    So it is a crisis. It is a problem. You guys have all 
admitted to Senator Tester this is a problem. But what I see in 
this testimony today is a lot of things that aren't reflected 
in the reality on the ground. Because I have spent a lot of 
time on the ground.
    So I would say, after Savanna's Act passes, we should be 
able to get protocols. You guys can start protocols now. I 
applaud the Office of Justice information for the work that you 
are doing to already implement it. But I am not going to be 
here to be part of the oversight. But I can tell you from the 
testimony that you are hearing today, there are a lot of people 
on this dais who are incredibly upset that there doesn't seem 
to be clearer and better answers. We are going to start with 
the FBI.
    So thank you, Jon, for taking this over.
    Senator Tester. [Presiding.] I do not know who is next. So 
whoever is next, go. Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you very much. Senator Heitkamp, 
before you go, I just want to say it has been such a joy to 
serve on this Committee with you. Even when you are raising 
hell----
    Senator Heitkamp. As I get on my broomstick and fly around 
the room.
    [Laughter.]
    Senator Smith. Even when you are raising Cain, as my mother 
used to say, I appreciate serving with you on this panel. So 
go, vote. Heidi shows us that it is okay to get upset once in a 
while.
    I would like to ask a couple of questions. I would like to 
start with Mr. LaPorte, if I could. Eighty-four percent of 
American Indian and Alaska Native women have experienced 
violence in their lifetimes. This is a number that comes from a 
National Institute of Justice study, and a number that we have 
been talking about.
    Mr. LaPorte, I am wondering, does this percentage change 
when we are looking at Native Americans living in urban areas, 
where approximately 71 percent of American Indian and Alaska 
Native people live?
    Mr. LaPorte. I am not aware of any research that can 
specifically tell you for sure whether the numbers vary in 
those specific areas.
    Senator Smith. So when cases occur in urban areas, these 
typically don't fall under Federal jurisdiction, right?
    Mr. LaPorte. Correct. It is my understanding that they 
would fall under the State or local jurisdiction.
    Senator Smith. All right. So that means that everything 
that happens in urban areas doesn't get counted in our efforts 
to address this crisis. I think that is something that bears 
focusing on for a little bit.
    Mr. LaPorte, can you state what research has the Department 
of Justice done on violence against Native populations in urban 
areas?
    Mr. LaPorte. We have a range of research. I think probably 
the best way to answer, I don't want to avoid your question. 
But because we have a pretty broad portfolio in the number of 
agencies at DOJ, I could be happy to provide a little more 
information if your staff wants to contact us afterwards. Then 
we can give you more specifics on the different types of 
research that are going on.
    Senator Smith. I think that is a good thing for us all to 
focus on. What I am concerned about is that there isn't any 
specific look at this. I understand that the Urban Indian 
Health Institute completed your study, the study that you did 
in about a year. The data collected in that study identified a 
lot of gaps in data collection and cases that have been missed 
by law enforcement.
    I think that shows that there are groups out there who 
understand what is happening with violence in Native 
communities, who understand this trauma that is occurring, 
understand the culture and the resilience of Native 
communities. I think we should be funding these efforts. I 
think that the DOJ should be studying what is happening here.
    So is there a way that we can continue this conversation 
about violence in urban communities amongst Native people?
    Mr. LaPorte. Yes, absolutely. I can tell you, especially at 
NIJ, we are certainly committed to getting more answers and 
doing a little more research to understand these. And as I 
said, there are other agencies within the department, OVW, OVC, 
that are interested in these types of things as well.
    Senator Smith. We will follow up on that, because I think 
this is really, really important.
    Mr. Johnson, a recent report by the Urban Indian Health 
Institute found more than 150 cases of, I think 153, to be 
exact, of missing and murdered Native women and girls that the 
police completely missed. They are not in the record of law 
enforcement. And that was just in 71 cities that were examined.
    Can you help me understand, how is it that law enforcement 
just misses cases like these?
    Mr. Johnson. It is left up to the responding agency to put 
whatever information they have into the record when that 
individual is identified. It is voluntary. So the issue 
becomes, are they fully filling out those forms so that we can 
positively identify exactly who the individual is, and are they 
connected to a tribe or not.
    But that is all done out in the urban areas. That is not 
done on the reservations themselves.
    Senator Smith. But why do you think this happens?
    Mr. Johnson. Because they fail to fully identify the 
individual and put the information into the different systems.
    Senator Smith. But why particularly this group of people?
    Mr. Johnson. I wouldn't say it was specifically this group 
of people, ma'am. I would say it is straight across the board 
for all groups of people.
    Then the issue becomes is trying to identify the 
individual, if they are Indian or non-Indian. Usually what 
happens, that has to go back to the tribe. And that is usually 
how we find out, we, the FBI, find out that an individual out 
in an urban area has been killed, and has tribal affiliation. 
It is when we get those leads back that we have to go out and 
interview the family members back on the reservation. Then that 
is how we connect them back to this urban area.
    Senator Smith. Okay. Well, in my State, there has been a 
recent GAO trafficking report, confirmed that in Minneapolis, 
when Minneapolis police make a concerted effort, as they have, 
and which they did do starting in 2012, to meet with tribal 
leaders and service providers who worked with Native American 
communities to really demonstrate their willingness to 
investigate trafficking crimes, they found that with that 
coordination that they were able to make real headway. So I 
think this is a model that we ought to be looking at, as we try 
to figure out better ways to have better coordination.
    Mr. Johnson. Yes, ma'am.
    Senator Smith. I think I am out of town - town and time, 
Mr. Chair.
    [Laughter.]
    Senator Tester. Since you are the last one, you can keep 
going if you want. But I think we will move on to the next 
panel, even though I am not the chair or ranking member.
    Senator Smith. [Presiding] I think, yes, that is right. 
Vice Chair Udall has handed the chair responsibilities over to 
me, is that right? So I want to thank this panel very much, 
first panel, for testifying. We will now turn to our second 
panel.
    Senator Tester. Madam Vice Chairman, I would just insert 
one thing in closing.
    Senator Smith. Oh, yes, please.
    Senator Tester. So we have had issues in Indian Country. We 
have issues of poverty, we have issues of drugs. I think we 
have issues in those areas, and with adequate manpower with 
tribal law enforcement. We have to find solutions.
    By the way, if I am wrong on any of those, prove me wrong. 
But we have to find a solution to this. We have to. I would 
encourage you all to stay and listen to the next panel. Because 
they are going to tell you their frustrations from their end, 
which is on the ground, of a missing person.
    So thank you, and thank you, Ms. Vice Chair.
    Senator Smith. Thank you very much. And thank you to our 
first panel.
    I would like to welcome our second panel to the table.
    The Chairman. [Presiding] All right, we will begin our 
second panel. And as you know, we have votes going on. Those of 
us that are here now have voted twice, I think we are good for 
the time being. Others are now going back for the second vote 
and will rejoin us. But we will go ahead and begin with our 
second panel. Again, I want to thank you for being here today 
and testifying.
    For our second panel today, we have three witnesses. The 
Honorable Amber Crotty, Delegate, Navajo Nation Council, Window 
Rock, Arizona. Thank you for being here. Ms. Patricia 
Alexander, Co-Chair of Violence Against Women Task Force, 
Central Council, of Tlingit & Haida Indian Tribes of Alaska, 
Juneau, Alaska. Thank you for being here.
    And Ms. Kimberly Loring-Heavy Runner, Missoula, Montana, 
and I am going to turn to Senator Daines for an introduction 
for you.
    Senator Daines. Thank you, Mr. Chairman. Welcome, Kimberly. 
Kimberly is a member of the Blackfeet Tribe, the highlight of 
Montana. Kimberly is a sister of Ashley Loring-Heavy Runner, a 
missing indigenous woman who disappeared in June of 2017. After 
nine months of no information, the FBI finally stepped in to 
help the investigation in March of this year.
    Ashley was planning to transfer to the University of 
Montana with Kimberly to study environmental science, so she 
could help take care of her homeland. Kimberly has been working 
diligently to find her sister and raise awareness in Montana 
and around the Nation about her case. Kimberly has logged more 
than 40, 40 searches for her sister. She has hiked mountains, 
she has hiked fields. She has been in the snow, she has been in 
the rain while avoiding grizzly bears, literally, to chase any 
rumor that may help find her sister.
    I am thankful that Kimberly has agreed to share her story 
with this Committee today, a story unfortunately that is all 
too familiar.
    The Chairman. With that, we will proceed to our witnesses. 
We will begin with Ms. Crotty.

STATEMENT OF HON. AMBER CROTTY, DELEGATE, NAVAJO NATION COUNCIL

    Ms. Crotty. Thank you, Chairman Hoeven. Amber Kanazbah 
Crotty, [greeting in Native tongue.] I am the Navajo Nation 
Council delegate and chairwoman of our sexual assault 
subcommittee on the Navajo Nation.
    To Chairman Hoeven, Ranking Member Udall and Committee 
members, [greeting in Native tongue], I thank you for your 
commitment to prioritize public safety for Indian Country as it 
pertains to missing and murdered indigenous women. And to our 
Federal partners, while I appreciate some of the testimony and 
your asking them to remain in the room, it is quite clear on 
their departure and how that reflects in terms of their 
commitment and their relationship to Indian Country, to Navajo 
Nation and to our family members who are on the ground.
    Senator Tester. For the record, Charles Addington, the BIA 
man, stayed in the room, and I want to recognize that. But you 
are right, the other two left. Thank you.
    Ms. Crotty. I appreciate that, Senator Tester.
    We recognize and appreciate your tireless efforts on 
working on behalf of Indian Country. I would like to take this 
opportunity to thank this Committee for holding this hearing 
regarding this critical issue.
    I am here today on behalf of the Navajo Nation to implore 
this Committee to intervene to stop the alarming rates of our 
tribal members who turn up missing or murdered. Our nation 
continues to observe first-hand the outcomes that stem from the 
lack of resources that exist to maintain data bases on 
indigenous missing persons, or the failure to cross multiple 
jurisdictions, State, tribal, county, Federal, to effectively 
communicate with nations, with our nation, to coordinate 
efforts to reduce the loss of our women, our children and our 
community members.
    I wear this yellow scarf in honor of our baby girl, Ashley 
Mike, who was taken from us in 2016, when her and her brother 
Ian were abducted and ultimately, we found her, murdered in our 
community. Then later on that year, in 2017, we lost Ariel 
Begay. She went missing and her remains were ultimately found, 
and her case is still under investigation. It took the medical 
examiner nearly ten months to try to identify her cause of 
death. But yet her family still mourns for her and there are 
still unanswered questions.
    Recently we discovered another Navajo woman, Marena 
Holiday, who was murdered in Comb Ridge, Utah, in November 2015 
by her neighbor, was shot and then dragged to her death. Not 
only are Navajo women being victimized, but there is an 
alarming rate of missing and murdered transgendered Navajo 
women.
    In 2005 and 2009, there were three Navajo transgendered 
women who were missing in Albuquerque, and later found 
murdered, all within a block of one another. As you can see, 
this epidemic of violence against our women is not just limited 
to Indian Country, Navajo Nation Dine `Ta, but it also is 
prevalent in urban areas. I appreciate the effort of Senator 
Heitkamp in looking at how, and asking the tough questions, and 
making sure that our Federal partners are accountable and on 
the ground, know what is happening and the struggle in terms of 
not only the time and place it takes our Federal partners to 
address these issues, but then to look at what additional 
resources need to be called in. We consider this not only a 
public health crisis, but a crisis against our future 
generation.
    We have complications in determining criminal jurisdiction 
on tribal lands. A primary issue is determining who has the 
legal authority between tribal police, State law enforcement 
and Federal agents.
    Baby girl Ashlynn Mike's case is a primary example of 
jurisdictional complications resulting in a delay of response 
time in rendering not only an Amber alert system, but then 
ultimately looking and coordinating the tribal, State, Federal 
search and rescue team for her. These same jurisdictional 
complications result in law enforcement officials at the State 
and local level not enforcing protection orders, restraining 
orders and valid orders outside of the Navajo Nation 
jurisdiction.
    As I end, I want to say we need help for victim advocates. 
On Navajo we have only about five BIA agents, in a State the 
size of West Virginia, and only six advocates to help them in 
the work that they are doing. We need to be able to move in and 
help these victims with funding to help them with relief, to 
help them find their loved one and then to help them to the 
journey narrative.
    Thank you very much. I appreciate this time, Chairman 
Hoeven. I know I went past, and I do have more recommendations. 
So I look forward, and [phrase in Native tongue.]
    [The prepared statement of Ms. Crotty follows:]

   Prepared Statement of Hon. Amber Crotty, Delegate, Navajo Nation 
                                Council
Introduction
    Chairman Hoeven, Ranking Member Udall, Members of the Committee, 
thank you for this opportunity to testify on behalf of the Navajo 
Nation to address missing and murdered people in Indian Country. I am 
Navajo Nation Council Delegate Amber Kanazbah Crotty and I thank you 
for your commitment to prioritize public safety for Indian Country as 
it pertains to missing and murdered indigenous people. We recognize and 
appreciate your tireless efforts working on behalf of Tribes and would 
like to take this opportunity to thank this Committee for holding this 
hearing.
    The Navajo Nation urgently appeals to this Committee to intervene 
to stop the increasing alarming rates of missing or murdered tribal 
members throughout Indian Country. Our Tribe continues to observe 
firsthand the disastrous outcome from the lack of resources that exist 
for states to maintain databases on indigenous missing persons or the 
failure across jurisdictions to effectively communicate to coordinate 
efforts to reduce the loss of Native American lives.
Background
    The Navajo Nation is the largest land-based Tribe in the United 
States that spans over 27,427 square-miles across three states 
(Arizona, New Mexico, and Utah) with over 350,000 enrolled members. The 
Nation is comprised of 110 Chapters, also known as communities or local 
governments within the Navajo Nation. In New Mexico, there are an 
additional 80,000 enrolled members that reside in dependent Navajo 
communities, allotments, and border towns. Today, the Nation suffers 
from unemployment rates at about 42 percent and the median annual 
household income is approximately $20,000. \1\ Across the Navajo 
Nation, 61-percent of homes do not have electricity, 22-percent of 
households have telephones, and only 15-percent of households have 
computers. \2\ Further complicating access to victim services, only 24-
percent of residents over the age of 18 have access to a vehicle and 
the closest available victim services are generally hours away. Annual 
reporting to the FBI indicates violent crime rates have fallen by 48-
percent over the past 25 years, and this same data indicates that 
violent crime is on the rise on the Nation. From 2010-2016, over 44.1-
percent of calls to the Navajo Department of Public Safety (NDPS) 
involved violence, and alcohol underlies almost all of this violent 
crime.
---------------------------------------------------------------------------
    \1\ https://navajobusiness.com/fastFacts/Overview.htm
    \2\ https://transition.fcc.gov/cgb/rural/presentations/
ONSAT2OverviewofNNHeadStartTechnologyPlan.pdf
---------------------------------------------------------------------------
    The Navajo Nation is currently far from having sufficient public 
safety resources to adequately respond to reported crimes. 
Significantly, there are fewer than 200 Navajo police officers and 30 
Criminal Investigators for the entire Navajo reservation. Given the on-
reservation population, there are 0.85 officers per every 1,000 
individuals, which is less than \1/3\ of the national average of 3 
officers per every 1,000 individuals. The Navajo Nation Police 
Department's most recent annual crime reports illustrate the increase 
of violent crimes on the Nation--particularly homicides. Navajo 
Criminal Investigations responds to approximately 30-50 homicides per 
year within the Nation's boundaries, which represents a homicide rate 
well above the national average (20-33 homicides per 100,000 people 
compared to 6-13 per 100,000 nationally). Based on the most recent 
census data, the homicide rate on the Navajo Nation is four times the 
national average. The Navajo Police Department averaged 226,450 total 
calls for service over the past four years:

       Navajo Police Department-Annual Reported Calls for Service
------------------------------------------------------------------------
           Offense               2017       2016       2015       2014
------------------------------------------------------------------------
Homicide                             32         24         20          3
Rape                                264        319        294        316
Robbery                              40         26         23         22
Aggravated Assault                  417        417        492        152
Burglary                            893        738        728        895
Larceny                             904        896        690      1,036
Motor Vehicle Theft               1,270      1,077        730        744
Arson                               352        349        292        338
Assaults                            472        417        442        464
Weapons                             701        687        661        773
Sex Offenses                      2,023      1,705      1,499      1,754
Child Abuse                         917      1,092      1,167      1,058
Domestic Violence                 5,351      5,119      4,628      4,658
------------------------------------------------------------------------
    Total                        13,636     12,866     11,666     12,213
------------------------------------------------------------------------
    Grand Total of Calls for    234,137    218,810    213,692    239,161
     Service
------------------------------------------------------------------------

    These alarming statistics help illustrate why the Federal Bureau of 
Investigation (FBI) reported that Navajo Nation has one of the most 
violent crimes in Indian Country with 2,524 violent crimes; 2,311 
aggravated assaults; and 160 rapes reported to law enforcement in 2017. 
\3\ Thus, violent crimes and crimes against women such as rape is 
comparable to major metropolitan areas such as Detroit and San Diego, 
proportionate to population. \4\
---------------------------------------------------------------------------
    \3\ https://ucr.fbi.gov/crime-in-the-u.s/2017/crime-in-the-u.s.-
2017/tables/table-11/table-11-state-cuts/arizona.xls
    \4\ Laurel Morales, ``Navajo Nation, Feds Take on Overwhelming 
Violent Crimes'' Fronteras: The Changing America Desk (March 01, 2013). 
Accessed at: http://kj.org/content/6821/navajo-nation-feds-take-
overwhelming-violent-crime
---------------------------------------------------------------------------
Violence Against Navajo Women
    Gender-biased violence on the Navajo Nation is a multi-generational 
and culturally pervasive phenomenon. Similarly to our national 
counterparts, the true rates of violence against women are not 
accurately reflected in data since many victims of domestic violence 
(DV) or dating violence fail to report their abuser due to fear for 
their safety (i.e. retaliation), shame over their situation, or 
involvement of alcohol or drugs at the time of the incident. 
Administration of targeted victim services for DV, dating violence, and 
sexual assault has likely led to increased reporting of DV and sex 
offenses in recent years. Women who have been victimized are starting 
to trust that they will be supported, heard, and believed due to 
program implementation like Am D cents cents Alch!n! B!ghan, Inc. 
(ADABI) on the Nation. For example, ADABI has had positive impacts on 
our community in the Chinle Agency over the past years. In this 
community, reporting of sexual assault incidents have increased by 75 
percent from 3 total reports during 2010-2012, to 12 total reports 
during 2014-2015. We believe this increase is a result of the efforts 
of ADABI to increase community awareness, build knowledge and skills 
among community partners about how to effectively respond to domestic 
violence and sexual assault.
    Poverty, low educational attainment, addiction, unresolved trauma, 
and the emergence of gang culture, all contribute to the perpetuation 
of the culture of violence against women and girls within the Navajo 
Nation. Notably, if more victims are now coming forward, then violent 
crime rates are even worse than currently reported. This information is 
extremely concerning because it illustrates the battle that the Navajo 
Nation is currently engaging in to combat domestic violence and violent 
crimes across the reservation, but also demonstrates a need to ensure 
protections for children and law enforcement, as well.
Missing and Murdered Navajo Nation Members
    Generally, victim services on the Navajo Nation consist of a 
``patchwork'' of extremely limited support services that cannot meet 
the high demand for services. The Navajo Nation currently does not have 
the ability to provide comprehensive victim services to all victims of 
crime, as its sole funding source is strictly limited to services for 
intimate-partner violence. Consequently, the few existing services are 
almost exclusively for victims of domestic violence (DV), dating 
violence, and sexual assault. There are no on-reservation services for 
victims of violent crimes, crimes against children, etc. In reality, 
many simply go without support. Overall, initial crisis intervention 
and safety planning is performed by an array of critically under-
resourced service providers whom are limited in scope and availability 
of resources. To further complicate matters, victims face significant 
barriers to access, including: extremely limited phone and Internet 
access; Navajo-to-English language barriers; long-distance travel; and 
lack of transportation. \5\
---------------------------------------------------------------------------
    \5\ Note: Native victims are often unwilling to travel off-
reservation for services for a variety of reasons, including long 
distances from family and jobs, lack of culturally appropriate 
training/programs, and language barriers.
---------------------------------------------------------------------------
    Provided below are only a couple incidents of missing and murdered 
enrolled members of the Navajo Nation. Although the ages of each 
individual, geographical location, and date the persons were reported 
missing vastly differs in each case. The significant shortcomings in 
each case remains the same: law enforcements' delayed response and 
jurisdictional complications.

  <bullet> 11-year-old Ashlynne Mike was kidnapped with her 9-year-old 
        brother in Shiprock, New Mexico in May 2016. After a couple 
        found Ashlynne's 9-year-old brother scared and walking on the 
        side of the road, he was taken to the Navajo Nation Police 
        Department in Shiprock where they proceeded to coordinate with 
        local law enforcement. Hours later, when the Farmington Police 
        Department was notified of the missing child, it was clear no 
        information had been shared. Eight hours after Ashlynne went 
        missing, an AMBER Alert mass notification was finally issued at 
        2:30 A.M.

  <bullet> 26-year-old Amber Webster, a married mother-of-three, was 
        murdered in Florence, Kentucky on December 2018. Amber was 
        employed as a construction worker that had traveled out of 
        state to provide income to her family on the Navajo Nation. 32-
        year-old Jesse James brutally stabbed her to death while 
        staying at the same hotel as her. The two had no prior 
        interactions with one another prior to the incident.

  <bullet> 26-year-old Katczinzki Ariel Begay went missing in July 2017 
        on the eastern edge of the Navajo Nation reservation in 
        Arizona. Ariel was picked up from her residence by her 
        boyfriend and never came back home. Efforts were been made by 
        law enforcement and a search ensued on the Navajo Nation, New 
        Mexico, and Arizona. However, sadly, her remains were found in 
        October 2017 in Querino Canyon, Arizona. Her case remains 
        unsolved today.

  <bullet> 23-year-old Ryan Shey Hoskie, 42-year-old Teri Benally, and 
        32-year old Fredrick Watson were three transgender Navajo 
        Nation members who were found beaten to death in Albuquerque, 
        New Mexico in January 2005, July 2009, and June 2009 
        respectively. All three victims' bodies were found in the 
        Southeastern-side town within a block of one another laying in 
        the street or allies. The details of each of their deaths 
        remain unknown and no suspects were detained for their 
        slayings.


  <bullet> 63-year-old Marena Holiday, mother of three and grandmother, 
        was murdered in Comb Ridge, Utah on December 2015. Marena was 
        killed within the boundaries of the Navajo Nation after she was 
        beaten then shot in the head by a neighbor. In disposing of the 
        body, the perpetrator tied a rope around Holiday's ankles to 
        the back of his truck and dragged her body to hide under a 
        tree. She was found the next day and the perpetrator was later 
        indicted by a federal grand jury for first-degree murder and 
        sentenced to just 22 years in prison.

Jurisdictional Complexities
    Complications in determining criminal jurisdiction on tribal land 
is a primary issue in determining who has legal authority between 
tribal police, state law enforcement, and federal agents. Ashlynne 
Mike's case is a primary example of jurisdictional complications and a 
delayed response time in rendering an AMBER Alert for a missing 
persons' notification through tribal-statefederal responses. \6\ 
Additionally, in cases where Native Americans represent only 1.6 
percent of the state's population, geographical complexities are 
magnetized since many reservations are located in extremely rural 
locations within state boundaries.
---------------------------------------------------------------------------
    \6\ Note: In child abduction cases, 76-percent of those kidnapped 
are killed within 3 hours of abduction denoting the need for expedient 
state-tribal collaboration on searches and issuance of information to 
save lives.
---------------------------------------------------------------------------
    Due to the Nation's expansive geographical distances across three 
separate states and limited police force, it takes Navajo law 
enforcement hours to respond to criminal activity because it can exceed 
the capacity and resources of current law enforcement. This includes a 
vital problem of the Navajo Nation to facilitate active relationships 
with law enforcement between federal, state, local municipalities to 
effectively share information exists as a persistent issue. Currently, 
there is no mode of communication that exists between the Nation and 
law enforcement outside of the reservation boundaries, which leads to a 
continued loss of lives by way of jurisdictional miscommunication.
    These same jurisdictional complications result in law enforcement 
officials at the local and state level to not enforcing restraining or 
protection orders issued through the Nation's courts as valid orders of 
protection outside the boundaries of the reservation. These 
circumstances leave victims feeling ignored and with the false 
impression that the police and court system do not care about them, as 
well as contributes to the now prevailing culture of impunity among 
criminal offenders. The establishment of a State-Tribal 
Intergovernmental Task Force and/or Intergovernmental Agreement (IGA) 
for crossjurisdictional coordination is vital to reduce wasted time and 
communication amongst law enforcement. The Navajo Nation also estimates 
that the one-time funding allocation of $5 million for upgrading and 
integrating all public safety partners to facilitate communication 
systems across jurisdictional boundaries for faster response times in 
locating missing persons.
Lack of Victim Advocates and Supportive Family Services
    All available victim services on the Nation are specifically for 
domestic/dating violence and sexual assault. The Navajo Nation 
currently does not have the ability to provide comprehensive victim 
services to all victims of crime, as its sole funding source is 
strictly limited to services for intimate-partner violence. Currently, 
non-Indians generally have to go off reservation to receive victim 
services. Due to limited internal resources, the Navajo Nation must 
rely on third-party service providers to ``fill the gaps'' to provide 
additional on-reservation services, including emergency shelter and 
advocates. The available on-reservation victim services are 
administered by three providers: (1) Navajo Nation Division of Social 
Services' Strengthening Families Program (SFP); (2) Ama Doo Alchini 
B!ghan, Inc. (ADABI) in Chinle; (3) and Tohdenasshai Committee Against 
Family Abuse in Kayenta, which are both non-profit organizations. More 
information on these programs is provided below:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Collectively, ADABI and Tohdenasshai Committee Against Family Abuse 
provide two short-term, emergency shelters and one ``safe home'' on the 
Navajo Nation for victims of domestic/dating violence, and sexual 
assault. In total, there are less than 30 available beds and the ``safe 
home'' has a maximum 5-7 night stay in a motel. These non-profit 
service providers receive referrals from the ER, law enforcement, 
Navajo Social Services, and other local service providers. They are 
critical partners who provide transportation, safety planning, court 
support, and help filing protection orders. For example, ADABI received 
and responded to 648 requests for service in 2017, which accounts for 
8.5 percent of the total number of DV calls to 911 on the Nation. In 
2017, ADABI advocates logged 241 transportation hours in 2017, which 
equates to six weeks of non-stop driving for a service provider.
    Navajo Nation Division of Social Services ensures social services 
are available to needy families living on or near the reservation to 
reduce and alleviate hardships to ensure self-sufficiency. \7\ Out of 
the eight programs that the Division offers to meet this purpose, the 
Strengthening Families Program (SFP) \8\ is the only Navajo-
administered victim-service provider on the reservation. It provides 
culturally holistic advocacy, supporting services, prevention education 
and safe shelters. \9\ However, this program has budgetary limitations 
that has resulted in the inability for the Nation to provide victim 
advocates to children and families that are negatively impacted by 
domestic violence and missing and murdered people. In May 2018, SFP 
opened a 24/7 residential emergency shelter in Shiprock, NM called the 
Northern T.R.E.E (Teaching Responsibilities, Empowerment and Equality) 
House. This is the only emergency shelter directly administered by the 
Navajo Nation. The shelter has been at capacity since its opening with 
only four beds and staffed by five advocates where two advocates work 
at a time and they rotate split shifts to provide 24/7 services. While 
on duty, the two advocates must simultaneously answer calls to the 24/7 
Crisis Line, intake new victims, and provide the full spectrum of 
support services, including responding to crisis calls both in the 
field and at the shelter, crisis intervention, safety planning, 
referrals, transportation, court support, and help filing temporary 
protection orders. Typically, one advocate will be transporting a 
victim, leaving only one advocate to run the shelter. If a crisis 
situation arises, no one is available to respond to the victim until 
the advocate providing transportation returns.
---------------------------------------------------------------------------
    \7\ http://www.nndss.navajo-nsn.gov/Home.aspx
    \8\ Established in October 2016.
    \9\ http://www.nndss.navajo-nsn.gov/DSSPrograms/
StrengtheningFamiliesProgram/SFPHome.aspx
---------------------------------------------------------------------------
    The Nation also employs 5 Mobile Victim Witness Advocates (VWA) who 
are responsible for assisting victims within the Navajo Nation with 
SFP-program services, including crisis intervention, safety planning, 
shelter placement, transportation (transport to shelter, counseling, 
court, SANE exams etc.), court support, referrals, home visits, and 
filing temporary protection orders. If there is a federal criminal 
case, VWAs may coordinate with Navajo Criminal Investigations, FBI, and 
U.S. Attorney's Offices. There is one VWA for each Region of the Navajo 
Reservation (see map below), meaning each advocate's coverage area is 
approximately 5,485 square miles.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Given current crime rates, population size, and land base, SFP 
estimates it would need a minimum of 4-6 VWAs per Region to provide 
adequate, comprehensive services across the Navajo Nation. Presently, 
each VWA's coverage area is more than 20 Chapters and advocates may 
travel hundreds of miles daily. On average, an advocate spends at least 
half a day with a victim for intervention and safety planning, while 
shelter transports take all day and average 400-miles roundtrip.
    Mobile advocates' individual capacity to respond is further limited 
as there is only one tribal vehicle for all five of the VWAs. VWAs 
currently share office space with staff in another Navajo department, 
which makes ensuring client confidentiality very difficult as the 
advocates gather information and conduct interviews. Because there are 
not enough VWAs or resources to respond to the overall need, VWAs must 
``triage'' and prioritize their case load. In practice, this means that 
VWAs are sometimes not able to provide requested support within a 
reasonable period of time, if at all. \10\ Despite this overwhelmingly 
burdened system, out of 13,636 calls for service for violent offenses, 
SFP received and responded to 5,670 DV-related service calls, which 
demonstrates the Navajo government provided some form of direct victim 
services and support to at least 41.6 percent of victims of violent 
crime on the reservation.
---------------------------------------------------------------------------
    \10\ Note: Further, the scope and available access to services of 
these providers varies depending on location and the daily capacity of 
mobile advocates and shelter services. Typically, any requests for 
mobile support services usually take many hours or even days before 
they get to the victim.
---------------------------------------------------------------------------
    In reality, many victim services are only available off-
Reservation, including services for victims of violent crime, crimes 
against children, and human trafficking. The Navajo Nation currently 
subcontracts with multiple off-reservation service providers to provide 
additional victim services. Providing victim services off-reservation 
poses additional challenges, especially because many Native victims 
will not use off-reservation services for a variety of reasons, 
including long distances from family and jobs, lack of culturally 
appropriate programming, and language barriers. Ultimately, many crime 
victims on Navajo do not get the help or support they deserve and need.
    Historically, victim advocate funding has only temporarily been 
funded through grants. When the grants run out the advocate leaves and 
the victims are unable to build a stable point of contact, it 
diminishes the effectiveness of support services and sustainability of 
the program. Previously, the Nation requested a 3- year grant in the 
amount of $14 million to implement a comprehensive victim advocate 
system, but only received $2 million. This funding assists the Nation 
in being proactive in preventing domestic violence and providing 
housing and program options for families through educational and 
departmental programs offered to our citizens like the Home for Women 
and Children in Shiprock, New Mexico and the Gentle Ironhawk Shelter in 
Blanding, Utah purchased by the Navajo Nation. \11\ The current 
estimate for victim services on Navajo Nation are currently $4.6 
million dollars per year.
---------------------------------------------------------------------------
    \11\ https://nativenewsonline.net/currents/navajo-nation-president-
begaye-signs-closing-documents-to-purchase-gentle-ironhawkdomestic-
violence-shelter/
---------------------------------------------------------------------------
    Lastly, another unresolved issue exists to increase critical access 
and supportive services to families with missing family members and 
those whom are experiencing the after-effects of domestic violence or 
intimate partner abuse. There are no resources available for Native 
American families to gain access to in locating their missing family 
members and navigating through the complexities of the tribal-state-
federal law enforcement systems and databases is problematic even at 
agencies.
Navajo Nation Courts, Prosecutors, and Public Defenders
    Navajo Nation Courts domestic violence cases amount to 12 percent 
of the entire caseload on the Navajo Nation, which is a 4 percent 
increase since 2010. Only 14 prosecutors handle criminal court cases in 
eleven different judicial districts. From January 1, 2018 to December 
7, 2018, the Navajo Nation prosecutors received 1,575 cases to review 
for domestic violence charges alone and filed 999 cases. This is an 
increase from the 2017 calendar during which prosecutors received 1,180 
DV cases for review and filed 848. \12\
---------------------------------------------------------------------------
    \12\ See--''Navajo Nation Reponse to Request for Additional 
Information Regarding Needs for the Office of the Prosecutor,'' dated 
November 13, 2018.
---------------------------------------------------------------------------
    Based on this excessive criminal caseload in the Nation's courts, 
our Tribe has not implemented the Violence Against Women Act (VAWA) 
that would allow us to prosecute non-Indian offenders involved in 
domestic violence incidents within the boundaries of the reservation. 
The implementation of VAWA highlights a fundamental issue in tribal 
courts across the nation: the lack of funding and resources available 
in tribal public safety and court systems to adequately protect our 
citizens. For example, the estimate of additional caseload initiated 
through VAWA implementation would cost the Navajo Nation up to $10 
million/year. The increased costs of implementation would go towards 
hiring additional personnel, attorneys/judges, employee training, 
programmatic restructuring, facility upgrades, and technological 
updates for our outdated equipment. $1.6 million is needed to expand 
prosecutorial resources and provide victim advocate services that are 
currently unavailable.
Database Development
    Navajo Nation organizes police data through the Navajo Police 
Department Information Management Section. Current data study requests 
from outside law enforcement agencies are exceedingly difficult to 
provide because the Nation's current data tracking system is 
incompatible with the requested type of data search information. 
Additionally, due to the lack of available resources, the Nation's 
paper filing system is cumbersome to hand count and subject to human 
error. These issues directly contribute to the difficulties in 
identifying missing persons and updating information for public safety 
departments outside Navajo Nation's jurisdiction. The cost of updating 
our system into one Record Management Server would cost the Nation 
approximately $5 million dollars. Further, supplementary funding to 
include 11 employees to conduct crime analysis within the Information 
Management Section of the Navajo Police Department plus support 
equipment costs would cost close to $1 million. The additional 
personnel would provide insight as to how law enforcement and 
investigations can be more proactive in addressing current crime trends 
within the Navajo Nation.
    The National Crime Information Center, a crime database for law 
enforcement that includes missing persons; and the National Missing and 
Unidentified Persons System are two national databases that compile 
information of missing and murdered indigenous people. However, due to 
the inaccuracy of these systems, the collection of this data falls on 
the efforts of activist and advocacy groups. Currently, the United 
States does not have a reliable database or methodology of obtaining 
statistics on the number of missing and murdered indigenous people. 
Although the U.S. Department of Justice (DOJ) operates the public 
National Missing and Unidentified Persons System (NamUs) database, the 
data it receives is provided on a volunteer basis throughout 
inconsistent jurisdictions. NamUs is the closest platform that the 
federal government has established to collect and centralize data of 
Native Americans and Alaskan Natives, but remains inefficient and 
inaccurate due to the reporting and jurisdictional issues discussed 
above. Further, state databases that voluntarily track this information 
on a voluntary basis are inaccurate, as well. Six out of 10 state 
databases are not updated. This issue is further complicated by 
jurisdictional complications determining who is responsible for data 
collection and adequate identification of Native American heritage.
Tribal Access Program (TAP) Development
    The U.S. Department of Justice (DOJ) launched the Tribal Access 
Program (TAP) pilot project for National Crime Information in August 
2015 to provide Tribes with access to national crime information 
systems for both criminal and civil purposes. This allows Tribes to 
exchange data to protect their citizens through data exchange via the 
Criminal Justice Information Services (CJIS) system (federal component) 
and via state databases in which they are connected. Out of 55 Tribes 
that applied for funding through the DOJ for this program, DOJ selected 
the Navajo Nation to receive 2 kiosk systems in November 2017. 
Currently, the Navajo Nation has these two Tribal Access Program (TAP) 
kiosks installed on the reservation at: 1) Division of Social Services 
in Window Rock, AZ; and 2) Judicial building in Chinle, AZ. The 
possibility of expanding the number of databases to track this 
information on the Navajo Nation are taking place to add 5 to 7 more 
kiosks.
    The upcoming expansion of the TAP program on the Navajo Nation 
presents an opportunity for congressional leaders to expand the program 
to develop a database to adequately track missing Navajo citizens and 
compile information to share across jurisdictional boundaries. The 
issue that arises in this instance is that Navajo Nation law 
enforcement has a responsibility of entering the voluminous amount of 
data of tribal court convictions. The inclusion of a database to track 
missing and murdered citizens would require a dedicated funding stream 
for our severely underfunded public safety program to operate and meet 
CJIS security requirements. Further, a DOJ tribal technical assistance 
program and annual update program is needed to educate on the already 
existing gaps in TAP.
                  additional service gaps to consider
1Navajo Department of Medical Examiners
    The Nation does not have an Office of the Medical Investigator 
(OMI). Deceased individuals have to be transported approximately 4 
hours to a state facility for autopsy and, if there is no foul play 
involved in the case and the FBI pays for the autopsy, then there are 
only limited funds in which Navajo Criminal Investigations works with 
the families to get answers as to the nature of how their loved ones 
passed away. In order to establish an OMI within the Navajo Nation, the 
projection is $4 million start up and thereafter have an annual 
operating budget of $1.5 million. Contracting with the area state OMI 
offices is not feasible or practical. \13\
---------------------------------------------------------------------------
    \13\ See, Navajo Nation Legis. 0321-18 establishing Department of 
Medical Examiners enacted October 2018.
---------------------------------------------------------------------------
Federal Crime Data Analysis
    The Navajo Nation can request services from the FBI to analyze the 
evidence of a federal crime at a crime lab. However, if the prosecution 
of the crime remains within the jurisdiction of the Navajo Nation, no 
funding exists to analyze the data. Further, the Nation does not have 
any crime labs to conduct the analysis. The Navajo Nation estimates 
that approximately $1 million in additional funding for criminal data 
analysis is needed.
    Another key aspect of a fully functional Navajo OMI would allow us 
to also sift through missing persons cases on our Nation that could 
potentially be of use to outside agencies who are searching for missing 
persons, and vice versa. For instance, NamUS allows participating 
agencies to utilize their program to go through data of missing persons 
and Jane/John Doe's, thus increasing the chances of finding missing 
loved ones who may be deceased.
Conclusion
    The problem of missing and murdered people in Indian country 
continues to grow every year. Congress and the federal government, 
along with Indian tribes, need to address this now in order to curb the 
problem. In light of my testimony, we suggest the following:

        1.  Provide intergovernmental resources or establish State-
        Tribal tasks forces to increase communication between Tribes 
        and states/local municipality law enforcement to determine 
        jurisdictional reporting responsibilities.

        2.  Increase critical access and create effective federal 
        systems that provide resources and information sharing for 
        families who are in the process of locating their missing 
        family members.

        3.  Increase access and funding for support services for the 
        families of missing and murdered people and safe house shelters 
        for domestic violence survivors.

        4.  Significantly increase funding for tribal courts to expand 
        prosecutorial resources and provide victim advocate services 
        that are currently unavailable.

        5.  Significantly increase funding for a dedicated funding 
        stream for the Tribal Access Program (TAP) for Indian tribes to 
        expand data sharing across jurisdictional boundaries to 
        comprehensively operate and meet CJIS security requirements.

    Thank you for providing me the opportunity to testify before the 
committee. Ahehee Thank you.

    The Chairman. That is fine, and you will have an 
opportunity to present more, as well, with the questions and 
answers.
    Now we will turn to Ms. Patricia Alexander, co-chair of the 
Violence Against Women Task Force. Ms. Alexander.

  STATEMENT OF PATRICIA ALEXANDER, CO-CHAIR, VIOLENCE AGAINST 
 WOMEN TASK FORCE, CENTRAL COUNCIL OF TLINGIT AND HAIDA INDIAN 
                        TRIBES OF ALASKA

    Ms. Alexander. Thank you. Greetings from Alaska. My name is 
Patricia Alexander. I am the co-chair of the Violence Against 
Women Task Force of the Central Council of Tlingit & Haida 
Indian Tribes of Alaska. I appreciate the opportunity testify 
today.
    Our president, Richard Peterson, asked me to convey his 
thanks to Senator Murkowski and to Chairman Hoeven, and the 
other members of the Committee for working toward meaningful 
solutions that promote the well-being of Native women. I join 
him in thanking Senator Heitkamp for her leadership in 
Savanna's Act. It is a privilege to meet you in person. That 
bill is an important first step in addressing missing and 
murdered Native women.
    While violence against Native women occurs at higher rates 
than any other ethnic group in the United States, it is at its 
worst in Alaska. A full 50 percent of Alaska Native women have 
experienced physical or sexual violence in their lifetime. I am 
one.
    Tlingit & Haida is all too familiar with the corrosive 
effect that this violence has on our community, our culture, 
our way of life. It has been more than a year since the 
unsolved death of 19-year old Jade Williams of Kake; nearly a 
year since the unsolved death of 37-year old Francile Turpin of 
Klawock; two and a half years since the murder of 28-year old 
Judylee Guthrie in Klawock. The future of Indian County depends 
on whether all of us work together to ensure that Native women 
live in environments that are free of such rampant, 
unaccountable violence.
    As co-chair of the Task Force, I have begun conducting 
research to find out how missing and murdered indigenous women 
are identified and cases tracked. To my surprise, I have 
learned that law enforcement in Alaska does not track the 
ethnic backgrounds of victims of violence. I further learned 
that there is no data sharing between law enforcement and a 
victim's tribe where P.L. 280 states that we don't have tribal 
law enforcement.
    Moreover, despite the efforts of some domestic violence 
shelters to share ethnic and tribal data that they have 
compiled, the State has yet to effectively use that data to 
better focus its services for Native victims. It is not a 
priority for the State of Alaska.
    The police agencies tell us that they only collect data on 
violence against women if they make an arrest, and open a case. 
That means that there is no data, no record, in many cases of 
domestic violence and sexual assault in Native communities 
where there is little or no law enforcement presence. Victims 
are not being treated, and repeat violence is not being 
deterred. This is shocking; it is unacceptable. Just because a 
perpetrator cannot be identified and arrested does not mean a 
victim cannot be identified and served. The rights of victims 
should not be denied because law enforcement fails to apprehend 
perpetrators. Law enforcement must track this information.
    The geographical remoteness of Alaska is another factor in 
making data collection difficult. Tlingit & Haida serves 20 
villages and communities spread over 43,000 square miles within 
southeast Alaska. Our service population is among the largest, 
most isolated, most geographically dispersed tribal population 
in Indian Country. Because of this, there is no 911 to call; 
there are no Amber alerts if a child goes missing. Native 
villages rely heavily on village public safety officers and 
community members who are the first, and in some cases, the 
only, responders to incidents of domestic violence and sexual 
assault.
    However, not every community has a VPSO. This limits data 
collection. The failure to collect victim data makes it 
difficult to tailor our treatment programs and services to 
proactively provide Alaska Native women with resources that can 
save their lives.
    So in conclusion, I ask this Committee, along with the 
recommendations in my written testimony, that you work with the 
Appropriations Committee to provide targeted funding to tribal 
governments like Tlingit & Haida to conduct research, collect 
data, coordinate reporting between tribal governments and law 
enforcement agencies, establish a pilot for at least one Alaska 
tribe to exercise special domestic violence jurisdiction, where 
upon conclusion of the planning phase, the tribe would seek 
certification from the Department of Justice. Work closely with 
the Alaska delegation and the Alaska Native Women's Resource 
Center to ensure that any jurisdictional fix addresses the 
unique needs of Alaska Native communities. Finally, law 
enforcement needs to be held to the best practices for data 
collection.
    I want to say that Alaska has the dubious distinction of 
being the worst. And I think that is important to remember at 
budget time. Don't treat us like everyone else. We are the 
worst. We have the worst problems in terms of being on islands 
and landlocked, only available by boat or plane, affected by 
weather. The tribes and the VPSOs are trying, they are doing 
what they can. But they don't have resources to do what they 
must do.
    I believe that in Anchorage, the police there were very 
helpful in the data collection that was done by the Seattle 
Urban Center. I believe that local authorities will cooperate 
with us if we can have the resources to address the problem.
    Thank you.
    [The prepared statement of Ms. Alexander follows:]

 Prepared Statement of Patricia Alexander, Co-Chair, Violence Against 
Women Task Force, Central Council of Tlingit and Haida Indian Tribes of 
                                 Alaska
    GREETINGS FROM ALASKA! My name is Patricia Alexander. I am the Co-
Chair of the Violence Against Women Task Force (VAWTF) of the Central 
Council of Tlingit and Haida Indian Tribes of Alaska (``Tlingit & 
Haida'' or ``Tribe''). Thank you for inviting me to testify on behalf 
of my Tribe. Our President, the Honorable Richard J. Peterson, sends 
you his greetings and gratitude for the attention this Committee has 
placed on this topic of such vital importance to the future wellbeing 
of our Tribe.
    Tlingit & Haida is a federally-recognized tribal government with 
over 30,000 citizens worldwide, and has an active, government to 
government relationship with the United States. The Tribe serves 18 
villages and communities spread over 43,000 square miles within 
Southeast Alaska. More than 7,000 tribal citizens reside in Juneau, 
with several thousand more located in Anchorage. Beyond that, the vast 
majority of tribal citizens reside in Washington State, and smaller 
numbers stretch into Oregon and the rest of the world. Tlingit & Haida 
tribal citizens are among the largest, most isolated, and most 
geographically dispersed tribal populations nationwide. In Southeast 
Alaska, where the Tribe provides the majority of its services, most 
communities have no roads in or out, and must rely on planes and boats 
for both day-to-day needs and emergencies.
    I have dedicated much of my professional work life to providing 
much-needed health and social services to our tribal citizens. I have 
worked in tribal social service programs for Tlingit & Haida as well as 
for the Sitka Tribe. I have also served in a tribal treatment center in 
Arizona, and have engaged in hospital administration for the Southeast 
Alaska Regional Health Consortium.
    Tlingit & Haida wishes to commend our own Senator Lisa Murkowski, 
along with Chairman John Hoeven, Vice Chairman Tom Udall and other 
members of this Committee for continuing to work in partnership with 
Tlingit & Haida and others in Indian Country to identify meaningful 
solutions that promote the well-being of Native women and children. I 
would also like to thank Senator Heidi Heitkamp for her leadership on 
S. 1942, Savanna's Act, and to all those on this Committee for working 
so hard to pass this measure in the Senate last week. This bill is an 
important first step in assisting federal, state, local, and tribal law 
enforcement to apply the appropriate justice protocols needed to 
address missing and murdered Native Americans and Alaska Natives 
throughout Indian Country
Tlingit & Haida Efforts to Prevent Missing and Murdered Women in Alaska
    While violence against Native American women occurs at higher rates 
than in any other ethnic group in the United States, it is even worse 
in Alaska. According to the Alaska Native Tribal Health Consortium, 50 
percent of Alaska Native women experience physical or sexual violence 
in their lifetime. The Violence Policy Center reports that the homicide 
rate against Alaska Native women and children is three times the 
national average, identifying that in twelve murders, eight will be 
American Indian or Alaska Native. Even more troubling, the Violence 
Policy Center reports that Alaska is ranked first among states with the 
highest homicide rates of women by men and is the most violent state, 
with Anchorage as the most violent city within the Union. The Seattle-
based Urban Indian Health Institute reports that Alaska is among the 
top ten states with the highest number of missing and murdered Native 
Americans and Alaska Natives with 52 active cases.
    Tlingit & Haida is all too familiar with the corrosive effect that 
this violence against our women and children has had on our 
communities. It has been more than a year since the unsolved death of 
19-year-old Jade Williams of Kake and nearly a year since the unsolved 
death of 37-year-old Francile Turpin of Klawock. The alleged murder of 
Judylee Guthrie, 28 of Klawock, Alaska, has yet to be prosecuted nearly 
two and a half years later. Earlier this year, Tlingit & Haida held a 
memorial in solidarity with our northern relatives after ten year old 
Ashley Johnson Barr of Kotzebue was found dead, sexually assaulted and 
strangled, after being missing for days. Fortunately, the perpetrator 
is being held accountable for this heinous crime.
    Because we believe the future of Indian Country rests in the secure 
status of women living in environments that are free of violence, 
Tlingit & Haida has committed its resources and staff to working 
towards bringing an end to these threats to our women and children. At 
our 2018 annual Tribal Assembly, Tlingit & Haida passed resolution 
TA18-27 calling for the increased investigation of Missing and Murdered 
Indigenous Women and asking the Department of Justice to report on 
their steps to reduce the disproportionate numbers of victims who are 
Native women. \1\
---------------------------------------------------------------------------
    \1\ ``BE IT FINALLY RESOLVED, that the Tlingit & Haida petition the 
US Department of Justice to evaluation and report on progress by 
federal and state law enforcement agencies in investigating and 
reducing the incidence of missing and murdered indigenous women no 
later than December 31, 2019 from the states of Alaska and Washington, 
and US Department of Justice.''
---------------------------------------------------------------------------
    In addition, Tlingit & Haida adopted Resolution TA 18-37 
establishing a Violence Against Women Task Force (``Task Force'') to 
fight against violence destroying the lives of our women. The work of 
the Task Force, in fact, is what brought me in front of you all today.
    The Task Force is a community-driven response to end domestic 
violence and to address cases of missing Alaska Native women. It is 
charged with studying, analyzing, reporting, and providing 
recommendations on how to:

  <bullet> Improve criminal justice system to better serve and protect 
        Alaska Native women;

  <bullet> Increase criminal justice protective and investigative 
        resources for reporting and identifying murdered and missing 
        Alaska Native women;

  <bullet> Identify rates of violence against women and reduce 
        incidences through continuing efforts to connect state, tribal 
        and federal resources;

  <bullet> Address issues relating to public safety and law enforcement 
        that create barriers for responding timely to violent crimes 
        against Indigenous women in rural Alaska communities;

  <bullet> Identify effective tribal justice methods used to reduce 
        violence against Alaska Native women; and

  <bullet> Create partnerships with local, state and national 
        organizations for resource development (i.e. Alaska Native 
        Women's Resource Center, National Indigenous Women's Resource 
        Center and NCAI's VAW Task Force).

    The Task Force is a continuation of Tribe's increasing attention to 
violence against women. In 2012, Tlingit & Haida advocated for fully 
including Alaska Native Tribes within the purview of the Violence 
Against Women Act. \2\ Since then, we have repeatedly met with the U.S. 
Department of Justice (DOJ) to advocate for resources that meets the 
needs of Alaska Native women and children. We have also supported 
National Congress of American Indians (NCAI) resolutions which advocate 
for the safety of Alaska Native women residing in tribal and village 
communities.
---------------------------------------------------------------------------
    \2\ Tlingit Haida Resolution TA/12-58, Opposition to Any Language 
Excluding Alaska Native Tribes from the Violence Against Women Act 
(April 18-21, 2012), http://www.ccthita.org/info/press/releases/
2012releases/Resolution%20TA%2012-58%20Opposition%20to%20Any%20
Language%20Excluding%20AK%20Native%20Tribes%20from%20the%20VAWA.pdf; 
Tlingit Haida Press Release, Tribe Strongly Opposes Exclusion from 
Violence Against Women Act (April 23, 2012), http://www.ccthita.org/
info/press/releases/2012releasesNR%2004232012%20
/TribeStronglyOpposesExclusionFromVAWA.pdf
---------------------------------------------------------------------------
    In 2014, when the unduly-limiting Section 910 of the Violence 
Against Women Act was repealed, Tlingit & Haida took active steps as a 
tribal government to increase protections for Alaska Native women. The 
Tlingit & Haida Tribal Court, began issuing civil protection orders for 
domestic violence committed by intimate partners and family members. 
\3\ Our orders addressed a range of domestic violence offenses, 
including threats, assault, and sexual assault. We issue emergency 
protection orders, ex parte, for up to 20-day periods upon a showing of 
probable cause. Permanent protection orders are issued from one to five 
years after a hearing is held.
---------------------------------------------------------------------------
    \3\ Tlingit Haida, Tribal Update (December 18, 2018), http://
www.ccthita.org/government/president/updates/TribalUpdate_Dec2014.pdf
---------------------------------------------------------------------------
    The protection orders are served on the Respondent by the Juneau 
Police Department or Alaska State Troopers or Village Public Safety 
Officers based on the location of the Respondent. Service of process is 
more challenging in our remote villages without law enforcement. For 
violations of the Tribal Court Protection Order that occur in Juneau, 
the City Prosecutor files criminal charges for violation of the 
tribally-issued protection order. The Tribe is exploring how to 
encourage the state of Alaska to better prosecute violations that occur 
outside of Juneau. In an effort to maximize protection and increase 
safety for Native Women, the Tribal Court makes every effort to 
collaborate with state and local law enforcement and prosecutors in 
serving and enforcing protection orders. However, many of our 
communities lack any first responders to enforce a protection order, 
which leaves those in such villages more vulnerable.
    Since the Task Force's establishment, we have participated with the 
Alaska Native Women's Resource Center's annual Unity meeting held prior 
to the Alaska Federation of Native's Annual meeting, the Office of 
Violence Against Women's 2018 Annual Consultation, and most recently 
the Office of Victims of Crime (``OVC'') Listening Session in Palm 
Springs. We further plan to evaluate whether to establish a DOJ Office 
of Violence Against Women-funded Southeast Alaska Native Women's 
Coalition. We successfully applied for Phase I of the Victims of Crime 
Act (``VOCA'') 2018 Tribal Set-aside program, although our 
application's budget was cut , by OVC, who may not understand the 
logistical challenges we face in Alaska including the lack of available 
housing and actual costs of resources and services in our remote 
village communities.
    To continue improving services and protection for our women, 
Tlingit & Haida's Chief Justice Michelle Demmert also participated in 
the Third Meeting of the North American Trilateral Working Group on 
Violence Against Indigenous Women and Girls in Mexico City held this 
year to explore how to better improve collaboration, information 
sharing, and leverage resources to respond to violent crimes against
    Alaska Native women. \4\ Indigenous representatives from the United 
States, Canada and Mexico discussed common themes including, high rates 
of suicide among their youth and the housing crisis that their 
communities face and the impact this crisis has on women attempting to 
leave the violence. Canadian participants discussed the high rate of 
missing and murdered indigenous women and girls, and how their 
government is attempting to address these issues including a national 
inquiry and apology, as well improved protocols among law enforcement. 
We can learn much from our northern neighbors as we look for ways to 
improve the protocols for American Indian and Alaska Native women and 
girls.
---------------------------------------------------------------------------
    \4\ Tlingit & Haida Chief Justice to Attend Trilateral Work Group 
Meeting on Violence Against Indigenous Women and Girls (September 7, 
2018), https://myemail.constantcontact.com/FOR-IMMEDIATE-RELEASE--
Chief-Justice-to-
Attend-Trilateral-Meeting-on-Violence-Against-Indigenous-Women-and-
Girls
.html?soid=1124597381696&aid=nmPvEYNC6-A
---------------------------------------------------------------------------
    This past year, more than 200 tribal, state, regional, and national 
organizations, including Tlingit & Haida, joined the National 
Indigenous Women's Resource Center in support of the Senate resolution 
recognizing a 2nd National Day of Awareness for Missing and Murdered 
Native Women and Girls. \5\ The first national day of awareness in 2017 
reached millions of people across the United States and the world 
through social media platforms. The social media networking and 
mobilization this year surpassed the 2017 efforts. Tlingit & Haida held 
a Rally, March and Awareness event in Juneau that had over 200 citizens 
in attendance. The response to the public call for increased awareness 
is indicative of the extent of the reality that Native women go missing 
daily often without any response by law enforcement.
---------------------------------------------------------------------------
    \5\ See TA18-34.
---------------------------------------------------------------------------
Challenges Facing Alaska Native Communities
    There are many barriers that make it difficult for Tlingit & Haida 
to adequately protect our Alaska Native women residing in what are 
often remote communities. These include extreme weather, limited police 
and public safety protection, lack of access to necessary resources and 
limited counseling and support services. This situation is compounded 
by insufficient federal funding opportunities that do not even begin to 
meet the needs of Alaska Natives. We suffer from inadequate data 
reporting that makes it difficult to tailor programs to the needs of 
our women. We face a challenging lack of coordination between state and 
tribal officials, and a lack of training and resources in villages 
where neighbors are often the first, and only, responders who lack 
training beyond their compassionate hearts. In the rest of my 
testimony, I will provide greater detail on each of these barriers.
A. Remote Location, Extreme Weather, Lack of Transportation
    The geographical remoteness, extreme weather, and the lack of 
adequate transportation present serious challenges in responding to 
crime in Alaska Native villages and in accessing state judicial systems 
in a timely matter. Tlingit & Haida serves 20 villages and communities 
spread over 43,000 square miles within Southeast Alaska. Our service 
population is among the largest, most isolated, and most geographically 
dispersed tribal population in Indian Country. While we are proud to 
maintain our lives in our original homeland, our struggle to protect 
our women and children is made more challenging by our geophysical 
realities. Most of our Southeast Alaska communities are connected only 
by ferry boats or small planes. There are very few road connections. 
With only three secure women's shelters in Juneau, Ketchikan, and Sitka 
in our region, if female victims in other communities seek to leave for 
safety purposes, doing so requires very public and often delayed travel 
by plane or ferry. Additionally, if a domestic violence incident occurs 
in any of the other outlying communities or villages, the victim's 
safety is at great risk because our limited police and Village Public 
Safety Officers (VPSO) cover huge territories and often are not present 
for days and weeks in some communities. Consequently, victims often 
have trouble getting help in time to collect evidence and in some 
instances, to save their lives.
B. Village Public Safety Officers are the First Responders
    Village Public Safety Officers (VPSOs) are crucial resources for 
Alaskan villages. Women and children also go missing and are murdered 
in these communities too. VPSOs are often the first, and in some cases, 
the only official responders to incidents of domestic violence and 
sexual assault in remote areas of Alaska. While VPSOs do their best, 
they are hampered by more limited training than other law enforcement 
officers receive, more limited resources and authority and lower 
compensation.
    These challenges contribute to turnover in the VPSO program. 
Turnover, which can be the result of burnout, from being on call, for 
all practical purposes, 24 hours a day, leaves communities with gaps in 
their law enforcement coverage, as a new officer is sent to training 
for months and there is no current officer. It is also not infrequent 
that the VPSO program trains officers, who too quickly depart for 
higher paying law enforcement positions, serving for a municipal force 
or moving down south.
    The VPSO program needs additional resources and authority for 
training and responses because the officers, in spite of all the 
challenges, do amazing work to keep our families and communities safe. 
Our communities have learned that the presence of a VPSO increases 
reporting of crime and violence. So while statistics rise when a VPSO 
is present, it is only because there is finally someone to report to, a 
local person, with whom the community has a relationship and where 
there is trust. For those communities with no law enforcement, VPSO or 
otherwise, crime is underreported. It is yet another area where 
statistical evidence for our Alaskan communities is lacking or 
misleading.
C. Funding Barriers
    While U.S. DOJ has attempted to direct funding towards domestic 
violence and sexual assault, many federal grant programs do not allow 
us to spend money on prevention, enforcement, or policing and few 
programs are available to help us provide counseling services to 
victims of domestic violence and child witnesses. While Tlingit & Haida 
is encouraged by the 2018 VOCA Tribal Set -Aside, it is clear from our 
reduced application award in the Phase I process, that OVC does not 
understand the true costs of crimes in Alaska and the Resources needed. 
We need a permanent set aside for VOCA, and grant awards that truly 
build capacity and program sustainability.
    In 2015 DOJ announced the Tribal Access Program (TAP) for the 
National Crime Information Center (NCIC), which provides eligible 
tribes with access to the Criminal Justice Information Services 
systems. There are now 30 tribes participating in TAP, which will 
greatly facilitate their ability to enter protection orders and 
criminal history into the federal databases. Because DOJ is using 
existing funding for the TAP program, eligibility is currently limited 
to tribes with a sex offender registry or with a full-time tribal law 
enforcement agency. Tlingit & Haida is one of many tribes, particularly 
in Public Law 83-280 jurisdictions like California and Alaska, who 
cannot meet this DOJ criteria but who do have tribal courts that issue 
protection orders. For our protection orders to be effective and 
protect victims, an issuing tribe like Tlingit & Haida needs to be able 
to enter them into the protection order file of NCIC. A dedicated 
funding stream should be created for expanding the TAP program and 
making it available to all interested tribes who meet the requirement. 
All tribes should have the ability to access federal databases not only 
for obtaining criminal history information for criminal or civil law 
purposes, but also for entering protection orders, missing person's 
reports, and other relevant information, including National Instant 
Criminal Background Check System disqualifying events, into the 
databases.
D. Inadequate Data Collection
    Perhaps even more challenging is the lack of enough data on 
domestic violence, sexual assault, sex trafficking, and violence 
against children, which is needed to build sound legal infrastructure 
and provide appropriate services to ensure our women and children are 
not living in danger. Tlingit & Haida commends this Committee for 
persuading the Senate to pass Savanna's Act to address this exact 
problem.
    Following my appointment, I initiated research, at the local level, 
to find out how missing and murdered indigenous women are identified 
and their cases tracked. To my surprise, I learned that tracking the 
racial background of victims is not done by the Sitka Police, nor by 
the State of Alaska. I further learned that there is no communication 
between a tribe and law enforcement when a victim is a tribal citizen. 
Moreover, despite domestic violence shelters compiling data and sharing 
it with the state of Alaska, the state finds it difficult to interpret 
and successfully use this data to focus on the unique needs of Native 
women and children.
    Additionally police have informed us that they are only collecting 
data if there is an arrest. But, how can there be an arrest without law 
enforcement within 75 of Alaska communities? \6\ This means that many, 
if not most, instances of domestic violence, sexual assault, sex 
trafficking, and missing women are not being documented or accounted 
for. This is shocking. Just because a perpetrator cannot be identified 
and arrested does not mean a victim cannot be identified and served. 
The rights of victims can no longer be denied just because law 
enforcement fails to apprehend perpetrators.
---------------------------------------------------------------------------
    \6\ See TLOC Report, supra 39.
---------------------------------------------------------------------------
    When data is not kept, there is no ability to track our women. Our 
voices, our stories, the realities that we live, continue to be 
marginalized because they remain anecdotal evidence. The failure of 
data collection is not only making it difficult to tailor our programs 
and services and partner with local and state law enforcement to 
protect Alaska Native women, but more importantly, it is preventing our 
Tribe from being able to proactively provide Alaska Native women with 
resources that could save their lives and the lives of their children. 
Law enforcement must track this information. Not only do I believe 
adequate data will lead to valuable information, but that information 
can then be a basis for advocating for increased resources. I also 
believe there is inherent value in validating the reality that Alaska 
Native women face.
Recommendations for Protecting Alaska Native Women and Children
    In response to our experience with these barriers, Tlingit & Haida 
provides the following recommendations to the Committee to consider as 
it continues to advance measures to protect our women and children.

    1.  DOJ funding should be dramatically increased and should be 
focused on violence prevention, enforcement, and policing.

    2.  DOJ VOCA grant funding should be dramatically increased and 
made permanent or it will remain ineffective. The SURVIVE Act S. 1870 
would address this issue and should include victim compensation and 
services as defined by the tribal government.

    3.  Data reporting models in Alaska should be required to include 
data collected from VPSOs and tribal governments without tribal law 
enforcement or VPSO's . Funding should be provided to meet this 
requirement.

    4.  VPSO programs should be provided with dramatically increased 
funding--

        a.  Especially for training VPSOs in data collection in cases 
        involving violence against women and children;

        b.  For training VPSOs in responding to domestic violence, 
        sexual assault, sex trafficking, and trauma;

        c.  To ensure that there is a VPSO officer in every Alaska 
        Native community, including the most remote of villages.

    5.  Provide dramatically increased funding resources for broader 
community training on domestic violence, sexual assault, sex 
trafficking, and trauma and best practices for prevention.
    6.  Provide increased support for dramatically increased funding 
resources for tribal courts and tribal law enforcement in Alaska.
    7.  Provide increased victim services to the families and community 
members of the disappeared or murdered Native women, such as counseling 
for the children of the disappeared, burial assistance, and community 
walks, healing and other tribal-specific ceremonies. Passage of the 
SURVIVE Act S. 1870 would address this issue
    8.  Fully implement the VAWA 2005 program of research and 
specifically provide Indian tribes information regarding the 
disappearance and murder of Native women. We need a baseline study for 
Alaska as our situation may be different than what the National 
Institute of Justice reported in their Violence Against American 
Indians and Alaska Native Women and Men.
    9.  Upon enactment of Savanna's Act, provide targeted funding for 
tribal governments like Tlingit & Haida, perhaps on a pilot program 
basis, to ensure full participation in and coordination of efforts 
across federal departments to conduct research and collect data to 
better improve tribal government responses to the disappearance or 
murder of Native women and girls.
    I, along with all of us at Tlingit & Haida, look forward to working 
further with Senator Murkowski and the rest of this Committee on ways 
we can heal this life and death filled trauma for many women and 
children in our Native communities. Together, we must ensure the safety 
of our tribal citizens. Thank you for this opportunity to join the 
Committee in sounding a call to arms.
    Gunalcheesh! Haw'aa! Thank You!

    The Chairman. Thank you, Ms. Alexander. Ms. Loring-Heavy 
Runner.

    STATEMENT OF KIMBERLY LORING HEAVY RUNNER, MISSOULA, MT

    Ms. Loring-Heavy Runner. Thank you for allowing me to speak 
for my sister, Ashley.
    So Ashley went missing on June 12th, 2017. That is exactly 
18 months ago. That is exactly 18 months ago since the last 
time that I got to see my sister, spoke with her, to be around 
her.
    During that time, when she went missing, the first tip that 
we got for Ashley was stating that Ashley was running on 
Highway 89 on the Blackfeet Reservation, alongside the Rocky 
Mountain front, from this, she was running from this vehicle. 
And since that tip that we got, we met with BIA and the tribal 
police. And they searched for three days, they searched for 
three days to look for Ashley. And after those three days, they 
stopped.
    They had this task force that they formed when Ashley first 
went missing, and they had one time where they spoke with each 
other. Then after that first meeting, they had never come back 
to speak of what they found about Ashley.
    And during that time when Ashley was missing, it was two 
months after she went missing, the BIA was still stating that 
Ashley is of age, and is able to leave whenever she wants to. 
That is not a proper response when dealing with a woman that 
has been missing for two months, and despite the fact that we 
found a sweater, with an eyewitness saying that that was the 
sweater that Ashley was wearing during the time that she went 
missing.
    And one of the leads that we received during that time was 
that my sister was hurt in the mountains on the Flathead 
Reservation, in this place in the mountains, at a place in the 
mountains. That is just ridiculous. This place in the 
mountains.
    And though there are leads saying that she was wearing the 
sweater, and she was placed in a barrel, in an oil barrel. And 
where we found this sweater, there was nothing but oil barrels 
everywhere, and the sweater was stained with oil and stained 
with red marks that did look like blood.
    When we switched over the sweater, over to, at the time we 
were working with the BIA, it was after two weeks that we 
called to speak with them about this sweater, they lost it. 
They called us and told us that, we do not know where this 
sweater is at. We also found boots that was the same size as 
Ashley's, and the same style. When we turned over the boots, 
somehow these boots turned from, or these boots went from 
Ashley's size to a little child's size, which I do not 
understand how that happened.
    Working with the law enforcement at the Blackfeet 
Reservation and BIA, we went weeks without even speaking with 
them. They did not call and they did not give us any 
information. One time I spoke with this officer, he was a 
family friend, but he was an officer. He stopped me and talked 
to me, and said, these guys are not taking Ashley's case 
seriously. They are putting her as she is of age and she can 
leave when she wants to. That is not a proper response when you 
deal with missing and murdered indigenous girls, that are 
missing.
    One more thing, in working with these law enforcement 
officers, there was this officer that was the head of Ashley's 
case. He was leaking information to one of the prime suspects. 
And he was having a relation with the suspect. This was not 
based on rumors or stories; this was fact. Because I was there 
when this person was speaking with the officer on the 
telephone. It was the officer. And I later spoke with this 
officer, and he did say yes, that was me, and I was speaking 
with her.
    I believe that if the law enforcement would have searched 
for my sister when she first went missing, if they would have 
taken her case seriously, we would have my sister. And we 
wouldn't have to search for 18 months through the rain and 
three feet of snow, being chased by grizzly bears, wondering, 
is my sister in the mountains? Knowing that there are grizzly 
bears all over the Rocky Mountains, is my sister up there?
    If they would have taken her seriously as a person, because 
we are important, I believe that my sister would have been 
here, or we would have closure. That is why I am here today, is 
to stress to you that I believe that the law enforcement did 
not take Ashley's case seriously, as well as other girls that 
have gone missing and murdered in Indian Country.
    I think that is all I have to say for now, thank you. I 
went way over.
    [The prepared statement of Ms. Loring-Heavy Runner 
follows:]

    Prepared Statement of Kimberly Loring-Heavy Runner, Missoula, MT
    My name is Kimberly Loring-Heavy Runner, and I am here today to 
share my sister Ashley Loring-Heavy Runner's story, and to shed light 
on the mistreatment of Missing and Murdered Indigenous Women cases 
handled by multiple levels of Law Enforcement in Montana, and across 
the United States.
Ashley's Story
    Ashley Loring-Heavy Runner is a 22 year old Blackfeet woman that 
went missing June 12, 2017 on the Blackfeet Reservation in Montana, at 
the age of 20, over one and half years ago. Ashley's life is valued and 
cannot be explained in the five minutes that I am being allowed. Please 
forgive me if I go slightly over the requested timeframe.
Failure of Law Enforcement
    The first information in regards to Ashley's disappearance was 
received on June 25, 2017 stating that Ashley was running from a males' 
vehicle on US Highway 89, alongside the Rocky Mountain Front on the 
Blackfeet reservation.
    In the beginning stages of the investigation, a sweater was found 
on the Blackfeet Reservation on June 28, 2017 and placed into evidence 
with Blackfeet Tribal Law Enforcement (BLES). The sweater was 
identified by an eye-witness stating that Ashley was wearing the exact 
same sweater when she went missing. When the sweater, which was stained 
with `red spots' and holes was turned over by Blackfeet Law Enforcement 
(BLES) to the BIA, the agent stated multiple times that he sent the 
sweater to the crime lab, when we questioned the results of the testing 
of the sweater he then changed the story and said he couldn't send out 
due to testing reasons after eight (8) months of being in evidence with 
the BIA. We later found out the sweater has never been sent, and is 
still currently sitting in BIA evidence. The Blackfeet Law Enforcement 
(BLES) informed us they did a search on the location where the sweater 
was found on July 28, 2017. We searched that location for two weeks 
after the sweater was found and never seen either agency BLES or BIA 
during our searches. We later spoke with a BLES officer that was 
working on Ashley's case and she had no recollection of a search ever 
being conducted in that location. We were then told Blackfeet Law 
Enforcement (BLES) was no longer taking any tips concerning Ashley's 
case and we instructed to contact the BIA agent assigned to our area in 
Montana. Several attempts have been made by the family with no response 
from the BIA agent to date. During the course of the investigation with 
the Blackfeet Law Enforcement (BLES) we became aware that a Blackfeet 
law enforcement officer working on Ashley's case was having relations 
with, and giving information to a prime suspect.
    For over the course of nine (9) months that the BIA has taken over 
the case most leads and information given to BIA have not been followed 
up on, nor documented. Blackfeet Tribal Law Enforcement (BLES) as well 
as the Bureau of Indian Affairs have not take Ashley's case seriously.
    After two months of being reported missing the BIA Agent responded 
to our calls by stating ``Ashley is of age and can leave whenever she 
wants to.'' Despite the fact all the leads coming in were stating that 
Ashley was in danger, or was hurt and placed in the mountains. From the 
very beginning, both Blackfeet Tribal Law Enforcement (BLES) and the 
BIA have ignored the dire situation that Ashley is in and have allowed 
this investigation to be handled in a dysfunctional manner. This isn't 
just a reality for our family but a reality for many MMIW families. We 
all share the same experience when working with law enforcement.
    In closing, think of how each of you would feel if the response you 
are given about your wife, sister, daughters missing persons case was. 
. . .

    ``she is of age and can leave when she wants to.''

    Ashley is loved and cherished, I will continue to search for my 
sister.
    I am asking you to recognize that Indigenous women matter, and the 
way our missing and murdered women cases are handled needs to be 
corrected.
    We are going missing, we are being murdered. We are not being taken 
seriously. I am here to stress to you we are important and we are loved 
and we are missed. We will no longer be the invisible people in the 
United States of America, we have worth.

    The Chairman. Thank you, Ms. Loring-Heavy Runner.
    We will begin five-minute rounds of questions. I would like 
to begin with Ms. Crotty.
    According to your written testimony, the Navajo Nation does 
not have an office of the medical investigator. The closest 
State facility that delivers medical examinations is four hours 
away from the tribe's land.
    First, how would having your own office of the medical 
investigator help the tribe resolve missing person cases? And 
second, can you talk about the Navajo Nation's process for 
keeping track of and locating missing and unidentified tribal 
members, both on and off the reservation?
    Ms. Crotty. Thank you, Chairman. I appreciate the question. 
I think you hit a critical area for Navajo in terms of medical 
examiners. As I talked about Ariel, when we found her remains, 
they were sent to the medical examiner who was located in 
Albuquerque, which was nearly three and a half, four hours 
away.
    Currently on Navajo Nation, because we do not have a 
medical examiner's office located on our nation, our criminal 
investigators, our Navajo Nation criminal investigators, not 
only have to play the role of medical examiner for naturally-
occurring cases, but they also then have to spend their time 
away from investigating some of these major crimes. We are 
talking about missing persons, homicides and other violent 
crimes that are committed against our women, our children and 
community members. This plays a huge part in terms of burnout 
for the investigators on the ground, and also in terms of how 
we prioritize what investigations will take priority and what 
are the next steps when having to travel back and forth between 
cities like Albuquerque from some of our more rural areas on 
Navajo Nation.
    It also then plays a role in how, and the ability of our 
Navajo criminal investigators to work with victims themselves 
and family members who are searching for those family members. 
As a family member of an individual who has been missing and 
ultimately murdered, it is, and I want to say that I felt your 
testimony, Kimberly, when they talked in terms of who they 
prioritized and making it seem that your sister left on her own 
accord, and dismissing the violence that potentially happened 
to her.
    That is my concern, Chairman, is when we have a system that 
is on the brink of implosion, then what happens to the cases 
and how we prioritize them?
    To our Federal partners, that is why these stories are so 
critical. On the ground, as chairwoman, we talk to all of our 
three States, Arizona, Utah, and New Mexico, different FBI 
offices. And they are segregated, and they have their own way 
of doing things, and sometimes their own ways of collecting 
data.
    But what happens is, I am not sure if the story them comes 
to our Federal partners here who are making the decisions. That 
is my concern, and that is the reason for my comment. Because 
FBI on the ground are trying to do the best that they can, but 
only having six victim advocates? Imagine how that feels in 
terms of family and those who need additional support services.
    I then want to say in terms of how Navajo Nation tracks and 
locates, I can't tell this Committee right now how many missing 
Navajo relatives are out there. Why can't I tell you that? 
Because of the different jurisdictions and how they are 
reported.
    So on Navajo Nation, what we looked at and how we track is 
very different from what we will see from our Federal partners. 
So we are trying to come together to gauge what exactly is the 
number out there, why is the data different, why are we not 
having active communication. That is why I am looking to this 
oversight, is to assist us, help us to keep people accountable, 
keep the different Federal players accountable.
    What would help us also in terms of tracking or locating is 
if we could look at, that was suggested from Representative-
Elect Debra Haaland, some type of hot line, where tips can be 
sent in. Because I do want to tell you, there is a trust issue 
in Navajo Nation when it comes to law enforcement. So we are 
trying to regain the trust of not only the community members 
and the relatives to come forward and be part of the solution, 
but when they become part of the solution, how we can support 
them. So I appreciate the Committee looking into this.
    Other areas that we are looking at is how can we look at 
the tribal access program, which is a Federal data base. And 
looing at if they can start the data base on missing and 
murdered victims on Navajo Nation and in Indian Country. Thank 
you, Chairman.
    The Chairman. Thank you. Vice Chairman Udall?
    Senator Udall. Thank you, Chairman.
    It is clear that States have a role in ensuring Native 
Americans are not overlooked in the criminal justice system. 
For example, New Mexico was the first State to enact a robust 
tribal identification law for juvenile justice cases. More 
recently, the State of Washington enacted legislation to 
connect State, tribal and Federal resources to address the 
ongoing MMIW crisis.
    Delegate Crotty, what difference, if any, has the Navajo 
Nation seen in the willingness of State agencies in New Mexico, 
Arizona and Utah to work with the tribe on MMIW cases?
    Ms. Crotty. Thank you, Senator Udall. I appreciate the 
question. I think in terms of what we have seen on the ground 
in working with collaboration, we have now seen State agencies 
come to the table and be willing to work with us and understand 
what type of data that we can work together on.
    In terms of the juvenile cases, I will have to defer back 
to our chief of police and get that exact information to your 
office. I appreciate that question, because it is critical that 
we know all of the different nuances and how we can continue to 
work with our State agency. So I appreciate the question, 
Chairman.
    Senator Udall. Thank you very much. We look forward to 
getting that information, working with you on it.
    Ms. Loring-Heavy Runner and Ms. Alexander, can either of 
you speak to how the States of Montana and Alaska are with 
coordinating with your tribes on MMIW?
    Ms. Alexander. Thank you, Senator Udall. There is no 
coordination that I am aware of. I would like to get back to 
you about the VPSO program and what their experience has been 
as far as coordination.
    But we are here because there is none, almost as if the 
State is absolved of all responsibility because they don't have 
the resources. Thank you.
    Senator Udall. Thank you.
    Ms. Loring-Heavy Runner. Thank you, Mr. Udall.
    So just like she just said, we are here for a new protocol, 
because, what do we do, what is law enforcement supposed to do 
when missing and murdered girls go missing, and women. Because 
it seems like they don't know, either. Because they don't, they 
are not communicating with us.
    I believe that we need a new protocol, when it comes to 
missing and murdered indigenous women. I think that is about 
it.
    Senator Udall. Thank you very much, to all of you, for 
those answers.
    One of the privacy protection features of NamUs is the 
cases are only published in the data base after rigorous 
vetting with appropriate local, State and Federal or tribal law 
enforcement agencies. I understand the importance of this 
safeguard, but I also know that many Native communities face a 
troubling shortage of law enforcement presence and law 
enforcement officers.
    So Ms. Loring-Heavy Runner, do you know if your sister's 
case is listed in NamUs or any other Federal data bases that 
track missing people?
    Ms. Loring-Heavy Runner. When Ashley first went missing, we 
were told that it took two to three months for her name to even 
appear on any of those. So it took a really long time for 
Ashley's name.
    Senator Udall. But you believe it is in the data bases?
    Ms. Loring-Heavy Runner. I believe it is in a few of them, 
it is not in all of them. Yes.
    Senator Udall. Thank you.
    Ms. Loring-Heavy Runner. Excuse me, it is in the ones that 
don't matter. So I believe that we need to get her into the 
data bases that do matter in that respect.
    Senator Udall. Okay. If we can help with that, I hope you 
will let us know.
    Delegate Crotty and Ms. Alexander, do you know if your 
tribes have access to the NamUs system, and are you aware of 
any difficulties they are having with it?
    Ms. Alexander. I am sorry, I do not have the answer to that 
question.
    Senator Udall. Okay, thank you.
    Ms. Crotty. Thank you, Senator Udall, for the question. 
Currently, Navajo Nation does have access to the NamUs data 
base. What we have found was there is just not enough training, 
so that individuals, certain individuals have access. Because 
of the magnitude of the Navajo Nation in terms of geographic 
locations, we want training and education so individuals 
understand how to put that information into the data base.
    What we have found on Navajo was we had volunteers and 
community members then becoming experts. That is how myself, as 
a policy maker on Navajo Nation, found out about NamUs. So 
there was a gap in terms of information about what is available 
out there and some of the Federal programs.
    So again, it is connecting back to Indian Country, 
connecting back to the tribal communities, so they understand 
what is available and what they could have access to.
    Senator Udall. Yes. The NIJ here, the previous witness and 
they have also announced, the agency itself says they have nine 
regional program specialists available to work with NamUs users 
and assist with reporting missing person cases. Do any of you 
know if your tribes have received assistance from these 
specialists?
    Ms. Crotty. Thank you, Senator, for the question. Right 
now, Navajo, I don't have any type of evidence that we have 
participated or been part of some of the discussions with the 
regional specialist to assist. But we are more than willing to 
engage in that opportunity.
    I know that they have provided some, they had talked about 
earlier some of the data sets that they were going to include. 
I think what is important, if those are data sets that they 
want to include, to also engage with communities how best we 
can use that information for policy solutions. I think that is 
something that I would continue to ask that we have 
opportunities to enter into some of those tribal consultations 
with them. Thank you, Senator.
    Senator Udall. The important thing about this hearing, now, 
I think is now that every tribal entity should know that these 
resources exist, that you can use them. And if you have 
problems, I think this Committee would like to know because 
they are saying they are there, they are willing to train, they 
are willing to work out. I don't know if there are additional 
responses from Ms. Alexander or Ms. Loring-Heavy Runner on the 
question I asked her.
    Ms. Alexander. I attended a conference in Palm Springs last 
week. And the Department of Justice, OVC, presented a fresh 
report that they had on these topics. And there was a complete 
absence of data for the 229 tribes in Alaska. No map of Alaska, 
not a single data set on Alaska. I said, why is that? It is too 
hard.
    Ms. Loring-Heavy Runner. Thank you, Mr. Udall. If you could 
please repeat that, that would be very nice of you.
    Senator Udall. The question was, on these regional people 
that are supposed to reach out and train on the data bases and 
train on the services, do you know of your tribe having any 
contact with them?
    Ms. Loring-Heavy Runner. No, sir. I'm not too sure about 
that.
    Senator Udall. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I want to thank 
all of you for being here today, for your testimony, for your 
very personal testimony, Kimberly, and all that you are doing 
on behalf of so many. Pat, I thank you for the work that you 
are doing on the Tlingit-Haida Central Council and your 
leadership on the VAWA Task Force.
    One of the things that we learned when that Seattle Urban 
Institute report came out was that this was not a study that 
had been conducted by the BIA or by the Department of Justice. 
It was two women who felt compelled to dig into some of these 
stories, and to try to understand the scope and the extent of 
murdered and missing indigenous women.
    I found it very interesting, in talking with both of them 
afterwards, that the ability to collect this information and 
this data depended on where you went. You mentioned, Pat, that 
in the municipality of Anchorage, the Anchorage police 
department was a willing participant in getting this 
information. They felt it was important to collect that 
information, and when to share that, so that we can better 
understand.
    You have said here today that when you started to collect 
the data, the Sitka police, the State of Alaska don't track the 
racial background of the victims, and there is no communication 
between the tribe and law enforcement when it involves a tribal 
citizen. So one of the things that I think is going to be 
important for us in determining what it is that we do next is, 
again, understanding exactly the extent of the problem that we 
are talking about.
    So as you have looked into this, are you aware, Pat, 
whether or not there are barriers to either the City of Sitka, 
or State of Alaska, to provide for, to collect, first, and then 
provide for this information? Have you asked at the local level 
how they can be more helpful? Because this is something that I 
think, whether it is the State of Alaska or whether it is 
Montana or North Dakota, I think our States need to help 
prioritize this. Tell me what you have learned.
    Ms. Alexander. Thank you, Senator, for the question.
    In speaking with the local law enforcement, I learned that 
there are a number of police officers that they have, and the 
number that they need, there is a mismatch. They are not quite 
down 50 percent. But it is, they are not able to recruit the 
officers that they could before. Municipalities are competing 
for officers once they are trained. So you could send someone 
and train them, and then they are going to be somewhere and 
earn some good money, but they might not come back to you.
    When the force is down that far, in terms of people that 
can respond to emergency situations, then they are having to 
prioritize even what they do right now on a daily basis. I 
believe it is that way in Anchorage as well. I believe Juneau 
probably has similar problems.
    Senator Murkowski. Yes, it is a resourcing issue, but it is 
also, as I understand, within the Anchorage police department, 
there was one individual that really took this matter very, 
very seriously and kind of spearheaded that. So in many ways, 
it is leadership, it is prioritization. So how we can work 
together to communicate that understanding the scope and extent 
of this, and identifying it and naming it needs to be a 
priority.
    Ms. Alexander. May I be very frank?
    Senator Murkowski. Please.
    Ms. Alexander. The mentality that comes out of the 
trooper's academy is, the bent is toward protection of fish and 
wildlife. It is not about protection of human beings. Their 
training manuals are 40 years old. They update every two years. 
But don't you think in a decade there has been enough change to 
rewrite the whole thing, and maybe change the attitude at the 
top so they care more about people?
    Senator Murkowski. I hear your message. I hear your 
message. In fact, I was sharing with someone this morning, I 
saw a newspaper article that an individual who had been 
convicted of poaching a moose received a $100,000 fine and a 
jail sentence. We don't want to be violating our fish and game 
laws, but you are absolutely right. When you can get a higher 
fine, a higher penalty for poaching a moose than you can for 
violating a woman, that is a problem. We have a lot of work to 
do.
    Thank you, Patricia.
    Ms. Alexander. May I say one more thing? I think tone at 
the top is important. People lead by example. If the tone is 
wrong, it needs to be fixed however it can be fixed. It might 
not, everyone may not survive the transition, but that is how 
life is sometimes. Sometimes you must break a few eggs to make 
an omelet. Thank you.
    Senator Murkowski. Thank you. Thank you, Mr. Chairman.
    The Chairman. [Presiding.] Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman. I want to 
personally thank each one of you, Ms. Crotty, Ms. Alexander, it 
is an honor to meet you. And Ms. Loring-Heavy Runner, thank you 
so much for coming here and speaking truth, and speaking for so 
many victims whose families can't be in this room.
    I know that Senator Tester, before the last panel left, 
invited the FBI to stay and listen. Unfortunate. And it makes 
us all question the real commitment to this issue, and that is 
tragic.
    I want to point out one particular thing about Savanna's 
Act, if we can get it finished here, at the end of this 
Congress. It will require that the Department of Justice 
consult on all the data bases with tribal entities and do 
consultation. So hopefully some of the gaps and some of the 
concerns that you have about the Federal data bases will be 
addressed as a result of that legislation.
    But again, the intent of that legislation is to begin the 
dialogue. We know that you can write a lot of laws, but if 
people aren't taking them seriously or resourcing these laws 
directly, in adequate measure, that law doesn't really matter. 
We have had the Tribal Law and Order Act, which was a subject 
of conversation when I first got on this Committee six years 
ago. I don't think we have ever realized the promise of the 
Tribal Law and Order Act. That is why we are here again today.
    So I think there is a real opportunity to amplify and to 
extend the message. But I couldn't agree with you more, Ms. 
Alexander, that this really is about leadership and leading by 
example. Not that I am picking on your State, but as you were 
talking, at least as you were talking about the situation with 
the game and fish violation, I remember a recent Alaska story 
where a young woman was abducted. It was a stranger abduction. 
And the judge didn't give the abductor, who committed heinous 
crime, any jail time.
    So these are the things that frustrate people. These are 
the things that make us all wonder where we are.
    I think one of the questions that I have for you, Ms. 
Loring-Heavy Runner, is you heard the discussion that the 
Department of Justice had here and the discussion that the FBI 
had about, what is the protocol, and what is the structure. In 
your sister's case, do you think any of that was actually done? 
Do you think that dialogue reflected at all what happened in 
your sister's case?
    Ms. Loring-Heavy Runner. Yes, exactly. I don't think any of 
the stuff that they spoke in here today, they did not do that 
with Ashley's case. They did not take her seriously. They just 
waited way too long. I believe that is what ruined Ashley's 
case.
    Senator Heitkamp. So when they say that the FBI was 
engaged, when the one requested to come and work on the 
investigation, at what point did the FBI get involved in your 
sister's case?
    Ms. Loring-Heavy Runner. They got involved eight to nine 
months after she went missing. So that would be in March of 
this year.
    Senator Heitkamp. Can you tell me whether at any point 
there was a request, either from BIA or from tribal police, to 
the FBI to ask them to get involved that went unresponded to?
    Ms. Loring-Heavy Runner. We were told by the BIA agent that 
was the head of Ashley's case, he said that if Ashley's case 
was switched over to the FBI, Ashley would never be found. And 
that is the only response that we received from the BIA when we 
were asking if the FBI was going to get involved.
    Senator Heitkamp. That doesn't sound like a great deal of 
collaboration and communication and cooperation, does it?
    Ms. Loring-Heavy Runner. No. They failed Ashley.
    Senator Heitkamp. And I have a similar case in my State. 
Fortunately, the family has had closure, and Olivia's been 
found, unfortunately not alive. But I can only imagine the 
terror and the heartbreak of your family. I want to extend my 
personal condolences for what you have been through.
    Ms. Crotty, I don't know the Navajo as well as I know many 
of the other Plains Tribes here. But I understand the 
remoteness problem. It is probably not as great as what we see 
in Alaska. But can you describe to me the challenges that you 
have in getting a response from the FBI or from BIA, given the 
remoteness of the Navajo Nation?
    Ms. Crotty. Thank you, Senator, for the question. I think 
in terms of the response time, our law enforcement, what we are 
looking and thinking about is, we have first three different 
State jurisdictions. It is interesting, because we are talking 
about a Federal program to provide protection services. And 
each of the States have different nuances in how they approach 
some of their investigations.
    For example, like the State of Utah, the FBI that are out 
of the State of Utah. They have a different system in how they 
investigate crimes. And they then before, in some cases make an 
immediate arrest, have to go back to a judge. So the individual 
investigating the crime will investigate a crime in the Utah 
area, then have to travel one to two hours to go to St. George 
to talk to a judge to get an arrest warrant.
    So we find this with not only sexual assault cases, but how 
does that play a part? Because what we're talking about is the 
commitment or the amount of hours that each agent is on the 
ground working some of these cases. So when they have the 
remoteness and geographic factors, it just compounds the issue.
    When I want to really stress is also the need for advocates 
to be part of the system. We have five FBI agents on all of 
Navajo Nation, six advocates to a system. But that is not 
nearly enough individuals there to help the families and to 
help the victims and the survivors to process this very 
complicated system that is not designed as a victim-centered 
solution. It is a criminal justice system that at sometimes 
just does not provide justice for the missing and the murdered 
in Indian County.
    That is what we keep seeing time and time again. And the 
community members are so frustrated, and they say, we tell the 
story, we tell them, this person told us this information. Find 
out about it. There is really no accountability for the family 
to know, was that investigated, was every rock unturned.
    So it is a complicated balancing act, because I mentioned, 
criminal investigators also act as medical examiners. So they 
are playing these dual roles. I see that in Indian Country in 
particular with our FBI agents. They have to play many roles. 
What we need them to focus in on is get that evidence as soon 
as possible, take this seriously.
    What I wanted to hear from your first panel is, what is the 
commitment they are going to make to Indian Country to get 
people on the ground, to make sure that we are not just looking 
at it from a logistic point of view, one agent will serve 
different communities. What is the ultimate goal, if our major 
partners in the Major Crimes Act, if they are the only ones who 
can fully investigate and prosecute, then the buck stops here.
    That is why we are asking our lawmakers, hear our story and 
our challenges, and then help us with this issue. Because we do 
not have jurisdiction to deal with this matter. We do not have 
the funding to do it. We are bound by Federal law that has 
taken this authority away from us.
    So if we are not ready to give that back to us and to hand 
on, then we are here at your mercy asking for your help. And 
why, as Senator Tester said, what is the issue? Why is this not 
happening? That is exactly what we are saying. Our life, we are 
human here, we breathe, we care, our tears are real, our 
families are suffering. And now, if I do say that we lost 
another Navajo woman in the State of Kentucky, because she was 
a traveling worker. We have now three Navajo children that do 
not have a mother.
    So we know mental health plays a part into it. We know that 
all of these jurisdictions play a part into it. But it should 
not be open season on Native women and children and community 
members. We should have a system in place that will fully 
investigate, fully prosecute and then put them away so that our 
communities are safe, and that we change the statistics of what 
is happening. We can only do that with your help. So I 
appreciate the Committee for helping us.
    The Chairman. Senator Daines.
    Senator Daines. Ms. Crotty, it is tough to build on that. 
Thank you for sharing those thoughts.
    I think it raises a fundamental question as a Nation about 
what value we place on human life and what value we place on 
Native American indigenous women across this Country. It is 
pretty clear to me that they are being devalued. When you see 
murder rates, the murder rates of Native American women, it is 
ten times the national average. Anywhere else, that would be 
getting a whole lot of attention, a lot of focus and a lot of 
law enforcement looking at it. There would be public outcry.
    I am struck, Ms. Loring-Heavy Runner, the fact that it was 
two months from the time that Ashley went missing until some 
kind of investigation began, correct?
    Ms. Loring-Heavy Runner. Yes, Senator Daines, that is 
correct.
    Senator Daines. And then there was nine months of virtually 
no information, updates to the victim in this case, to the 
family. Is that correct? From law enforcement.
    Ms. Loring-Heavy Runner. From law enforcement, well, we 
went, I think the longest that we went without speaking with 
law enforcement was about three months, yes.
    Senator Daines. And how many searches have you conducted?
    Ms. Loring-Heavy Runner. Over 120 searches.
    Senator Daines. A hundred and twenty searches. I would 
imagine, for a moment, you said you have encountered grizzly 
bears?
    Ms. Loring-Heavy Runner. Yes, we have run into two in one 
day at the same time.
    Senator Daines. So, Senator Murkowski alluded to this, in 
Alaska, Ms. Alexander, about the fact that a moose is getting 
better protections in Alaska than a Native American woman or an 
indigenous woman. Similarly, I just wonder, if you would have 
had to kill a grizzly bear in self-defense, would there have 
been a more rigorous investigation of that incident than 
investigating Ashley's appearance?
    Ms. Loring-Heavy Runner. Well, for example, back in 
Montana, in Browning, there was a poached deer. They found 
fingerprints all over some stuff around the deer, and that 
exact same day they sent it all to the crime lab. Which we are 
still waiting for the sweater and the boots to be sent to the 
crime lab. I believe that the deer is sad, it was treated more 
seriously than us humans were, yes.
    Senator Daines. A poached deer got a more thorough 
investigation than your sister?
    Ms. Loring-Heavy Runner. Yes, either a deer or an elk, yes.
    Senator Daines. I think this just comes back to the 
importance of why these issues need to be elevated to this 
Committee, to this Nation's capitol. This is a fundamental 
question of how we value some of human life and those who are 
the most vulnerable. You can be a voice for those who don't 
have a voice here today. I hope that message is received 
strongly by law enforcement, by members of Congress, so that we 
can conduct investigations and find out what happened to 
Ashley. And if the victims' families could be updated around 
what's happening.
    If there is one or two things you want us to take away, 
Kimberly, what would be the one or two things you would ask of 
us that we can do?
    Ms. Loring-Heavy Runner. I would ask for you to please look 
into the law enforcement, look into the BIA and all the other 
law enforcements that do deal with missing and murdered 
indigenous women. Because they are doing something wrong. This 
isn't just from Ashley's case. We spoke with a lot of other 
families, and they had the exact same stories as what we went 
through.
    And this is not just from this year or the year when Ashley 
went missing. In 1980, this little girl went missing in 
Browning, she was about eight years old. They told the parents, 
it was the middle of winter, they told her that Monica just 
went out to hang with friends, in the middle of the night of a 
big storm. They told her that.
    So even back then, they were not doing their job. There is 
something seriously wrong here, because our girls, our people 
and our men, are important. That is why I am here today to 
stress to you that we shouldn't have to be here and plead to 
make us important, because we are important. We are people. We 
are important. That is all I have to say.
    Just look into it and let them change. Hopefully in the 
future, that we wouldn't have to worry about any more missing 
and murdered indigenous women. That is what I think. I could go 
on and on. I could be here all night. Thank you, Senator 
Daines.
    Senator Daines. Thank you.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
you and Vice Chair Udall for holding this hearing. It has been 
going on for about two hours and 40 minutes, maybe the longest 
hearing we have had this year in Indian Affairs. I think it was 
a hearing that we were past due to have, and I am very, very 
happy that under your leadership, Chairman Hoeven, and Vice 
Chair Udall, that we had this.
    I want to thank the folks on this panel for testifying. I 
know it is not easy, it cannot be easy.
    And to Senator Heitkamp, and the people you represent, the 
communities you represent, I very much appreciate it.
    I also want to recognize Charles Addington from the Bureau 
of Indian Affairs, because he did stick around. Oftentimes we 
have hearings, and I get the impression, over the last 12 years 
that I have been here, that sometimes folks from the 
Administration come to check the box and walk out the door.
    Mr. Addington, your sitting here and listening to this, I 
know you had other things you could be doing. But I think it 
represents the fact that you are going to take this issue 
seriously, and I appreciate that. I think the proof will be in 
the pudding when we get done with all of this. If we can figure 
out a way for tribal law enforcement and BIA and FBI, and 
whoever else is in the equation, to be able to work better 
together, there are a lot of things that have been said today, 
as I have listened to the testimony of the second panel in 
particular, our votes have stopped, so I could listen to them 
all. They were very disturbing.
    One of the ladies said there is a trust issue. It might 
have been you, Amber. And if there is a lack of trust, we have 
major problems right off the top and we need to figure out how 
to solve that problem in and of itself. The truth is that are 
our first responders, whether they are in Indian Country or 
anywhere else. They are an incredible asset to us, and we ought 
to be trusting of them to do the job that they were hired to 
do.
    I would also say that there are some issues around evidence 
that are very, very disturbing. But I do want to start with 
you, Kimberly, and just kind of go down the line. You said that 
you sister was missing on June 12th of 2017. Were the tribal 
police the first ones who started the investigation, or was it 
somebody else? Was it a search and rescue team, or who was it? 
Who started?
    Ms. Loring-Heavy Runner. The first people who we spoke with 
were the tribal police, and the BIA at the same time.
    Senator Tester. At the same time. And that was on June 
12th, when your sister turned up missing?
    Ms. Loring-Heavy Runner. No, the problem with that is that 
the first lead that they got was on June 25th, and that is when 
they started the three-day search.
    Senator Tester. Okay, so did you know she was missing 
before the 25th of June and did you report it?
    Ms. Loring-Heavy Runner. So we were told that Ashley was 
hanging out with a family friend. And this family friend, he 
was in a very rural place. So it was fine for that. And then 
when we actually got to see this family friend, he stated that 
he hasn't seen Ashley for two weeks.
    Senator Tester. Okay, I got you. So then you knew there was 
big-time trouble at that moment in time.
    Ms. Loring-Heavy Runner. Yes.
    Senator Tester. And the FBI came in like, if my math is 
right, nearly ten months later. And that FBI was brought in at 
the request of who? At the request of you or the BIA, or the 
tribal police, or do you know?
    Ms. Loring-Heavy Runner. We were told that they were 
brought in by the request of the BIA.
    Senator Tester. Okay. And you were told that if the FBI was 
brought in, that Ashley would never be found, is that correct?
    Ms. Loring-Heavy Runner. Exactly. That was from the head of 
the BIA agent that was on her case, he is the main guy. He 
quoted that if the FBI was to get on Ashley's case, Ashley will 
never be found. Because he worked his hardest, and the FBI will 
not look for Ashley.
    Senator Tester. Okay. And as far as the evidence with the 
sweater and the boots, is that still in tribal police hands, or 
BIA hands, or whose hands?
    Ms. Loring-Heavy Runner. I did call them last week and I am 
still waiting for a call back to see where the sweater is at.
    Senator Tester. We have work to do. There is no doubt about 
that. We have to figure this out. I am not sure we got any 
answers today, I mean, you guys gave us answers. You gave us 
answers, your experience. But I'm not sure we have answers on 
what needs to happen, other than better communication up and 
down the line. That is pretty obvious.
    Mr. Chairman, I don't think this should be our last hearing 
on this. I will just tell you that. I think we should, once 
again, bring in the respective law agencies and maybe even 
bring in some of the tribal folks on the ground that are in law 
enforcement this next Congress, and try to figure out what is 
going on here.
    Because I will go back to where I started, and that is, 
would we have a different reaction if this was non-Native? I am 
just telling you, it would be a different reaction. These 
folks, it was pointed out, they love and they live and they 
cry. We are not living up to any of our responsibilities here, 
trust or otherwise. Every missing person is important.
    The communities they impact and the families they impact, 
it can literally rip the heart out of you. Hopefully we can 
work together. I believe you two are going to be chairman and 
ranking member again, is that correct? Congratulations. 
Hopefully you guys can work together this next Congress to 
follow up on this, so that we can get some answers as to what 
the problem is.
    I would just finish by this. Mr. Addington, you are here, 
you are going to be writing up a budget pretty soon. If it is a 
budgetary problem, we really do need to know the facts. And if 
we need, and many of us here are appropriators, in fact, I 
think all three of us are appropriators, and there are some 
others on this Committee that are appropriators, if it is a 
situation that we need more tribal law enforcement, or we need 
more BIA law enforcement, I can tell you, I believe we need 
more FBI law enforcement, and the FBI isn't here. We have 
problems all over the Country with not enough manpower in the 
FBI.
    Thank you very much for being here. I want to thank the 
witnesses on both panels. I want to thank the chairman and 
ranking member one more time, and tell you that I don't think 
we give up on this today. I think we continue to work. You guys 
keep your voices heard. And I will keep my ears open.
    Thank you. God bless you all.
    The Chairman. Thank you, Senator Tester. To pick up on a 
couple of those themes, clearly, we have to find ways to 
strengthen and improve the coordination and all the work that 
is being done by BIA, DOJ and FBI. That came out in the first 
panel, certainly came out in this panel, is we have to get them 
together working with you, better data, and make sure that it 
is more effective.
    To that, also in terms of following up on a comment Senator 
Tester made, for example, an act that I have put forward and 
the vice chairman has co-sponsored, I think we have good 
bipartisan support from the entire Committee. I am hopeful if 
we can't get it this year, we will get it next, and that is the 
SURVIVE Act. The SURVIVE Act stands for Securing Urgent 
Resources Vital to Indian Victim Empowerment, the SURVIVE Act.
    What it would do is there is a national crime victims fund. 
It is $3 billion a year. This was set aside 5 percent, or $150 
million a year, to help with this very issue that we are 
talking about, to help with law enforcement and to help with 
missing and murdered indigenous women and children. And that 
would make a real difference. That is a multi-year bill, so we 
know that that $150 million would be there year after year.
    As Senator Tester pointed out, all three of us are on 
Appropriations. This year we were able to secure $132 million, 
and that is for fiscal year 2018. For fiscal year 2019, we are 
working on $220 million to help with this issue.
    But the nice thing, if we could get our SURVIVE Act passed, 
that is a five-year bill. So we know we would have it for five 
years. Whereas right now, we are working on it year to year.
    So that is an effort to be directly responsive to what you 
are talking about. Your testimony was very powerful today, we 
knew it would be, and it was. We thank you for being here. And 
we all acknowledge we have to do more with law enforcement, 
whether it is FBI, DOJ, BIA, on-reservation, off, to get then 
working and to be responsive. It is a very, very important 
issue.
    Again, I thank you for being here, and we will turn to Vice 
Chairman Udall for his closing remarks.
    Senator Udall. Chairman Hoeven, thank you very much for 
your comments and your commitment to this issue. I think there 
is a reason this is one of our longest hearings, because I 
think we needed that time and attention to this issue, no doubt 
about it.
    One of the issues, and I will put questions to the record 
to all the law enforcement people that appeared here, and first 
just thank all of you for the passionate, moving testimony. I 
think you really highlight in a very significant way why we are 
here.
    To me, one of the biggest issues here is the resource 
issue. Do we have adequate law enforcement officers to do the 
job? At one level, you are only as good as the people you have 
working on the problem. So numbers are really important here.
    I have numbers that are not totally, you don't see the 
total spread, total broad brush. But it gives you a little bit 
of an idea. The best practices in law enforcement are to have 
about three officers for a thousand people. That is what most 
of our cities and counties and State police, that kind of 
situation, three officers per 1,000 people.
    Indian Country is over 87,000 square miles, or nearly one 
people live on or near reservations. Yet the FBI only has 140 
FBI agents assigned to investigate Indian Country crimes. So 
let's take that out to the three and compare. There is only 
0.14 agents per 1,000 reservation residents. So we are talking 
there about a small fraction of what is needed; 0.14 is a 
fraction, a very small fraction of one officer, not the three 
officers, which are the best standard.
    BIA, tribal, State law enforcement also provide public 
safety services on tribal lands. But they experience similar 
officer understaffing issues. For example, the Navajo Nation 
estimates there are 0.85 officers per every 1,000 individuals. 
So that is closer to one, Council Delegate Crotty, but it still 
is not even the one. So you are well below the three.
    So the testimony here, and especially, Kimberly, yours, 
said law enforcement failed your sister. And you noted other 
failures that you have heard about. If we don't even have the 
minimum number of law enforcement officers needed, we are going 
to have more of those failures. There is no doubt about it. We 
see that, and we have heard that.
    So in my opinion, this is totally unacceptable. I would 
just say, FBI and BIA, please take note here. I hope that you 
are putting in the requests. A lot of times, we have a very 
hard time with witnesses coming from the Executive Branch 
telling us what they are actually requesting, because they have 
to defend the overall budget document.
    But I would just urge the FBI and the BIA, put in the 
request and ask for the adequate numbers of law enforcement 
officers that are needed for this situation. Now, there is a 
lot more than just numbers, and you all have elucidated that. 
But I just wanted to, in my closing, talk a little bit about 
where we are in terms of numbers. If this was occurring in a 
county some place, and you had those numbers that low, the 
elected officials would immediately raise the numbers and say, 
we have to get after this.
    Same thing is true of a State, or, we had a big crime 
problem in our big city of Albuquerque recently. The mayor 
immediately came out and said, I want 300 more officers on the 
streets. And he is in the process of hiring those.
    So I think we need to focus on that adequacy. But once 
again, let me thank the witnesses in terms of you have 
highlighted the kinds of things that we need to be doing. I 
think this is really, as Senator Tester and the chairman have 
said, I think we are going to continue to look into this. He 
has the SURVIVE Act. We have Savanna's Act. And based on this 
hearing, we may have more things that we have to put in in 
terms of legislation. We obviously have our work to do on 
Appropriations.
    So thank you again, very much. We really appreciate it.
    The Chairman. Thank you, Vice Chairman Udall.
    If there are no more questions from the members, you do 
have the opportunity to submit follow-up questions. So there 
may be follow-up questions that you would get for the record. 
We would ask that you try to respond, and the record stays open 
for two weeks. We would ask that you respond to those 
questions.
    I want to thank the witnesses again for your time and for 
your testimony. We truly appreciate it.
    With that, we are adjourned.
    [Whereupon, at 5:26 p.m., the hearing was concluded.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Tom Udall to 
                      Kimberly Loring-Heavy Runner
    Question 1. 1. What can Congress do to improve coordination efforts 
among federal, state, local and tribal Lea's?
    Answer. I believe law enforcement's poor coordination efforts and 
lack of communication with family was the result of poorly trained Law 
enforcement officers. The proper training and education on mmiw will 
help benefit the outcome of these women's cases. Law enforcement 
agencies have been dealing with mmiw cases for decades with little to 
no success. These numbers of unsolved cases should have been enough 
evidence to prove that the protocol they are using is not working, and 
desperately needs to be changed. All Officers need to go through 
enhanced training when working with missing and murdered indigenous 
people cases and obtain all the proper tools to end this silent crisis.

    Question 2. What more can congress do to increase NamUs usefulness 
in finding missing and murdered indigenous women?
    Answer. To be honest I never heard about NamUs till the day of the 
MMIW hearing. On December 12th 2019, 17 months after Ashley went 
missing. I was never educated on the usefulness of NamUs. I believe 
congress should push for NamUs to be required by law that all law 
enforcement agencies be required to use NamUs as well as update NamUs.

    Question 3. What do you think would be the most helpful when it 
comes to investigating missing and murdered indigenous women?
    Answer. The law enforcement need to take every MMIW case seriously 
as they do every other case. Ashley case was mistreated and mishandled 
by law enforcement which resulted with Ashley case going on unsolved 
for almost 2 years. I believe coming up with a well organized protocol 
that allows law enforcement to be well trained with dealing with MMIW 
cases. Forming a special task force just is designed to work only with 
MMIW. I believe this would work for law enforcement as well with 
families of MMIW. The biggest down fall with law enforcement is 
communication. By forming a special task force for MMIW, it will 
improve communication as well as hopefully solve more cases.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Patricia Alexander
    Question 1. While many of your tribal members are spread out across 
vast rural areas, you also have many members living in urban centers. 
This means that some of your members face very different circumstances 
and issues than others, and both situations present their own 
challenges when it comes to addressing the crisis of missing and 
murdered indigenous women and girls. How do you think about the 
divide--when it comes to resources, law enforcement jurisdiction, and 
the threats women and girls face to their safety?
    Answer. We agree that we have diverse citizens that travel and live 
all around the world. However, the majority are still located together 
in their home villages, neighboring relative's villages or other 
similar area. The resources to our rural areas are often scarce, but 
needed. Our Urban populations may have access to other resources as 
general ``citizens'' of the US, but our village citizens truly have 
vast limitations. We need resources, money, services and training to 
provide the necessary support. The State of Alaska, as a PL 280 state, 
has been tasked with providing these services, but over the years we 
continue to see that they don't understand our needs and their 
priorities are often not what we consider primary. In addition, with 
the budget crisis in Alaska, we see a dwindling of resources to our 
villages. An example is if a judicial officer retires and has served a 
village, the state may not fill that position. That happened in Kake, 
Alaska where long time magistrate Mike Jackson retired. The state 
closed the court there. This story is not unique. In the same village, 
the city had police. The state no longer funds law enforcement there. 
The city of Kake is required to call into an offsite 911/1-800 service 
for any emergencies, sometimes only able to leave a message. Law 
enforcement response is often delayed, which jeopardizes the chain of 
custody of any potential crime to be investigated. Our villages need 
resources.

    Question 2. As Patricia likely knows, the Department of Justice 
operates a ``central clearinghouse'' database to help share information 
about missing persons cases called NamUs. There is no requirement/law 
that all missing persons cases be entered in NamUs. And, even though 
the system is supposed to be accessible to families to input 
information, at least one law enforcement agency has to approve all 
inputted information. So, Senator Udall is interested to know more 
about how often missing person cases on tribal lands are entered into 
the system. He will likely ask--Does Patricia know if her Tribe--which 
is dependent on the State and VPSOs--has access to NamUs/clearance to 
initiate cases in the NamUs system?
    Answer. NamUs is different than FBI CJIS's Missing persons file, 
they are two separate systems that cannot currently talk to each other 
for several reasons. Anyone can have access to NamUs, literally. All 
they have to do is set up an account, and enter the information they 
want to enter about a missing person. Then the NamUs staff take that 
information and confirm with LE before it can go out publically. There 
are less missing Native persons in NamUs than there are in FBI CJIS's 
missing persons file, likely because LE doesn't use it in the same way. 
NamUs is completely voluntary, and was originally set up to try to 
match remains found with people who were missing. FBI CJIS's database 
is also voluntary except for entry of missing persons under age 18 
which is mandatory, and then some states have mandatory missing person 
reports to CJIS by their state law but it is way less than half. So the 
question that has been asked apparently is if the Tribe has access to 
initiate cases in NamUs, and the answer is absolutely, anyone can enter 
this information. However, we do not currently have the infrastructure 
that would track this type of information and assign someone to enter 
such information.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Patricia Alexander
    Question 1. While many of your tribal members are spread out across 
vast rural areas, you also have many members living in urban centers. 
This means that some of your members face very different circumstances 
and issues than others, and both situations present their own 
challenges when it comes to addressing the crisis of missing and 
murdered indigenous women and girls. How do you think about the 
divide--when it comes to resources, law enforcement jurisdiction, and 
the threats women and girls face to their safety?
    Answer. We agree that we have diverse citizens that travel and live 
all around the world. However, the majority are still located together 
in their home villages, neighboring relative's villages or other 
similar area. The resources to our rural areas are often scarce, but 
needed. Our Urban populations may have access to other resources as 
general ``citizens'' of the US, but our village citizens truly have 
vast limitations. We need resources, money, services and training to 
provide the necessary support. The State of Alaska, as a PL 280 state, 
has been tasked with providing these services, but over the years we 
continue to see that they don't understand our needs and their 
priorities are often not what we consider primary. In addition, with 
the budget crisis in Alaska, we see a dwindling of resources to our 
villages. An example is if a judicial officer retires and has served a 
village, the state may not fill that position. That happened in Kake, 
Alaska where long time magistrate Mike Jackson retired. The state 
closed the court there. This story is not unique. In the same village, 
the city had police. The state no longer funds law enforcement there. 
The city of Kake is required to call into an offsite 911/1-800 service 
for any emergencies, sometimes only able to leave a message. Law 
enforcement response is often delayed, which jeopardizes the chain of 
custody of any potential crime to be investigated. Our villages need 
resources.

    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

   Written Questions Submitted by Hon. Tom Udall to Charles Addington
Staffing
    Question 1. Indian Country is over 87,000 square miles and nearly 1 
million people live on or near reservations. During the hearing, 
Senator Udall stated, ``the best practices in law enforcement are to 
have about 3 officers for 1,000 people, [yet] there's only 0.14 agents 
for 1,000 reservation residents.'' The Committee has heard from Tribes 
that there is a law enforcement shortage in Indian Country. This law 
enforcement shortage affects coordination efforts to resolve missing 
and murdered Indigenous women cases.

        a. What is the proportion of BIA officers to total residents on 
        tribal lands in the United States?

        b. Does the BIA have plans to increase the number of BIA 
        officers on tribal lands?

    Question 2. Where is the central location for BIA officers with 
respect to reservation populations within Indian country?

    Question 3. Many tribal communities are located in rural areas. 
Does the BIA have data on the average response time of its officers to 
crimes committed within Indian country?

    Question 4. As mentioned by Navajo Nation Council Delegate Amber 
Crotty, one barrier to solving crimes in Indian country is a lack of 
medical examiners. She mentioned that there were zero medical examiners 
located within the Navajo Nation, which encompasses more than 27,000 
square miles of land and inhabited by 350,000 people. The lack of 
medical examiners means deceased victims within Navajo Nation must be 
transported hundreds of miles away to urban medical centers to conduct 
an autopsy.

        a. Does the BIA have data on how many tribes do and do not have 
        medical examiners within their tribal communities?

        b. Does the BIA have plans to provide tribes with better access 
        to medical examiners?

Data and Coordination
    Question 5. The Tribal Law and Order Act (TLOA) requires the 
Offices of the United States Attorneys to designate an Assistant United 
States Attorney as a Tribal Liaison to facilitate communication, 
coordination efforts, and conduct outreach to the tribal law 
enforcement. Recent Department of Justice reports indicate that 
communication and outreach vary from robust to non-existent between 
Tribal Liaisons and tribal authorities. Do the BIA law enforcement 
officers engage with Tribal Liaisons in missing and murdered indigenous 
women (MMIW) cases?

    Question 6. The National Missing and Unidentified Persons System 
(NamUs), administered by the National Institute of Justice (NIJ), is a 
nationwide clearinghouse on missing and unidentified or unclaimed 
deceased persons for all stakeholders, from the general public to law 
enforcement agencies. In January 2019, NamUs plans to update their 
database to include five additional fields for Native people. Those 
fields are:

        a.Individual's primary residence located on or near tribal 
        lands;
        b.Tribal enrollment or affiliation status;
        c.Last known location located on or near tribal lands;
        d.Location of remains on or near tribal lands, and
        e.Tribal participation in the Tribal Access Program.

    There is no requirement for law enforcement agencies to create a 
record in NamUs when undertaking a missing persons investigation.

        a. Does the BIA currently utilize NamUs when tracking MMIW 
        cases? If not, does the BIA plan to utilize NamUs in the 
        future?

        b. Does the BIA have plans to utilize the five additional 
        fields on Native peoples come in January 2019?
                                 ______
                                 
   Written Questions Submitted by Hon. Tom Udall to Hon. Amber Crotty
Data and Coordination
    Question 1. During the hearing, you indicated that the lack of 
coordination between federal, state, and tribal law enforcement 
agencies (LEAs) is a critical obstacle to the effective investigation 
of crimes within the Navajo Nation. You also mentioned that state LEAs 
have actively approached the Navajo Nation to improve coordination and 
data collection efforts. What can Congress do to improve coordination 
with tribal law enforcement agencies such as Navajo Nation Police 
Department?

    Question 2. You mentioned in your testimony that the planned 
expansion of the Tribal Access Program (TAP) provides ``tribes with 
access to national crime information systems for both criminal and 
civil purposes. [This] presents an opportunity for congressional 
leaders to expand the program to develop a database to adequately track 
missing Navajo citizens and compile information to share across 
jurisdictional boundaries.'' What can Congress do to increase tribal 
access to TAP and ensure that TAP effectively serves the Navajo Nation 
and other tribes?

    Question 3. During the hearing, you mentioned the data collected by 
the Nation and their federal partners was different. The difference in 
data collections leads to an inaccurate count of missing and murdered 
individuals.
    One potential solution is the National Missing and Unidentified 
Persons System (NamUs). NamUs a national missing person clearinghouse 
and resource center for all stakeholders, from Law Enforcement Agencies 
(LEAs) to the public. DOJ is updating NamUs in January 2019 to include 
more five informational fields on Native people. Those fields include:

  <bullet> Individual's primary residence located on or near tribal 
        lands;
  <bullet> Tribal enrollment or affiliation status;
  <bullet> Last known location located on or near tribal lands;
  <bullet> Location of remains on or near tribal lands, and
  <bullet> Tribal participation in the Tribal Access Program.

        a. What more can Congress do to help the Navajo Nation and 
        other Tribes successfully utilize NamUs to track missing and 
        murdered Indigenous people?

        b. What can the National Institute of Justice do to help the 
        Navajo Nation and other Tribes successfully utilize NamUs?

Staffing and Training

    Question 4. In your testimony, you noted that because the Navajo 
Nation does not have its own Office of the Medical Investigator (OMI), 
a decedent must be transported to Albuquerque, New Mexico, which is 
over three hours away, to a state facility for an autopsy. The distance 
from a crime scene to the OMI has a negative effect, such as report 
delays, on the investigation and could make the crime more difficult to 
prosecute resulting in case declinations.

        a. What can Congress do to help Tribes, like the Navajo Nation 
        obtain their own OMIs to help increase the efficiency of 
        investigations?
                                 ______
                                 
    Written Questions Submitted by Hon. Tom Udall to Robert Johnson
Declinations
    Question 1. According to a 2017 Department of Justice (DOJ) report 
on Indian Country investigations and prosecutions, the Federal Bureau 
of Investigations (FBI) declined to refer 20.5 percent of the Indian 
Country criminal investigations it opened to U.S. Attorney's Offices 
(USAOs) for prosecution. The primary reasons for closing cases without 
a prosecutorial referral were: 1) the cases did not meet statutory 
definitions of a crime or USAO prosecution guidelines, and 2) the cases 
contained unsupported allegations.

        a. What is the FBI's standard for declining to refer a case to 
        a USAO?

        b. How does the FBI evaluate whether or not allegations in a 
        criminal investigation are supported?

        c. Does the FBI track how many of these cases involve missing 
        or murdered Indigenous women?

    Question 2. The same DOJ report states that USAOs declined to 
prosecute 37 percent of all Indian country cases referred to them, with 
the most commonly cited reason for doing so being ``insufficient 
evidence.'' Insufficient evidence is broadly defined and there is very 
little data on what is considered insufficient evidence.

        a. What is the DOJ's standard for declination on the grounds of 
        insufficient evidence?

        b. Does the DOJ have feedback from USAOs who work in Indian 
        Country about why evidence gathered at a crime scene is deemed 
        insufficient and the case must be declined?

        c. Does the DOJ or other federal agencies provide training 
        regarding evidence gathering to local law enforcement 
        officials? Are there guidelines or protocols that must be 
        followed?

Staffing

    Question 3. Indian Country is over 87,000 square miles and nearly 1 
million people live on or near reservations. During the hearing, 
Senator Udall stated, ``the best practices in law enforcement are to 
have about 3 officers for 1,000 people, [yet] there's only 0.14 agents 
for 1,000 reservation residents.'' There are not enough officers and 
agents in the field to ensure the safety of Native communities. This 
law enforcement shortage directly affects coordination efforts to 
resolve missing and murdered Indigenous women cases.

        a. FBI coverage in Indian country is just a fraction of what 
        best practices in law enforcement recommend. What are the FBI's 
        plans to remedy this situation?

    Question 4. Indian Country covers a large area and many tribal 
communities are located in rural areas. There are 36 FBI field offices 
located throughout the country and many are located in larger 
metropolitan areas like Albuquerque, New Mexico and Phoenix, Arizona. 
Albuquerque is over 160 miles from the capital of the Navajo Nation and 
Phoenix is over 280 miles away.

        a. Where are the 140 FBI agents assigned to Indian Country 
        located with respect to the reservations in Indian country?

        b. Does the FBI collect data on the average response time of 
        its agents to crimes committed in Indian country?

          i. If yes, what is the average response time and is this data 
        publicly available?

Data and Coordination

    Question 5. You mentioned during the hearing that the FBI is 
improving its primary database on missing persons, the National Crime 
Information Center (NCIC), with input from law enforcement agencies 
(LEAs), including tribal LEAs. One of these improvements involves 
developing a new ``name search algorithm that will enhance the ability 
to search Native American names.''

        a. Has the FBI tested the efficacy of the name search algorithm 
        regarding identification of missing or murdered indigenous 
        people?

        b. Has the FBI considered adding additional fields, such as 
        tribal enrollment information, regarding Native peoples to 
        NCIC?

    Question 6. The lack of data sharing among LEAs is one of the 
obstacles to an efficient and effective police response to crime in 
Indian country. LEAs are not required to enter information into the 
National Missing and Unidentified Persons System (NamUs). Access to the 
National Crime Information Center (NCIC) requires certification for 
current or pending law enforcement employees with a background and 
fingerprint check. Furthermore, information cannot be shared between 
NamUs and NCIC. These restrictions on access and sharing of vital 
information must be addressed.

        a. What legal or structural obstacles exist that prevent the 
        FBI from sharing information on crimes in Indian country with 
        other LEAs?

        b. Does the FBI utilize Tribal Liaisons in communicating 
        relevant information on Indian Country crimes to tribes, and 
        vice versa?

        c. Does the FBI utilize the National Missing and Unidentified 
        Persons System (NamUs) to track or solve crimes within Indian 
        Country?
                                 ______
                                 
    Written Questions Submitted by Hon. Tom Udall to Gerald LaPorte
Data and Coordination
    Question 1. You elaborated on the five fields to be added in 
January 2019 to the National Missing and Unidentified Persons System 
(NamUs) on Native people. Those fields are:

        a. Individual's primary residence located on or near tribal 
        lands;

        b. Tribal enrollment or affiliation status;

        c. Last known location located on or near tribal lands;

        d. Location of remains on or near tribal lands, and

        e. Tribal participation in the Tribal Access Program.

    I am encouraged by your efforts to involve Native stakeholders, 
tribal, state, and federal, in the process of developing and 
implementing these fields.

        a. What are is the National Institute of Justice's (NIJ) plan 
        for reviewing the purposeful utilization of these fields?

        b. Will the NIJ include their findings in a report?

Training

    Question 2. During the hearing, you stated that NIJ has a ``boots-
on-the-ground team'' that provides training, technical assistance, and 
case support to aid investigations. You also stated in the past year, 
NIJ had concentrated their efforts to provide training and outreach to 
Indian Country. In fact, NIJ states they held 22 events in 13 states. 
However, testimony from our tribal witnesses indicate that neither 
training nor outreach was conducted within their tribal communities.

        a. Please provide a list of the past training and outreach 
        events conducted within Indian Country.

        b. Does NIJ plan to provide more training events for Tribes?

Staffing

    Question 3. You mentioned during the hearing that NIJ has been 
working with the Office of Victims of Crime (OVC) to create a tele-
medicine program to ensure that rape victims in remote areas, such as 
Alaska, do not have to travel to distant urban areas for examinations.

        a. What is NIJ's timeline for implementing this program in 
        Alaska Native villages?
                                 ______
                                 
 Written Questions Submitted by Hon. Catherine Cortez Masto to Charles 
                               Addington
    Question 1. In the Urban Indian Health Institute's eye-opening 
report on missing and murdered indigenous women and girls, the authors 
of the report come to the conclusion that ``no agency can adequately 
respond to violence it does not track.'' Do you agree with this 
statement, yes or no?

        a. What are you doing in order to improve the data collection 
        on missing and murdered indigenous women and girls?

    Question 2. What role do you believe human trafficking plays in the 
crisis of missing and murdered indigenous women and girls?

    Question 3. In your testimony, you described how the BIA has 
partnered with DOJ's Missing and Unidentified Persons System (NamUs) to 
create new data fields to capture tribal affiliation data. What kind of 
outreach to law enforcement agencies and tribes are you conducting to 
make sure all relevant parties are aware of this change and are using 
it effectively?

    Question 4. Ensuring tribal enrollment information is accurately 
recorded in federal databases is one of the provisions of Savanna's 
Act, which recently passed the Senate. Are you working with databases 
other than NamUs to ensure they all capture tribal affiliation data?

    Question 5. Tribal access to federal crime databases is an ongoing 
issue. To your knowledge, do tribes have full access to NamUs and the 
National Crime Information Center (NCIC)?

    Question 6. Other witnesses before the committee described the need 
to help families of missing women navigate the complex web of law 
enforcement systems and databases. What role should BIA play in helping 
family members when a loved one goes missing?

    Question 7. Witnesses before the committee all agreed that more 
data should be collected on missing and murdered indigenous women and 
girls, but collecting or reporting data that includes personally 
identifiable information can be dangerous, and increased data 
collection can add responsibility to public safety officers and victim 
service providers. How do we learn more about the problem confronting 
us without putting victims at risk or making it harder for law 
enforcement and victim service providers to do their jobs?
                                 ______
                                 
 Written Questions Submitted by Hon. Catherine Cortez Masto to Robert 
                                Johnson
    Question 1. In the Urban Indian Health Institute's eye-opening 
report on missing and murdered indigenous women and girls, the authors 
of the report come to the conclusion that ``no agency can adequately 
respond to violence it does not track.'' Do you agree with this 
statement, yes or no?

        a. What are you doing in order to improve the data collection 
        on missing and murdered indigenous women and girls?

    Question 2. What role do you believe human trafficking plays in the 
crisis of missing and murdered indigenous women and girls?

    Question 3. Other witnesses before the committee described the need 
to help families of missing women navigate the complex web of law 
enforcement systems and databases. What role should the FBI play in 
helping family members when a loved one goes missing?

    Question 4. Witnesses before the committee all agreed that more 
data should be collected on missing and murdered indigenous women and 
girls, but collecting or reporting data that includes personally 
identifiable information can be dangerous, and increased data 
collection can add responsibility to public safety officers and victim 
service providers. How do we learn more about the problem confronting 
us without putting victims at risk or making it harder for law 
enforcement and victim service providers to do their jobs?
                                 ______
                                 
 Written Questions Submitted by Hon. Catherine Cortez Masto to Gerald 
                                LaPorte
    Question 1. In the Urban Indian Health Institute's eye-opening 
report on missing and murdered indigenous women and girls, the authors 
of the report come to the conclusion that ``no agency can adequately 
respond to violence it does not track.'' Do you agree with this 
statement, yes or no?

        a. What are you doing in order to improve the data collection 
        on missing and murdered indigenous women and girls?

    Question 2. What role do you believe human trafficking plays in the 
crisis of missing and murdered indigenous women and girls?

    Question 3. Witnesses before the committee all agreed that more 
data should be collected on missing and murdered indigenous women and 
girls, but collecting or reporting data that includes personally 
identifiable information can be dangerous, and increased data 
collection can add responsibility to public safety officers and victim 
service providers. How do we learn more about the problem confronting 
us without putting victims at risk or making it harder for law 
enforcement and victim service providers to do their jobs?
                                 ______
                                 
  Written Questions Submitted by Hon. Catherine Cortez Masto to Hon. 
                              Amber Crotty
    Question 1. In your testimony, you described the need to help 
families of missing women navigate the complex web of law enforcement 
systems and databases. Can you share any ideas you might have to 
address this issue?

    Question 2. While many of your tribal members are spread out across 
vast rural areas, you also have many members living in urban centers. 
This means that some of your members face very different circumstances 
and issues than others, and both situations present their own 
challenges when it comes to addressing the crisis of missing and 
murdered indigenous women and girls. How do you think about this 
divide--when it comes to resources, law enforcement jurisdiction, and 
the threats women and girls face to their safety?

                                  [all]
</pre></body></html>
